<html>
<title> - ONGOING PROBLEMS AND FUTURE PLANS FOR NOAA'S WEATHER SATELLITES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                   ONGOING PROBLEMS AND FUTURE PLANS
                     FOR NOAA'S WEATHER SATELLITES

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2005

                               __________

                           Serial No. 109-33

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science




                    U.S. GOVERNMENT PRINTING OFFICE
24-525                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                           November 16, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    14

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    15
    Written Statement............................................    17

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    18
    Written Statement............................................    19

Statement by Representative David Wu, Minority Ranking Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    19

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    21

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    21

                               Witnesses:

Vice Admiral Conrad C. Lautenbacher, Jr. (Ret.), Administrator, 
  National Oceanic and Atmospheric Administration (NOAA)
    Oral Statement...............................................    22
    Written Statement............................................    25
    Biography....................................................    28

Dr. Ronald M. Sega, Under Secretary for the Air Force
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    32

Dr. Alexis C. Livanos, President, Northrop Grumman Space 
  Technology
    Oral Statement...............................................    34
    Written Statement............................................    35
    Biography....................................................    39

Mr. David A. Powner, Director of Information Technology 
  Management Issues, Government Accountability Office
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    54

Discussion
  Cost Overruns..................................................    55
  Funding Levels and Delays......................................    55
  EXCOM and Decision-making......................................    58
  Launch Schedule and Funding....................................    60
  Independent Program Analysis (IPA).............................    61
  Launch Schedule and Funding (cont.)............................    62
  Delaying Costs.................................................    64
  Satellite Coverage and Forecast Degradation....................    66
  IPA Recommendations............................................    68
  Cost Overruns and Funding Priorities...........................    70
  Lessons Learned and Future Programs............................    72
  Possible Supplemental Request..................................    75
  Closing Remarks................................................    76

              Appendix: Answers to Post-Hearing Questions

Vice Admiral Conrad C. Lautenbacher, Jr. (Ret.), Administrator, 
  National Oceanic and Atmospheric Administration (NOAA).........    80

Dr. Ronald M. Sega, Under Secretary for the Air Force............    88

Dr. Alexis C. Livanos, President, Northrop Grumman Space 
  Technology.....................................................    92

Mr. David A. Powner, Director of Information Technology 
  Management Issues, Government Accountability Office............    97


    ONGOING PROBLEMS AND FUTURE PLANS FOR NOAA'S WEATHER SATELLITES

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:09 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                   Ongoing Problems and Future Plans

                     for NOAA's Weather Satellites

                      wednesday, november 16, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On November 16, 2005 at 10:00 a.m., the House Science Committee 
will hold a hearing about ongoing problems and future plans for the 
National Oceanic and Atmospheric Administration's (NOAA) key weather 
satellite program, the National Polar-orbiting Operational 
Environmental Satellite System program (NPOESS).
    NPOESS is designed to provide critical weather information for NOAA 
and the Air Force, which are jointly managing the program. (The 
National Aeronautics and Space Administration (NASA), which provides 
technical assistance is also involved in program management, and other 
military services besides the Air Force will also use the data from 
NPOESS.) NPOESS will replace current NOAA and Air Force satellites, 
which are nearing the end of their useful lives. NPOESS is the most 
expensive and perhaps the most complex satellite procurement in NOAA's 
history.
    The NPOESS program has been deeply troubled and is now running as 
much as $3 billion over budget and as many as three years behind 
schedule, creating a possible gap in satellite coverage (if existing 
satellites fail before NPOESS can replace them). NOAA and the Air Force 
recently replaced the lead program manager, and some of the contractors 
have also brought in new people to oversee the program. NOAA and the 
Air Force will soon decide how they are going to bring the program 
under control. The agencies do not seem to be considering any options 
that would require additional funding before Fiscal Year (FY) 2008, but 
waiting to spend more funds is likely to increase total program costs 
and delays.
    The hearing is intended to review how the program went awry, why 
Congress was not given more timely and accurate information on the 
status of the program, and, most importantly, how the program should 
move forward.
    The Committee plans to examine these overarching questions:

        1.  What is the current estimate of the cost and launch date 
        for the first NPOESS satellite compared to the September 2003 
        baseline ($7.4 billion and November 2009) and when will an 
        official new baseline be available?

        2.  What program options are being considered in response to 
        the increased cost and schedule delays?

        3.  It is our understanding that no options are being 
        considered that increase spending in Fiscal Year (FY) 2006 or 
        FY 2007. Why is that the case? Will delaying action until FY 
        2008 increase the lifetime cost of the NPOESS program and 
        increase the risk that the satellite will not be ready in time 
        to perform its mission?

        4.  If the last satellite from the current NOAA polar series 
        fails during launch or in orbit, then, given the schedule 
        delays anticipated for NPOESS, there could be a 19- to 36-month 
        gap in polar satellite coverage for NOAA. If a coverage gap 
        were to occur, what are the implications for NOAA and DOD 
        weather forecasting capabilities? What are the Federal 
        Government's contingency plans for a gap in polar satellite 
        coverage?

Witnesses:

Vice Admiral Conrad C. Lautenbacher, Jr. (Ret.), Administrator of the 
National Oceanic and Atmospheric Administration.

Dr. Ronald M. Sega, Under Secretary of the Air Force.

Dr. Alexis Livanos, President of Northrop Grumman Space Technology.

Mr. David Powner, Director of Information Technology Management Issues, 
Government Accountability Office.

Background:

NPOESS: A new approach to weather satellite development
    The Federal Government has traditionally launched separate weather 
satellites to serve military and civilian needs. The National Polar-
orbiting Operational Environmental Satellite System (NPOESS), begun in 
1994, is the first joint weather satellite program. The National 
Oceanic and Atmospheric Administration (NOAA) and the Department of 
Defense (DOD) together share the cost of developing the NPOESS 
satellites. The National Aeronautics and Space Administration (NASA) 
also supports the program primarily by overseeing the development of a 
small satellite, known as the NPP (for NPOESS Preparatory Project) 
designed to test some of the advanced sensors the NPOESS satellites 
will later carry, reducing the risk that these sensors will not work as 
expected.
    The NPOESS satellites are designed to fly in an orbit around the 
Earth's poles. They complement other weather satellites that orbit the 
Earth at the equator (so-called geostationary satellites because they 
orbit at the same speed as the Earth rotates, and so appear to hover 
above a fixed position on the ground). As polar-orbiting satellites 
circle the Earth, they provide global coverage of weather and climate 
conditions.
    NPOESS satellites are being built to carry instruments, or sensors, 
to measure a number of meteorological features important to developing 
three- to seven-day weather forecasts and for predicting severe 
weather, such as hurricanes. For example, some sensors are being 
developed to measure ocean winds to help predict El Nino and aid the 
military's operation of aircraft carriers. Others will measure soil 
moisture, which is important to agriculture and water resource 
managers. Aerosol detectors will help predict such aviation hazards as 
volcanic ash while helping the military predict whether it will be able 
to accurately spot its targets. Ocean-color sensors can track fish 
populations and ocean-borne pollution while helping the military sweep 
for mines. And as the events of the last few months have shown, 
improved accurate forecasts can help better predict hurricane paths, 
allowing emergency managers to target their efforts and preventing 
unnecessary coastal evacuations that can cost up to $1 million a mile. 
(For list of the 13 instruments to be carried on board NPOESS 
satellites see Appendix 1.)
    The NPOESS program is supposed to produce six weather satellites, 
only three of which will be placed in orbit at any one time. The 
satellites will replace polar-orbiting weather satellites now being 
flown by the military (known as the Defense Meteorological Satellite 
Program, or DMSP satellites) and by NOAA (known as Polar Operational 
Environmental Satellites, or POES). The six satellites, referred to as 
C-1 through C-6, are being developed by Northrop-Grumman Space 
Technology under a contract managed jointly by DOD and NOAA through an 
office called the Integrated Program Office (IPO). (For an 
organizational chart showing the management structure of the NPOESS 
program, see Figure 1.)
    The NPP test satellite is being developed by Ball Aerospace and 
Technologies Corporation under a contract managed by NASA rather than 
by the IPO. NPP will allow weather and climate modelers to determine 
how best to make use of the voluminous advanced data that NPOESS 
satellites will provide. In the past, it has taken up to two years for 
weather forecasters to learn how to adapt their models to use data from 
new NOAA satellites. Because NPP will provide NOAA with 93 percent of 
the data that NPOESS satellites are expected to deliver, the test 
satellite will allow users to take full advantage of NPOESS almost 
immediately after launch.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


A History of Problems with NPOESS
    NPOESS has a history of budget and technical problems (see the 
hearing by the Science Committee's Subcommittee on Environment, 
Technology and Standards in July 2003, available at http://
www.house.gov/science/ ). When first conceived in 1994, NPOESS was 
expected to cost $6.5 billion, a savings of $1.8 billion compared to 
the cost of separately developing new satellite systems for military 
and civilian use. The NPP test satellite was originally expected to be 
ready for launch in May 2006, while the first operational NPOESS, the 
C-1 satellite, was to be available for launch in June 2008.
    The government and contractors drew up a new cost estimate and 
schedule for NPOESS (known as a ``rebaselining'') early last year to 
take into account funding cutbacks in FY 2003 (by Congress) and FY 2004 
(by the Administration). Under the new baseline, the total expected 
cost of the program rose by $900 million (to $7.4 billion) and the 
schedule was delayed by several months: NPP would be launched in 
October 2006 and NPOESS C-1 would launch in February 2009.
    In November 2004, major technical and engineering problems emerged 
with one of the key sensors, known as VIIRS (pronounced like ``veers,'' 
the instrument is a type of infrared camera used to collect images of 
clouds and to probe sea surface temperature, an important aspect of 
hurricane prediction). NOAA said at the time that the problems with 
VIIRS required a further delay in schedule--this time, limited to the 
NPP satellite--of more than a year (to April 2008). In response to the 
problems with the sensor, Raytheon, the subcontractor building VIIRS, 
fired its entire technical team working on the instrument and put new 
staff on the task. (VIIRS is not the only sensor on NPOESS that is 
having problems, but its troubles have been the most problematic thus 
far.)
    NOAA and IPO officials stated publicly at that time that the effect 
of the problems were limited to NPP and would not delay the launches of 
the other satellites or significantly increase the cost of the program 
as a whole. IPO officials repeated that message to Committee staff at a 
briefing on March 23, 2005.
    But earlier in March, NPOESS contractor Northrop-Grumman told IPO 
officials that delays in NPOESS might be required. And on March 31, 
Northrop-Grumman gave a comprehensive briefing to IPO officials 
concluding that problems with the NPOESS satellite program had grown so 
severe that meeting the rebaselined costs and schedule was unlikely. 
(NOAA never reported this information to the Congress, although rumors 
began circulating at the time. Some of the details have emerged from 
government documents requested by the Science Committee.)
    Beginning in April, Committee staff requested briefings from NOAA 
on the problems the program was rumored to be facing, but NOAA 
officials delayed scheduling any briefings, and canceled one briefing 
after it had been scheduled. Northrop-Grumman, too, canceled a briefing 
for Committee staff soon after it had been scheduled. The Committee was 
unable to get a briefing on the status of the program until July 28, 
when, in response to demands by the Chairmen and Ranking Members of the 
Science Committee and its Subcommittee on Environment, Technology and 
Standards, the Administrator of NOAA met with the four Members.
    On August 5, NOAA and IPO officials briefed Committee staff in more 
detail about the problems plaguing the satellite program. At that 
meeting, IPO officials told Committee staff that the IPO did not become 
aware of the severity of NPOESS' problems until May--in reality, almost 
two months after the IPO had received Northrop-Grumman's briefing, 
according to documents provided to the Committee.
    The Committee then sent a letter to NOAA (dated August 12) 
requesting documents relating to the problems with the NPOESS and NPP 
programs and when government officials learned of them. Initially, NOAA 
responded only partially to the request. On October 20, the Committee 
sent another letter following up on the first. Last Thursday, NOAA 
began providing the additional documents and, while it has yet to 
comply completely with the request, NOAA now seems to be cooperating 
with the Committee's investigation.

What Went Wrong
    In retrospect at least, it seems clear that the government and the 
contractor did not fully appreciate the complexities inherent in 
building VIIRS. These difficulties should have been noted at the 
Critical Design Review, a key step in moving ahead with a satellite, 
which for VIIRS occurred in early 2002. Northrop-Grumman now says that 
it had assumed that because some aspects of VIIRS were based on 
existing instruments, developing the sensor as a whole would be simpler 
than it has turned out to be. Raytheon contends that it was aware of 
the aspects of VIIRS that could cause problems during development, but 
clearly its bid did not accommodate the problems that were to occur. 
Both contractors agree that their bids, following what they say is 
standard practice, had about a 50 percent confidence level--that is, 
the contractors assumed there would be a 50 percent chance that their 
cost estimates would be accurate, and they provided reserve funds for 
the project accordingly. Those reserves have proven to be inadequate 
and have already been entirely consumed. The agencies and the 
contractors are now getting ready to rebaseline the program again, and 
the agencies have said they want the new cost estimates to be based, in 
effect, on an 80 percent confidence level.
    Industry officials appear to agree now that the government should 
have required more proof that the design for building the VIIRS 
instrument was sound when it conducted the instrument's Critical Design 
Review, the stage in the development of VIIRS when the government gave 
the final go-ahead to build a major piece of equipment.
    In addition, problems occurred with VIIRS because the initial 
technical team working on the instrument for Raytheon had never worked 
on an operational satellite before, having conducted all their work 
building research satellites. But operational satellite development 
must be managed much more strictly than one-of-a-kind research 
satellites. Any schedule slips that may arise in the development of 
research satellites merely delay the research to be done. But schedule 
slips in operational weather satellites can have much more serious 
consequences (see below for more details).

Options for NPOESS
    When Northrop-Grumman notified the government in March 2005 that 
the NPOESS satellites could no longer be developed on time and within 
budget, the government's leading officials overseeing the NPOESS 
program, the agencies began another review of the program.
    The top officials in charge of the project, the EXCOM, met in 
August and October to consider options, but has yet to make a final 
decision on how to move forward with the satellite program. It is 
scheduled to meet again next Tuesday.
    In general, the government has several options: it can dedicate 
more money to the program to pay for additional people and work 
necessary to solve the satellite's technical problems; it can stretch 
the production schedule to give the existing workforce time to solve 
the problems; it can scale back the satellite's capabilities by 
eliminating individual sensors or other aspects of the program to free 
up money and workforce to focus on the technical problems; or any 
combination of the three.
    According to documents NOAA has provided, the EXCOM has ruled out 
eliminating NPP or one of the six NPOESS satellites. It also has ruled 
out providing any additional money to NPOESS for fiscal years 2006 and 
2007. It is unclear why the EXCOM is unwilling to seek more funding 
before FY 2008. Internal Pentagon rules make it more difficult for the 
Air Force to shift funds among programs and the current Air Force 
satellites have more years of service left than NOAA's do.
    Instead of providing additional funding, the EXCOM plans to slow 
down the development of some of NPOESS' other instruments to pay for 
the increased work necessary to fix the problems with VIIRS. In 
addition, the EXCOM is considering delaying the delivery dates of some 
sensors and has already eliminated at least one other (the Landsat 
imager) altogether. (The Landsat instrument will probably be flown 
separately; a decision is pending. Previous Landsat instruments flew 
separately, but this one was moved to NPOESS to save money, among other 
reasons.)
    Of the options the EXCOM is considering, all would delay the 
availability of NPP by at least 30 months (to April 2009), and all 
would delay the availability of the NPOESS C-1 satellite by at least 36 
months (to sometime in 2012).

Implications of the Options for NPOESS
    A delay in the delivery of NPOESS could lead to a gap in coverage 
of the U.S. by civilian polar-orbiting weather satellites. NOAA plans 
to launch the last its POES polar-orbiting satellite in December 2007. 
It is NOAA's policy always to have a replacement satellite on hand to 
cover the possibility that the original will fail upon launch. 
Originally, NPOESS C-1 was to be available in case the last POES 
satellite failed. But under the options the EXCOM now has under 
consideration, the new satellite will not be ready until 50 months 
later (because of previous delays as well as the current one), 
potentially exposing the U.S. to a gap in civilian coverage of more 
than four years.
    Complicating the situation further, as it finished building this 
last POES satellite in 2003, the contractor, Lockheed-Martin dropped it 
on the floor of the assembly plant, causing significant damage (see 
below for more information). Lockheed-Martin is repairing the 
satellite's components with spare parts, but has yet to fully test the 
satellite. As a result, it is unknown whether the fall has increased 
the likelihood that the satellite will fail.
    The military expects to be able to make its satellites last well 
past the 2012 NPOESS launch date. But the military satellites do not 
provide the complete global coverage required by NOAA. Also, the 
military does use some data that are available only from NOAA's 
satellites. It is unclear how the potential gap could affect the 
military.
    Also unclear is whether NOAA could rely on European weather 
satellites because it is not certain that the data produced by the 
sensors on European satellites are compatible with U.S. weather 
forecast models, or that these satellites would even be available.
    To minimize the potential consequences of such a gap in coverage, 
the EXCOM reportedly is considering bolstering the capabilities of the 
NPP satellite. Rather than simply providing a platform to test the 
crucial sensors planned to fly aboard NPOESS satellites later, the NPP 
satellite could be made to operate more like an operational satellite, 
albeit with a limited suite of instruments. It is unclear how much more 
expensive such a modification would be. Furthermore, because in the 
past it has taken up to two years for weather forecasters to learn how 
to adapt their models to use data from new instruments, it is unclear 
how long it could take for NPP to be useful for weather prediction.
    Fixing the problems facing NPOESS will increase the lifetime costs 
of the satellite program by at least $1 billion, and perhaps as much as 
$3 billion. Part of the increase in cost is due strictly to the EXCOM's 
decision not to spend any additional money in FY 2006 and 2007 because 
extending the duration of a program that employs a large workforce 
necessarily increases labor costs. According to Northrop-Grumman, 
providing additional funding in fiscal years 2006 and 2007 could 
significantly reduce the lifetime cost of the NPOESS program. NOAA 
officials have said that they expect to increase funding for the 
program in FY 2008, but it is not clear whether the budget climate then 
will be more favorable to making additional funding available.

Nunn-McCurdy Notification
    The NPOESS contract follows DOD acquisition procedures. As a 
result, it is subject to the Nunn-McCurdy provisions of the DOD 
acquisition regulatory process (10 U.S.C. 2433). The law establishes 
reporting requirements in cases where cost overruns occur in major 
defense acquisition programs. If a program manager has reasonable cause 
to believe that costs will increase more than 15 percent over the most 
recent baseline estimate, DOD must notify Congress. If costs increase 
more than 25 percent, the Secretary of Defense (or the Secretary of the 
appropriate branch of the military) has 30 days to certify the program, 
otherwise no funds may be obligating for the program. Certification 
requires a written justification that the program is essential to the 
Nation's security, that there are no alternatives to the program, that 
the new cost estimates are reasonable, and that the management 
structure is adequate.
    On September 29, 2005, the Secretary of the Air Force notified 
Congress that the NPOESS program would exceed the 15 percent Nunn-
McCurdy notification threshold (meaning that acquisition costs would 
increase by at least $1 billion over the program's most recent cost 
estimate of $7.4 billion). The Air Force initiated an Independent 
Program Assessment to review the technical and cost baselines of the 
program and to develop options for moving forward. (Documents prepared 
by the Independent Program Assessment, which is being conducted by the 
Aerospace Corporation, are is the source of much of the cost and option 
information in this charter. The Committee received the documents in 
response to its recent request.) The final results of the Assessment 
are expect at the EXCOM meeting next week.

Other Satellite Problems
    This is not the first time a NOAA satellite program has experienced 
major cost overruns, technical problems or management issues. In 
September 2003, lax government oversight of, and lax contractor 
oversight by Lockheed-Martin resulted in a major accident in the POES-
production facility. (The program is overseen by NASA under an 
agreement with NOAA.) The final satellite in the POES series fell off 
of its platform because Lockheed-Martin employees did not follow 
standard procedures and check that all the bolts were in place before 
moving the satellite. During the late 1980s, another major satellite 
acquisition program at NOAA, GOES-NEXT, ran $1.4 billion over budget 
and five years behind schedule due to a lack of technical planning and 
program development delays. GOES-NEXT's problems were similar to those 
that NPOESS is experiencing now. As a result of those problems, NOAA 
was forced to rely on a single GOES satellite from 1989 through 1992, 
when normally it uses two satellites. Had the one satellite failed, 
NOAA would have been unable track severe weather in real time or 
provide continuous weather coverage of the United States. Delays in 
NPOESS could result in the Nation running similar risks.

Questions for Witnesses

    The witnesses were asked to address the following questions in 
their testimony:
Vice Admiral Conrad C. Lautenbacher, Jr. (Ret.)

        1.  What is your current estimate of the cost and launch date 
        for the first NPOESS satellite compared to the September 2003 
        baseline ($7.4 billion and November 2009)? What steps need to 
        be taken to firm up the cost and schedule estimate and when 
        will an official new baseline be available?

        2.  What program options are being considered in response to 
        the increased cost and schedule delays? Do any of these options 
        involve scaling back the capability of the NPOESS satellite? 
        Would such scaling back affect the plans of other agencies to 
        fly sensors on NPOESS?

        3.  It is our understanding that no options are being 
        considered that increase spending in Fiscal Year (FY) 2006 or 
        FY 2007. Why is that the case? Will delaying action until FY 
        2008 increase the lifetime cost of the NPOESS program and 
        increase the risk that the satellite will not be ready in time 
        to perform its mission? Is the decision to not increase 
        spending driven purely by near-term Federal budget constraints? 
        If so, why is NOAA assuming that funding will be more available 
        in FY 2008?

        4.  If the last satellite from the current NOAA polar series 
        fails during launch or in orbit, then, given the schedule 
        delays anticipated for NPOESS, there could be a 19- to 36-month 
        gap in polar satellite coverage for NOAA. If a coverage gap 
        were to occur, what are the implications for NOAA weather 
        forecasting capabilities? What are NOAA's contingency plans for 
        a gap in polar satellite coverage?

Dr. Ronald M. Sega

        1.  What is your current estimate of the cost and launch date 
        for the first NPOESS satellite compared to the September 2003 
        baseline ($7.4 billion and November 2009)? What steps need to 
        be taken to firm up the cost and schedule estimate and when 
        will an official new baseline be available?

        2.  What program options are being considered in response to 
        the increased cost and schedule delays? Do any of these options 
        involve scaling back the capability of the NPOESS satellite? 
        Would such scaling back affect the plans of other agencies to 
        fly sensors on NPOESS?

        3.  It is our understanding that no options are being 
        considered that increase spending in Fiscal Year (FY) 2006 or 
        FY 2007. Why is that the case? Will delaying action until FY 
        2008 increase the lifetime cost of the NPOESS program and 
        increase the risk that the satellite will not be ready in time 
        to perform its mission? Is the decision to not increase 
        spending driven purely by near-term Federal budget constraints? 
        If so, why is the Air Force assuming that funding will be more 
        available in FY 2008?

        4.  If the last satellite from the current NOAA polar series 
        fails during launch or in orbit, then, given the schedule 
        delays anticipated for NPOESS, there could be a 19- to 36-month 
        gap in polar satellite coverage for NOAA. If a coverage gap in 
        NOAA satellites were to occur, what are the implications for 
        the Air Force and/or the Department of Defense weather 
        forecasting capabilities? What are the contingency plans for a 
        gap in polar satellite coverage? Is the Air Force's capability 
        to forecast weather as vulnerable to delays in NPOESS as NOAA's 
        is?

Mr. David Powner

        1.  What is your current estimate of the cost and launch date 
        for the first NPOESS satellite compared to the September 2003 
        baseline ($7.4 billion and November 2009)?

        2.  What program options should be considered in response to 
        the increased cost and schedule delays?

        3.  It is our understanding that no options are being 
        considered that increase spending in Fiscal Year (FY) 2006 or 
        FY 2007. Will delaying action until FY 2008 increase the 
        lifetime cost of the NPOESS program and increase the risk that 
        the satellite will not be ready in time to perform its mission?

        4.  What are the major technical and program management risks 
        still facing the NPOESS program?

Dr. Alexis Livanos

        1.  What is your current estimate of the cost and launch date 
        for the first NPOESS satellite compared to the September 2003 
        baseline ($7.4 billion and November 2009)? What steps need to 
        be taken to firm up the cost and schedule estimate and when 
        will an official new baseline be available?

        2.  What is Northrop-Grumman Space Technology (NGST) doing to 
        address the technical problems, cost overruns and schedule 
        delays in the NPOESS program? In particular, what changes has 
        the company implemented or will it implement in its oversight 
        of subcontractors to address the technical problems, cost 
        overruns and schedule delays in the NPOESS program?

        3.  Have you recommended NPOESS program options to the Federal 
        Government in response to the cost increases and schedule 
        delays? If so, what are those options? Are there other major 
        options you think should be considered by the government?

        4.  It is our understanding that the Federal Government is not 
        considering any options that increase spending in Fiscal Year 
        (FY) 2006 or FY 2007. What are the pros and cons of waiting 
        until FY 2008 to provide additional funding to the NPOESS 
        program? If Congress provided additional funding in FY 2006 or 
        FY 2007, what could be accomplished to minimize lifetime cost 
        increases and schedule delays?
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Boehlert. The hearing will come to order.
    I want to welcome everyone this morning to this important 
hearing on the NPOESS satellite program, a vital but troubled 
effort that we desperately need to get back on track.
    We hope to have a detailed discussion this morning of 
what's gone wrong with the program and how to fix it. But 
before we get into the potentially confusing specifics of 
acronyms and dates and bureaucratic structure, I want to remind 
everyone how much is at stake.
    NPOESS is an absolutely essential program for the safety 
and security of the United States. Without polar satellites, we 
pretty much lose the ability to understand longer-term weather 
trends, and our knowledge from those trends can save lives. The 
specifics of NPOESS may be technical and abstruse, but this is 
a program that provides information that every single American 
can use in their daily lives, and information that may be 
needed to save those lives. That is not an abstract matter.
    You would think that, given how much is riding on NPOESS, 
that this would be an especially closely supervised, well 
managed program. You would think that, given the cost and 
prominence of NPOESS, that this would be a program in which 
Congress was given clear, accurate, and timely information to 
help keep the program adequately funded and on track.
    But sadly, none of this has been the case. It is now clear 
that, almost from the outset, decisions were made with too 
little analysis of the technical challenges involved in 
building NPOESS. It is clear that contracts were awarded at 
prices that did not take into account the technical risks the 
program faced. And it is clear that the program was 
inadequately supervised, allowing problems to fester and worsen 
before being addressed. What's not so clear is whether these 
inadequacies are behind us, and that's part of what we will 
focus on today.
    It is also clear that NOAA, in particular, has repeatedly 
withheld critical information from this committee and the 
American people. Even in today's prepared testimony, NOAA is 
less direct and forthright in its assessment of the program and 
its options than are the other witnesses. That is absolutely 
unacceptable.
    The American taxpayer is now going to pay as much as $9 
billion, maybe even more, for the NPOESS satellites at a time 
of fiscal stringency. Congress has to fully understand the 
costs of this program and the options for how the program can 
proceed. Ultimately, it is Congress that decides how much the 
Nation can spend on NPOESS and what it will get for its money. 
No one is helped if we have to do that ``in the dark.''
    And so today, we are going to closely review the options 
for getting the NPOESS program back on track. I know that the 
agencies and contractors are still in the process of reviewing 
those options. That is not a reason to avoid a full and open 
discussion today, before final decisions are made. For too 
long, Congress has been given information only after decisions 
have been made.
    No one on our panel today should think that this committee 
will accept answers at this hearing like, ``We are reviewing 
our options,'' or ``We don't have all the information yet.'' 
You can qualify your answers with phrases like that, but you 
will not be allowed to simply avoid answering the fundamental 
questions before us.
    One of those questions is why the agencies are not now 
considering putting more money into this program this year and 
next year instead of waiting until fiscal year 2008. Such a 
strategy will add to launch delays, increase total costs, and 
possibly complicate efforts to get the sensors working 
properly. As far as I can tell, the only thing fiscal year 2008 
has to recommend itself is that it isn't here yet. I don't 
think anyone believes that the Federal Government will be flush 
with cash in fiscal year 2008.
    As I said at our hearing on NASA, ``wait until next year'' 
is a good mantra for baseball fans, but it is a lousy strategy 
for budgeting. So we are going to pursue the question of 
funding forcefully today.
    I hope we will come away from this hearing with a clear 
understanding of what the options are for the future of NPOESS, 
of how and when they will be fully evaluated, and of how this 
committee will be kept informed of that information. We are 
going to be following this program like hawks, and we do not 
want to learn of decisions after they are made.
    Today should be, and better be, the start of a new era for 
the NPOESS program, an era that will be characterized by close 
program management and a free flow of information. This should 
not be one of a series of hearings on what went wrong with 
NPOESS. We need to set out a plan today to put NPOESS back on 
track, because lives are at stake.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone this morning to this important hearing 
on the NPOESS satellite program, a vital, but troubled effort that we 
desperately need to get back on track.
    We hope to have a detailed discussion this morning of what's gone 
wrong with the program and how to fix it. But before we get into the 
potentially confusing specifics of acronyms and dates and bureaucratic 
structure, I want to remind everyone how much is at stake.
    NPOESS is an absolutely essential program for the safety and 
security of the United States. Without polar satellites, we pretty much 
lose the ability to understand longer-term weather trends, and our 
knowledge of those trends can save lives. The specifics of NPOESS may 
be technical and abstruse, but this is a program that provides 
information that average Americans use in their daily lives--and 
information that may be needed to save their lives. This is not an 
abstract matter.
    You would think that, given how much is riding on NPOESS, that this 
would be an especially closely supervised, well managed program. You 
would think that, given the cost and prominence of NPOESS, that this 
would be a program in which Congress was given clear, accurate and 
timely information to help keep the program adequately funded and on 
track.
    But none of this has been the case. It is now clear that, almost 
from the outset, decisions were made with too little analysis of the 
technical challenges involved in building NPOESS. It is clear that 
contracts were awarded at prices that did not take into account the 
technical risks the program faced. And it is clear that the program was 
inadequately supervised, allowing problems to fester and worsen before 
being addressed. What's not so clear is whether these inadequacies are 
behind us, and that's part of what we will focus on today.
    It's also clear that NOAA, in particular, has repeatedly withheld 
critical information from this committee and the American people. Even 
in today's prepared testimony, NOAA is less direct and forthright in 
its assessment of the program and its options than are the other 
witnesses. This is absolutely unacceptable.
    The American taxpayer is now going to pay as much as $9 billion, 
maybe even more, for the NPOESS satellites at a time of fiscal 
stringency. Congress has to fully understand the costs of this program 
and the options for how to the program can proceed. Ultimately, it is 
Congress that decides how much the Nation can spend on NPOESS and what 
it will get for its money. No one is helped if we have to do that ``in 
the dark.''
    And so today, we are going to closely review the options for 
getting the NPOESS program back on track. I know that the agencies and 
contractors are still in the process of reviewing those options. That 
is not a reason to avoid a full and open discussion today--before final 
decisions are made. For too long, Congress has been given information 
only after decisions have been made.
    No one on our panel today should think that this committee will 
accept answers at this hearing like ``we are reviewing our options'' or 
``we don't have all the information yet.'' You can qualify your answers 
with phrases like that, but you will not be allowed to simply avoid 
answering the fundamental questions before us.
    One of those questions is why the agencies are not now considering 
putting more money into this program this year and next year instead of 
waiting until fiscal 2008. Such a strategy will add to launch delays, 
increase total costs, and possibly complicate efforts to get the 
sensors working properly. As far as I can tell, the only thing fiscal 
2008 has to recommend itself, is that it isn't here yet. I don't think 
anyone believes that the Federal Government will be flush with cash in 
fiscal 2008.
    As I said at our hearing on NASA, ``wait til next year'' is a good 
mantra for baseball fans, but it's a lousy strategy for budgeting. So 
we're going to pursue the question of funding forcefully today.
    I hope we will come away from this hearing with a clear 
understanding of what the options are for the future of NPOESS, of how 
and when they will be fully evaluated, and of how this committee will 
be kept informed of that information. We are going to be following this 
program like hawks, and we do not want to learn of decisions after they 
are made.
    Today should be--had better be--the start of a new era for the 
NPOESS program--an era that will be characterized by close program 
management and a free flow of information. This should not be one in a 
series of hearings on what went wrong with NPOESS. We need to set out a 
plan today to put NPOESS back on track because lives are at stake.

    Chairman Boehlert. And with that, the Chair is pleased to 
recognize the distinguished gentleman from Tennessee, Mr. 
Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    And let me first say, in your five years as Chairman, a 
good five years as a good Chairman, that is the most direct and 
toughest opening statement that I have ever heard you make, and 
let me say that I concur and that you have bipartisan support 
on those comments.
    None of us like coming here today to talk about a program 
that is in trouble, but that is what we get paid to do. We are 
here today to discuss the National Polar-orbiting Operational 
Environmental Satellite System, NPOESS, an important joint 
environmental satellite program for NOAA and DOD with serious 
problems.
    Admiral Lautenbacher, you met with me, Mr. Boehlert, Mr. 
Ehlers, and Mr. Wu in late July to assure us of your 
cooperation. At that time, we heard that the cost overrun on 
this program could be as high as a billion dollars.
    You were right to warn us those numbers were not robust and 
to take them with a grain of salt. That is the good news. The 
bad news is that as the numbers became more robust, the costs 
kept climbing.
    The Executive Committee's own Independent Program 
Assessment Team has suggested that the real cost overrun is in 
the range of $2 billion to $3 billion.
    A potential $3 billion cost overrun on a $6.5 billion 
program is simply incredible. And what is disheartening, just 
the other day, we had an important hearing where Norm Augustine 
told us about the needs for our future and how we could put 
forth really an improvement for the quality of life for our 
kids and really hope that we can save them from what I am 
afraid will be a standard of living less than their parents 
have and less than we inherited from our grandparents. His 
suggestion for funding that was about $5 billion to get our 
science, technology, and math up and going in this country. And 
we are--but we couldn't do it. We don't have the money. And 
yet, we are wasting $3 billion here. It is disheartening, and I 
think that that is the reason that you have such strong 
feelings on the Committee today.
    But regardless of whether you look at the contractor 
projections of the paths out of this mess or the Independent 
Team's assessments, the least costly solutions all require more 
money in fiscal year 2006 and fiscal year 2007 than called for 
in the baseline. That finding reinforces what the contractor on 
this project also says.
    The one consistent message you have delivered to Congress, 
and to the Director--the direction to contractors and the 
Independent Assessment Team, was that no new money could be 
pursued in the next two fiscal years.
    It looks to me as if you are willing to play out the clock 
so that you can get through your term at NOAA without having to 
do the hard work of asking OMB and Congress to free up some 
more money to save us money later on.
    Decisions about how to move forward seem to be painfully 
slow in coming. The longer it takes to settle on a solution, 
the fewer options we have and the more expensive they become.
    Perhaps it is politics driving this behavior, perhaps it is 
weak management, or perhaps there is a good reason for this 
slow march towards solutions.
    According to the EXCOM's Independent Program Assessment 
Team, the difference between more money next year and no money 
until fiscal year 2008 is a billion dollars over the life of 
the program. The taxpayer is ill served by limiting options to 
those that are convenient for this Administration.
    I want to urge you in the strongest possible terms to look 
at options that minimize total program costs, delivers 
satellites in time to avoid data gaps, and that offers the 
least risk of additional ``surprises.''
    If you are unwilling to do that, I think you have to 
explain to this committee why the Administration prefers an 
approach that would cost the taxpayers a billion dollars more 
than other approaches and risks the continuity of vital weather 
forecasting data.
    I want to remind you that you promised in the July meeting 
that we would enjoy real cooperation from NOAA. I am 
disappointed in that record so far.
    For example, six weeks ago, you received your Independent 
Program Assessment Team's report showing that the projected 
cost overruns would range between $2 billion and $3 billion. 
That event should have triggered a call to our staff or even 
directly to Members. Maybe you don't consider a growth in cost 
overrun projections from $700 million to $3 billion to be a big 
deal, but I do.
    Another example of lack of cooperation lies in complying 
with our document request. We wrote on August 12 for documents 
and have sent a follow-up letter, and we still do not have all 
of the documents.
    This committee has the right and responsibility to 
understand what went wrong with this program and to weigh 
options to move forward. We must be able to advise our 
colleagues on the Appropriations Committee about how to 
proceed.
    I intend to see our document request fully complied with 
even if it requires a subpoena from this committee to do it.
    I trust that everyone understands that this would be 
about--not about politics but about our institutional rights 
and obligations.
    I believe that you have not yet lived up to your pledge of 
full cooperation in July. It puts you in a somewhat difficult 
position as you come before us today to assure us that you are 
leading the agency in a manner to solve these problems. I hope 
we can move forward in a cooperative manner from here on out.
    Thank you for being here with us this morning.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    None of us like coming together to talk about a program that is in 
trouble, but that is what we get paid to do. We are here today to 
discuss the National Polar-orbiting Operational Environmental Satellite 
System--NPOESS--an important joint environmental satellite program for 
NOAA and DOD with serious problems.
    Admiral Lautenbacher, you met with me, Mr. Boehlert, Mr. Ehlers and 
Mr. Wu in late July to assure us of your cooperation. At that time, we 
heard that the cost overrun on this program could be as high as a 
billion dollars.
    You were right to warn us those numbers were not robust and to take 
them with a grain of salt. That is the good news. The bad news is that 
as the numbers become more robust, the costs keep climbing.
    The Executive Committee's own Independent Program Assessment Team 
has suggested that the real cost overrun is in the range of $2 billion 
to $3 billion.
    A potential $3 billion cost overrun on a $6.5 billion program is 
simply incredible. Regardless of whether you look at contractor 
projections of paths out of this mess or the Independent Team's 
assessments, the least cost solutions all require more money for FY 
2006 and FY 2007 than called for in the baseline. That finding 
reinforces what the contractor on this project also says.
    The one consistent message you have delivered to Congress, and the 
direction to contractors and the Independent Assessment Team, was that 
no new money could be pursued in the next two fiscal years.
    It looks to me as if you are willing to play out the clock so that 
you can get through your term at NOAA without having to do the hard 
work of asking OMB and Congress to free up some more money now to save 
us money later.
    Decisions about how to move forward seem to be painfully slow in 
coming. The longer it takes to settle on a solution, the fewer options 
we have and the more expensive they become.
    Perhaps it is politics driving this behavior, perhaps it is weak 
management, or perhaps there is a good reason for this slow march 
towards a solution.
    According to the EXCOM's Independent Program Assessment team, the 
difference between more money next year and no new money until FY 2008 
is a billion dollars over the life of the program. The taxpayer is ill 
served by limiting options to those that are convenient for this 
Administration.
    I want to urge you in the strongest possible terms to look at 
options that minimize total program costs, delivers satellites in time 
to avoid data gaps, and that offers the least risk of additional 
``surprises.''
    If you are unwilling to do that, I think you have to explain to 
this committee why the Administration prefers an approach that would 
cost the taxpayer a billion dollars more than other approaches and 
risks the continuity of vital weather forecasting data.
    I want to remind you that you promised in the July meeting that we 
would enjoy real cooperation from NOAA. I am disappointed at the record 
so far.
    For example, six weeks ago, you received your Independent Program 
Assessment team's report showing that projected cost overruns would 
range from $2 billion to $3 billion. That event should have triggered a 
call to our staff or even directly to Members. Maybe you don't consider 
a growth in cost overrun projections from $700 million to $3 billion to 
be a big deal; but I do.
    Another example of lack of cooperation lies in complying with our 
document request. We wrote on August 12 for documents and have sent a 
follow-up letter and we still do not have all the documents.
    This committee has the right and responsibility to understand what 
went wrong with this program and to weigh options for moving forward. 
We must be able to advise our colleagues on the Appropriations 
Committee about how to proceed.
    I intend to see our document request fully complied with even if it 
requires a subpoena from this committee to do it.
    I trust that everyone understands this would not be about politics 
but about our institutional rights and obligations.
    I believe you have not yet lived up to your pledge of full 
cooperation in July. It puts you in a somewhat difficult position as 
you come before us today to assure us that you are leading the agency 
in a manner to solve these problems. I hope we can move forward in a 
cooperative manner from here on out.
    Thank you all for being here this morning. I look forward to your 
testimony.

    Chairman Boehlert. Thank you very much, Mr. Gordon.
    The Chair recognizes Dr. Ehlers.
    Mr. Ehlers. Thank you, Chairman Boehlert.
    I am pleased that the Committee is holding this important 
hearing today.
    This year's tragic hurricane season reminded all of us that 
the United States is highly vulnerable to severe weather 
events. Weather satellites, such as NPOESS, provide vital data 
for three- to seven-day forecasts of severe weather, including 
hurricanes. We desperately need these new satellites to allow 
us to do an even better job of forecasting. Unfortunately, the 
NPOESS program has a history of major problems. It already 
experienced one major contract re-plan that in 2003 delayed the 
program by 10 months and increased the cost by $900 million.
    Two years ago, I held a hearing in the Environment 
Subcommittee about these problems with NPOESS. At that hearing, 
officials from NOAA and the Air Force assured me that they were 
doing everything they could to minimize future cost overruns 
and schedule delays. Yet, here we are today facing an 
additional three-year delay and up to $3 billion in increased 
costs. I hope the witnesses explain how we got to this point 
with NPOESS, what they plan to do to get this important program 
back on track, and what lessons we have learned for improving 
the Federal Government's approach to the weather satellite 
programs. We simply cannot continue doing business this way.
    Like Chairman Boehlert, I have some specific concerns I 
hope the witnesses will address today. For example, if this 
program is so far off track now, why are we waiting until 
fiscal year 2008 to consider adding funds to it? Also, due to 
the delays in NPOESS, the United States faces up to a four-year 
gap in polar satellite coverage. I want to know how a gap would 
degrade our ability to forecast hurricanes, and if there are 
contingency plans for that situation. It is urgent for us to 
get these new satellites up. The added cost of getting the 
NPOESS program back on track rapidly is minuscule compared to 
the damage and lives lost we would incur if we no longer can 
forecast severe weather, such as hurricanes, accurately.
    These are just a few of the issues I look forward to 
discussing today. I thank the witnesses for being here and 
yield back the balance of my time.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Thank you Chairman Boehlert. I am pleased that the Committee is 
holding this important hearing today.
    This year's tragic hurricane season reminded all of us that the 
United States is highly vulnerable to severe weather events. Weather 
satellites, such as NPOESS, provide vital data for three- to seven-day 
forecasts of severe weather, including hurricanes. We desperately need 
these new satellites to allow us to do an even better job of 
forecasting. Unfortunately, the NPOESS program has a history of major 
problems. It already experienced one major contract re-plan that in 
2003 delayed the program by 10 months and increased costs by $900 
million.
    Two years ago, I held a hearing in the Environment Subcommittee 
about these problems with NPOESS. At that hearing, officials from NOAA 
and the Air Force assured me that they were doing everything they could 
to minimize future cost overruns and schedule delays. Yet, here we are 
today facing an additional three-year delay and up to $3 billion in 
increased costs. I hope the witnesses explain how we got to this point 
with NPOESS, what they plan to do to get this important program back on 
track, and what lessons we have learned for improving the federal 
government's approach to the weather satellite programs. We simply 
cannot continue doing business this way.
    Like Chairman Boehlert, I have some specific concerns I hope the 
witnesses will address today. For example, if this program is so far 
off track now, why are we waiting until FY 2008 to consider adding 
funds to it? Also, due to the delays in NPOESS, the U.S. faces up to a 
four-year gap in polar satellite coverage. I want to know how a gap 
would degrade our ability to forecast hurricanes, and if there are 
contingency plans for that situation. It is urgent for us to get these 
new satellites up. The added cost of getting the NPOESS program back on 
track rapidly is minuscule compare to the damage and lives lost we 
would incur if we no longer can forecast severe weather, such as 
hurricanes, accurately.
    These are just a few of the issues I look forward to discussing 
today. I thank the witnesses for being here and yield back the balance 
of my time.

    Chairman Boehlert. Thank you very much, Dr. Ehlers.
    Mr. Wu.
    Mr. Wu. Thank you very much, Mr. Chairman.
    My message to my colleagues and the witnesses this morning 
is not very much different from that of my colleagues who have 
already spoken. We are united in our concern for this program, 
and we are very determined to obtain the information that we 
need to properly exert Congress's oversight function and move 
forward in an expeditious manner.
    After our all-hands meeting in July, I thought that we were 
turning toward a new page or turning over a new page, and 
entering a phase of cooperation and adequate information 
sharing so that we could all do our jobs. Unfortunately, we 
still seem to have a communications problem with NOAA. And 
quite frankly, I am not sure whether that is due to decision-
making of NOAA or, as they say, at the pay grade above yours, 
but wherever the blockage is, I would like to identify why 
there is a problem in information exchange between this staff, 
the staff of this committee, and this committee, and your 
staff, and the folks who can provide us with that information.
    I have to add that this blockage in information seems to be 
between the Executive Branch and the Legislative Branch. And 
cooperation between the private contractor and this committee 
has been exemplary thus far. And I have a hard time 
understanding why the Executive Branch seems to have a problem 
in permitting this body to exercise its constitutional duties.
    From the inception of this program, its oversight has been 
conducted in a bipartisan, and in fact, one could say a 
nonpartisan fashion. This committee is interested in one 
outcome only, the timely deployment of a functioning weather 
satellite that serves the least possible cost and the most 
possible function to the American taxpayer.
    Right now, we do not appear to be on that path, and we 
would like to work with you to return to that path. I am very 
concerned about the cost estimates and cost overruns that we 
are hearing about, but we are unable to look further into it 
because of a lack of information.
    Even stretched out over several fiscal cycles, the 
additional funds NOAA will need to cover these cost overruns 
have grave implications for other programs, other very 
important programs, in the agency.
    In addition to resolving the problems of the NPOESS 
program, I would like to have some assurance that NOAA has 
learned some lessons from this NPOESS experience and will be 
applying them aggressively as we pursue development of a new 
geostationary satellite series.
    I believe the GAO team that has been following the NPOESS 
program will have some constructive suggestions for us in that 
regard. We need to get this program back on track, and we need 
to get our relationship back on track. We need a path forward 
that will hold the costs down and deliver the satellites in a 
time period that ensures continuity of weather forecasting 
data. If we can't do that in a friendly, cooperative way, there 
are other tools available, and I don't think any of us look 
forward to resorting to those.
    I hope we can proceed from this point onward in a 
cooperative manner to achieve our important collective goals.
    I yield back the balance of my time.
    Chairman Boehlert. Thank you very much, Mr. Wu.
    For the purpose of a colloquy, the Chair yields to Mr. 
Gordon.
    Mr. Gordon. Mr. Chairman, before we begin with the 
questions, I would like to note the Science Committee, during 
your chairmanship, has rarely ever sworn in witnesses for its 
hearing. I believe, however, that a five-year prison sentence 
or fine to be against any person who knowingly and willfully 
covers up material facts, makes false statements, or uses 
documents containing false information in the course of any 
investigation or review conducted pursuant to the authority of 
any Committee or Subcommittee of the Congress, consistent with 
the applicable rules of the House or Senate and the terms of 
Title XVIII, Section 1001 of the United States Code. Is that 
your understanding, Mr. Chairman?
    Chairman Boehlert. It certainly is. Thank you very much.
    And now with that, all of the Members will be given an 
opportunity to insert their opening statements in the record at 
this juncture.
    [The prepared statement of Mr. Costello follows:

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to examine the ongoing problems and future plans for the 
National Oceanic and Atmospheric Administration's (NOAA) key weather 
satellite program, the National Polar-orbiting Operational 
Environmental Satellite System program (NPOESS). This program was 
initiated as a tri-agency program (NOAA--DOD--NASA) during the Clinton 
Administration. The new polar satellite series will replace two 
separate satellite series that are now managed by NOAA (POES) and DOD 
(DMSP) to obtain weather data that are fed into weather forecasting 
models.
    The original intention of this combined program was to develop and 
deploy a joint civilian and military satellite system thereby saving 
costs by purchasing one system instead of two. Unfortunately, the 
anticipated cost savings have not been realized. The program is now 
behind schedule and over budget. The NPOESS satellite series was 
anticipated to be launched in time to provide a back up for the final 
satellites in the POES (NOAA--civilian) and DMSP (DOD--military) 
series. Technical challenges with several of the key sensors and 
interruptions in the originally planned funding stream for the program 
have resulted in schedule changes that will delay the launch of the 
first satellite in the NPOESS series by over one year. I am concerned 
that if the final POES satellite does not perform or is lost during 
launch, NOAA could be faced with a period in which we are unable to 
receive meteorological data from polar satellites because the first 
NPOESS satellite will not be available as a backup.
    I am pleased the oversight of this program has been conducted in a 
bipartisan fashion and I commend Chairman Ehlers and previous Ranking 
Member Udall and current Ranking Member Wu of the Environment, 
Technology, and Standards Subcommittee for following the development of 
this program since the fall of 2001. Member and staff meetings have 
been conducted and document requests from the Administration were 
issued together. I am concerned that the Administration has repeatedly 
failed to notify the Committee as problems have mounted with this 
program and document requests have not been honored in a timely fashion 
or with complete information.
    It is my understanding that the Administration is examining a 
series of options for re-planning this program to address cost, 
schedule and technical issues that have arisen with development of the 
specialized sensors. This would push the financial problems associated 
with the program into the next Administration because no spending 
options are available in FY06 through FY08. Greater schedule delays, 
means a higher risk of data loses, and a higher total program costs, 
which troubles me.
    I look forward to hearing from the panel of witnesses.

    [The prepared statement of Ms. Johnson follows:

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    Environmental and weather research is important, and the National 
Oceanographic and Atmospheric Association plays a key role in this 
area.
    National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) satellites will be important in developing three- to seven-day 
weather forecasts and for predicting severe weather, such as 
hurricanes.
    The technology will enable the satellites to measure ocean winds to 
help predict El Nino and aid the military's operation of aircraft 
carriers.
    These Satellites will be able to measure soil moisture, track fish 
populations and ocean-borne pollution as well as help the military 
sweep for mines.
    It is my hope that the NPOESS program will continue running and 
avoid gaps in satellite coverage. My colleagues on the Science 
Committee and I would like to know how we can help develop sound 
policies to help, not harm our nation's satellite technology 
development.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Carnahan follows:

           Prepared Statement of Representative Russ Carnahan

    Chairman Boehlert and Ranking Member Gordon, thank you once again 
for hosting this hearing. Admiral Lautenbacher, Dr. Sega, Mr. Powner, 
and Dr. Livianos, thank you for taking the time and effort to appear 
before us today and share your views on NOAA's polar satellite program.
    I am very concerned, as are all my colleagues, about the 
anticipated overrun cost of the National Polar Orbiting Environmental 
Satellite System (NPOESS). NOAA's satellite systems are invaluable for 
long-term weather forecasting and predicting severe weather systems. 
This year's hurricane season is a drastic example of the importance of 
predicting severe weather storms.
    I am eager to learn more about the Administration's plans for 
dealing with the overrun cost situation during today's oversight 
hearing. We must also ensure that the cost overrun does not affect the 
effective operation of the satellite system.
    Thank you for your time today. I look forward to hearing your 
testimony.

    Chairman Boehlert. And we welcome our very distinguished 
panel of witnesses, with whom we enjoy good, constructive 
working relationships in a variety of capacities.
    First, Vice Admiral Conrad C. Lautenbacher, Jr., 
Administrator, National Oceanic and Atmospheric Administration; 
Dr. Ronald M. Sega, Under Secretary for the Air Force. And for 
the purposes of the record, it should be noted that Dr. Sega is 
in this new and most important job since August of this year. 
This is the situation he inherited. Dr. Alexis Livanos, 
President, Northrop Grumman Space Technology. And Dr. Livanos, 
let me personally thank you for the way in which you, as a 
contractor, and your associates have come forward with valuable 
information that has help guide the Committee's deliberations. 
And Mr. David Powner, Director of Information Technology 
Management Issues, the Government Accountability Office. And 
you perform the way we expect GAO to perform, and we thank you 
very much for your service.
    The witnesses will be asked to give us an opening 
statement. The Chair is not arbitrary. You are the only panel 
before us today. We would hope you would summarize your opening 
statement, and then we could get right to the meat of the 
hearing to exchange the dialogue between the panelists and 
those of us who are trying to seek more information and help 
chart a course that will get us back on the right track.
    With that, Admiral Lautenbacher, you are up.

 STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR. (RET.), 
ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 
                             (NOAA)

    Vice Admiral Lautenbacher. Thank you, Mr. Chairman.
    Chairman Boehlert, Representative Gordon, and distinguished 
Committee Members and staff, I appreciate the opportunity to 
discuss with you this morning the status of the way ahead for 
the National Polar-orbiting Operational Environmental Satellite 
System, commonly known as NPOESS. And I thank the Committee for 
its continuing interest and strong support for NOAA's satellite 
programs.
    NOAA's satellites provide an unparalleled capability to 
take images and precise measurements of the land, sea, and air. 
Data from these observing systems are essential to our ability 
to understand and predict changes in the Earth's environment 
and to conserve and manage coastal and marine resources.
    Specifically, NOAA's polar satellites provide global images 
and atmospheric measurements and are the foundation of our 
global weather models. These models are critical to our mid- 
and long-range forecasts. The information from these satellites 
has many other applications, including climate and ocean 
research as well as disaster monitoring.
    Although their payoff is great, these satellites are also 
an inherently risky endeavor. Unlike a lot of things in our 
life, this is rocket science. These instruments must be 
sensitive enough to measure very small differences in the 
composition of the oceans and atmosphere while being able to 
withstand extreme vibrations of a launch and the extreme 
heating and cooling of the space environment.
    In 1994 regarding NPOESS, after a thorough review and 
serious consideration, President Clinton directed the merger of 
the military and civilian polar satellite programs. This new 
program, NPOESS, is responsible for developing the next 
generation of polar satellites and sensors. The program was 
designed as a series of six satellites and with a total 
instrument load of 13, including 10 environmental sensors, five 
of which represent significant advances over current 
technology.
    The new NPOESS sensors will provide higher quality data 
leading to more sophisticated environmental models for weather, 
climate, and the oceans.
    The program also includes a risk reduction component, the 
NPOESS Preparatory Project called NPP. NPP was designed to test 
several of the new sensors in space and to ensure the ground 
control systems work properly and allow us time to simulate the 
new data into the computer weather models before launch of the 
first operational NPOESS satellite.
    In terms of NPOESS management, NPOESS is a unique program 
in the Federal Government. It is jointly managed by the 
Department of Commerce and the Department of Defense, and the 
National Aeronautics and Space Administration, with direct 
funding provided by the Department of Commerce and the 
Department of Defense. At the senior level, the program is 
overseen by the Executive Committee, or EXCOM. This group meets 
several times a year to review the program, approve budgets, 
policies, and ensure agency funding commitments are equitable 
and sustained.
    The Integrated Program Office, or IPO, as it is called, is 
responsible for managing all aspects of the program. The system 
is being acquired using DOD acquisition authorities and is 
managed by the IPO. In 2002, Northrop Grumman was selected as 
the NPOESS prime contractor for spacecraft development, ground 
systems, sensor integration, and operations.
    Regarding the status of NPOESS, it is, as I have said, one 
of the most complex environmental satellite programs ever 
developed or proposed. This program represents numerous 
technical, developmental, integration, and management 
challenges. Overall progress has been made. The ground system 
is on budget and schedule despite some early technical 
challenges typical for complex developmental efforts. Major 
problems have been resolved for most of the sensors. The one 
sensor causing most of the recent problems is the Visible/
Infrared Imager Radiometer Suite, called VIIRS.
    VIIRS is the key imaging sensor delivering most of the 
atmospheric cloud and surface information products needed by 
weather forecasters. The IPO became aware of significant 
problems in mid- to late 2004. At the time, we believed the 
cost and schedule delays would only impact the NPP satellite, 
not the NPOESS satellites.
    On March 31, 2005, however, the contractor provided 
information to the IPO stating that it would not meet NPOESS 
cost and schedule plans due to problems with VIIRS as well as 
cost overruns in other parts of the program. The company 
provided this information in a formal letter on May 19, 2005.
    Since May 19, additional reviews and cost estimates led the 
Administration to notify Congress in September that the cost 
was likely to rise at least 15 percent per the notification in 
the Nunn-McCurdy Act.
    What we have done since then, as I have said many times, 
these problems are serious. We consider them seriously. We are 
doing everything we can to resolve the technical challenges 
that we have and to improve the management of the program and 
to get the program back on the right track, as you discussed in 
your opening statements. Significant changes have been made. 
The IPO System Program Director has resigned, and the 
government is searching for a new program manager. Northrop 
Grumman has hired a new NPOESS Program Manager and Raytheon, 
the subcontractor for VIIRS, has brought in a whole new sensor 
management team.
    In addition, the EXCOM has initiated two independent 
reviews of the program in the past six months. One looked at 
the problems with VIIRS impacting NPP, and the other, the 
Independent Program Assessment, called IPA, has examined the 
overall NPOESS program. These review teams are helping us to 
understand what happened and how to move forward. We are 
exploring many options, such as reducing sensor requirements, 
limiting the number of satellites, and shifts in cost and 
schedule. At the same time, the EXCOM is working with our user 
group to understand how any changes would impact the users of 
the data.
    In addition to the independent programmatic reviews, the 
EXCOM has asked the DOD's Cost Analysis and Improvement Group, 
or CAIG, to look at the cost and schedule estimates. This group 
is made up of acquisition and technical experts who can help 
provide further confidence in the cost estimates being 
discussed for the program.
    Of the questions the Committee asked me to answer: ``What 
is the current estimate of the cost and launch date for the 
first NPOESS satellite?''
    In short, since 2003, our plan was to launch NPP in October 
of 2006 and the first NPOESS satellite in November of 2009. 
Based on the issues discussed earlier, we now expect that 
timeline to be extended by at least two years, subject to the 
ongoing reviews.
    We anticipate a cost increase of at least 15 percent. The 
EXCOM will evaluate alternatives based on information from the 
IPA and the CAIG in December. Following the EXCOM decision, the 
IPO will begin the process to modify the contract with the 
target to complete the modification by September 2006.
    On the question regarding why we are not considering 
options that will increase spending in fiscal year 2006 and 
2007, we have considered many options, including those that 
include additional funding in fiscal year 2006 and fiscal year 
2007. The last information that we have had from our IPA team, 
however, concluded that to significantly improve our competency 
and success of the program, more time must be provided in 
between ongoing development and testing activities. The 
stretching of that schedule means that additional funding in 
fiscal year 2006 or fiscal year 2007 would not be warranted or 
be used beneficially. So stretching the schedule reduces the 
risk while increasing our chances of success.
    Would there be a gap in polar satellite data? What are the 
implications? If the last of NOAA's current POES satellite 
fails before the first flight of NPOESS, there could be a gap 
for much of the polar data. We are examining delaying the 
launch of the last POES satellite and using any of the 
remaining DOD polar satellites. We are also looking at NPP and 
the capabilities of the European polar satellites to cover any 
potential gaps. Should all of these efforts fail, and there is 
a number of significant back-ups here, we will experience 
degradation to our global weather models, which could impact 
our ability to forecast long-range weather.
    In conclusion, NPOESS is a very complex acquisition 
program. We are working very hard to overcome the technical and 
management challenges that have occurred. But before we make 
continuing major decisions, we need to ensure we have the best 
and the most complete information possible. We expect to have 
that information from ongoing independent reviews in the next 
two months and will be able to make some longer-range decisions 
on how to proceed.
    Thank you very much for the opportunity to discuss this 
with you today, and I am prepared to answer your questions.
    Thank you, sir.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]

     Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr.

    Chairman Boehlert, Representative Gordon, and Committee Members, I 
appreciate the opportunity to discuss with you the National Polar-
orbiting Operational Environmental Satellite System (NPOESS). I am 
Conrad C. Lautenbacher, Jr., Under Secretary for Oceans and Atmosphere 
and Administrator of the National Oceanic and Atmospheric 
Administration (NOAA) in the Department of Commerce (DOC).

NOAA's Satellite Programs

    Satellites provide an unparalleled capability to take images and 
precise measurements of many aspects of vast areas of the land, sea and 
air in very rapid succession. Data obtained from these observing 
systems are essential to our ability to understand and predict changes 
in the Earth's environment, and to conserve and manage coastal and 
marine resources. They are a key enabler to NOAA meeting its public 
safety, economic and environmental mission requirements.
    NOAA currently operates two major satellite programs. The 
Geostationary Operational Environmental Satellite (GOES) program 
provides continuous imaging and sounding data of the Western 
Hemisphere. This data is critical to our short-range weather forecasts 
and increases our ability to observe extreme weather events, such as 
tropical storms and tornadoes. The Polar-orbiting Operational 
Environmental Satellite (POES) program provides global images and 
atmospheric measurements a few times a day. This data is the foundation 
for our global weather models, which are critical to our mid- to long-
range forecasts. POES satellites also contain components which receive 
and relay signals from search and rescue beacons to emergency 
officials. Information from both programs has many other applications, 
such as climate and ocean research, disaster monitoring, and global 
vegetation analysis.

What is NPOESS

    Since the early 1960s, the United States has maintained two polar 
satellite programs, one for military use and one for civilian use. 
While data from both programs was freely exchanged, each satellite 
program operated independently. In 1994, after a multi-year review 
concluded that civilian and military requirements could be satisfied by 
a single polar satellite program, President Clinton directed the merger 
of the two programs into one--NPOESS. The program was designed as a 
series of six satellites, with a maximum of three operating at any 
given time (one in an early, mid morning and early afternoon orbit). 
Under the NPOESS program 14 different sensors are being developed that 
will be distributed in various configurations depending on the 
satellite's designated orbit. Several of these sensors represent 
significant advances over current technology.
    The new NPOESS sensors will provide higher quality data, increase 
our ability to see through clouds, and beam the information back more 
often than current polar satellites. These improvements will translate 
into more sophisticated weather models, which will lead to better 
forecasts and warnings. Satellites provide over 90 percent of the data 
used in weather forecasting models. NPOESS also will enhance the data 
and products used for climate and ocean research and operations as well 
as monitoring space weather.
    The program also includes a risk reduction component--the NPOESS 
Preparatory Project (NPP). NPP was designed to test several of the new 
sensors in space and to ensure the ground control systems work properly 
before launch of the first operational NPOESS satellite. Additionally, 
NPP should also allow us time to assimilate the new data sets into the 
computer weather models and other applications before NOAA would need 
to use them operationally. Finally, NPP should ensure continuity of 
certain climate records as some of the satellites maintained by the 
National Aeronautics and Space Administration (NASA) reach their end of 
life. As designed, the NPOESS program should provide the sensors to 
NASA, who would acquire and build the NPP spacecraft.

How is NPOESS Managed

    Per a Presidential Decision Directive and the resultant DOC/DOD/
NASA Memorandum of Agreement, the program is managed jointly by DOC, 
DOD, and NASA, with direct funding provided by DOC and DOD. At the 
senior level, the program is overseen by an Executive Committee 
(EXCOM), on which I represent the Department of Commerce, Dr. Sega 
represents the Department of Defense, and Dr. Griffin represents NASA. 
This group meets several times a year to review progress in achieving 
cost, schedule and performance baselines. The EXCOM also approves 
program plans, budgets, and policies, and ensures agency funding 
commitments are equitable and sustained.
    To assist the EXCOM, a Tri-Agency Steering Committee consisting of 
individuals from the same agencies meets monthly. This group acts on 
our behalf as a senior level management review body and recommends 
actions to the EXCOM, and provides guidance to the Integrated Program 
Office (IPO). A Senior User Advisory Group (SUAG), comprised of primary 
United States Government users, operates independently of the IPO and 
reviews, adjudicates and recommends NPOESS requirements for agency 
validation and subsequent Joint Agency Requirements Council (JARC) 
approval.
    The IPO, under the direction of a System Program Director, is 
responsible for the planning, budgeting, development, acquisition, 
launch operation and management of the NPOESS program. The system is 
being acquired using DOD acquisition authorities and the Air Force 
contract is managed by the IPO. In 2002, Northrop Grumman was selected 
as the NPOESS prime contractor for spacecraft development, ground 
systems, sensor integration, and operations. Contracts for some sensors 
were awarded before the prime contract.

What is the Status of NPOESS

    NPOESS likely is the most complex environmental satellite program 
ever developed. The NPOESS program presents numerous technical, 
developmental, integration and management challenges.
    The ground system is on budget and on schedule. For the spacecraft, 
technical challenges have occurred in several of the sensor development 
efforts. The two sensors that have experienced the most serious 
development and manufacturing problems are the Conical Microwave 
Imager/Sounder (CMIS) and the Visible/Infrared Imager Radiometer Suite 
(VIIRS).
    CMIS provides all-weather sounding and imaging capability, i.e., 
the ability to see through the clouds. While work continues on CMIS, it 
is still in its initial design phase. Early problems included meeting 
design performance within weight constraints. We believe these 
technical issues are being resolved. Furthermore, we are incorporating 
the lessons learned from the VIIRS experience to our management 
approach to CMIS.
    VIIRS provides the information used in many of the critical 
environmental data records and is the key imaging sensor delivering 
most of the atmospheric cloud and surface information products needed 
by weather forecasters. In mid-2004 during initial testing phases, we 
encountered significant problems showing potential design deficiencies 
and manufacturing process shortfalls. In late 2004, a cooling unit on 
the sensor, which is critical to its operation, failed during testing. 
These problems prompted a complete review of the sensor design, 
development and management. At the time, we believed the cost and 
schedule delays would be limited to NPP.
    On March 31, 2005, however, Northrop Grumman communicated to the 
IPO that it would not be able to meet overall NPOESS cost and schedule 
baselines due to the problems encountered with development of VIIRS. 
Northrop Grumman formally notified the Government by letter on May 19, 
2005.
    Reviews and preliminary cost estimates led the Administration in 
September to conclude that there was a reasonable expectation that the 
cost to produce each satellite unit was likely to rise at least 15 
percent per the notification requirement in the Nunn-McCurdy amendment.

What the Government has Done

    The problems facing NPOESS are serious and we are working to 
contain cost growth, limit schedule delays, and reduce risk. 
Significant changes have been made in the overall management of the 
NPOESS program to improve the effectiveness of both government and 
contractor oversight. The Government is engaged in a search for a new 
NPOESS Program Director, as the System Program Director resigned in 
September. Since the VIIRS problems were discovered, the IPO has had an 
on-site presence at the contractor's facilities and at Raytheon (the 
subcontractor for VIIRS), and is more involved in the day-to-day work 
being conducted. In terms of personnel, Northrop Grumman has assigned a 
new NPOESS Program Manager and Raytheon has brought in a new senior 
sensor management team. In addition, the EXCOM has initiated two 
independent reviews of the program, one to look at the problems of 
VIIRS impacting NPP and another--the Independent Program Assessment 
(IPA)--to examine the overall NPOESS program. These review teams are 
helping us to better understand what has gone wrong with the program 
and more fully explore the various options for moving forward. The 
review teams are exploring reducing sensor requirements and relying on 
other satellite systems to provide some of the requirements. At the 
same time, the EXCOM is working with the SUAG to understand how any 
changes to capabilities would impact users.
    In addition to the independent programmatic reviews, the EXCOM has 
asked the DOD's Cost Analysis and Improvement Group (CAIG) to provide 
an independent analysis of several IPA cost and schedule estimates. 
This group is made up of acquisition and technical experts who can help 
provide further confidence in the cost estimates being discussed for 
both the current NPOESS program and other options.

Response to Specific Questions

    I would now like to respond specifically to the questions the 
Committee presented me in its invitation letter.

1.  What is the current estimate of the cost and launch date for the 
first NPOESS satellite and how does that compare to the September 2003 
baseline ($7.3 billion and November 2009)? What steps need to be taken 
to firm up the cost and schedule estimate and when will an official new 
baseline be available?

    In 2003 and 2004, our plan was to launch NPP in October 2006, and 
the first NPOESS satellite in November 2009. Based on the problems 
discussed earlier, we expect the availability dates for NPP and the 
NPOESS satellites to be extended at least two years. These launch dates 
may be shortened or extended based on ongoing reviews of these issues 
and EXCOM decisions.
    We anticipate a cost increase of at least 15 percent per unit, 
which triggered the Nunn-McCurdy notification. The EXCOM will evaluate 
alternatives based on information from the IPA and CAIG in December. 
Following EXCOM direction, the IPO will begin the process to modify the 
contract with the target to complete the modification by September 
2006. This will culminate in an updated baseline in November 2006.

2.  What program options are being considered in response to the 
increased cost and schedule delays? Do any of these options involve 
scaling back the capability of the NPOESS satellite? Would such scaling 
back affect the plans of other agencies to fly sensors on NPOESS?

    We have reviewed numerous program options. These options include 
all three elements of cost, schedule and performance. For example, we 
considered maintaining the current budget and delaying the launches, or 
increasing the budget in the early years to minimize launch delays. We 
also looked at options that used NPOESS in only two orbits. Finally, we 
also looked at scaling back or deleting capability from the NPOESS 
satellites to reduce program cost and minimize launch delays. If we 
scale back the spacecraft, it could limit the size and number of total 
sensors flown on NPOESS.

3.  It is our understanding that no options are being considered that 
increase spending in Fiscal Year (FY) 2006 or FY 2007. Why is that the 
case? Will delaying action until FY 2008 increase the lifetime cost of 
the NPOESS program and increase the risk that the satellite will not be 
ready in time to perform its mission? Is the decision to not increase 
spending driven purely by near-term Federal budget constraints? If so, 
why is NOAA assuming that funding will be more available in FY 2008?

    We considered all options, including those with additional FY 2006 
and FY 2007 funding. However, the IPA has concluded that additional 
funding in these years would not buy back any schedule delays. All 
options will increase the lifetime cost of the NPOESS program. 
Decisions were not driven by near-term budget impacts, but rather have 
been focused on delivering the best possible overall value for the 
Nation.

4.  If the last satellite from the current NOAA polar series fails 
during launch or in orbit, then, given the schedule delays anticipated 
for NPOESS, there could be a 19- to 36-month gap in polar satellite 
coverage for NOAA. If a coverage gap were to occur, what are the 
implications for NOAA weather forecasting capabilities? What are NOAA's 
contingency plans for a gap in polar satellite coverage?

    We are considering options including the delay of the launch of the 
last POES satellite to improve the likelihood of overlap between POES 
and NPOESS satellites. If the last POES fails between launch and before 
the first flight of NPOESS, there could be a gap for some of the polar 
data. NOAA is working with DOD and our European partners to determine 
what fall-back capabilities are available. We are also examining how to 
use NPP to cover any potential gaps. Should all these efforts fail, we 
could experience some degradation to our global weather models.

Conclusion

    NPOESS is a very complex acquisition program that will greatly 
enhance and increase our nation's capabilities in weather forecasting 
and in other important environmental research areas. We are working 
very hard to overcome the technical and management challenges that have 
occurred and we believe that viable options to rationalize the program 
and move forward exist. Before we make any major decisions, however, we 
want to ensure we have the best information possible. We expect to have 
the information from the ongoing independent reviews in the next two 
months and will then be able to make some final decisions.
    Thank you for the opportunity to speak with you today and I am 
prepared to answer any questions you have.

         Biography for Vice Admiral Conrad C. Lautenbacher, Jr.

    A native of Philadelphia, Pa., retired Navy Vice Admiral Conrad C. 
Lautenbacher, Ph.D., is serving as the Under Secretary of Commerce for 
Oceans and Atmosphere. He was appointed Dec. 19, 2001. Along with this 
title comes the added distinction of serving as the eighth 
Administrator of the National Oceanic and Atmospheric Administration. 
He holds an M.S. and Ph.D. from Harvard University in applied 
mathematics.
    Lautenbacher oversees the day-to-day functions of NOAA, as well as 
laying out its strategic and operational future. The agency manages an 
annual budget of $4 billion. The agency includes, and is comprised of, 
the National Environmental Satellite, Data and Information Services; 
National Marine Fisheries Service; National Ocean Service; National 
Weather Service; Oceanic and Atmospheric Research; Marine and Aviation 
Operations; and the NOAA Corps, the Nation's seventh uniformed service. 
He directed an extensive review and reorganization of the NOAA 
corporate structure to meet the environmental challenges of the 21st 
century.
    As the NOAA Administrator, Lautenbacher spearheaded the first-ever 
Earth Observation Summit, which hosted ministerial-level representation 
from several dozen of the world's nations in Washington July 2003. 
Through subsequent international summits and working groups, he worked 
to encourage world scientific and policy leaders to work toward a 
common goal of building a sustained Global Earth Observation System of 
Systems (GEOSS) that would collect and disseminate data, information 
and models to stakeholders and decision-makers for the benefit of all 
nations individually and the world community collectively. The effort 
culminated in an agreement for a 10-year implementation plan for GEOSS 
reached by the 55-member countries of the Group on Earth Observations 
at the Third Observation Summit held in Brussels February 2005.
    He also has headed numerous delegations at international 
governmental summits and conferences around the world, including the 
U.S. delegation to 2002 Asia-Pacific Economic Cooperation Ocean 
Ministerial Meeting in Korea, and 2002 and 2003 meetings of the World 
Meteorological Organization and Intergovernmental Oceanographic 
Commission in Switzerland and France, as well as leading the Commerce 
delegation to the 2002 World Summit on Sustainable Development in South 
Africa.
    Before joining NOAA, Lautenbacher formed his own management 
consultant business, and worked principally for Technology, Strategies 
& Alliances Inc. He was president and CEO of the Consortium for 
Oceanographic Research and Education (CORE). This not-for-profit 
organization has a membership of 76 institutions of higher learning and 
a mission to increase basic knowledge and public support across the 
spectrum of ocean sciences.
    Lautenbacher is a graduate of the U.S. Naval Academy (Class of 
1964), and has won accolades for his performance in a broad range of 
operational, command and staff positions both ashore and afloat. He 
retired after 40 years of service in the Navy. His military career was 
marked by skilled fiscal management and significant improvements in 
operations through performance-based evaluations of processes.
    During his time in the Navy, he was selected as a Federal Executive 
Fellow and served at the Brookings Institution. He served as a guest 
lecturer on numerous occasions at the Naval War College, the Army War 
College, the Air War College, The Fletcher School of Diplomacy, and the 
components of the National Defense University.
    His Navy experience includes tours as Commanding Officer of USS 
HEWITT (DD-966), Commander Naval Station Norfolk; Commander of Cruiser-
Destroyer Group Five with additional duties as Commander U.S. Naval 
Forces Central Command Riyadh during Operations Desert Shield and 
Desert Storm, where he was in charge of Navy planning and participation 
in the air campaign. As Commander U.S. Third Fleet, he introduced joint 
training to the Pacific with the initiation of the first West Coast 
Joint Task Force Training Exercises (JTFEXs).
    A leader in the introduction of cutting-edge information 
technology, he pioneered the use of information technology to mount 
large-scale operations using sea-based command and control. As 
Assistant for Strategy with the Chief of Naval Operations Executive 
Panel, and Program Planning Branch Head in the Navy Program Planning 
Directorate, he continued to hone his analytic skills resulting in 
designation as a specialist both in Operations Analysis and Financial 
Management. During his final tour of duty, he served as Deputy Chief of 
Naval Operations (Resources, Warfare Requirements and Assessments) in 
charge of Navy programs and budget.
    Lautenbacher lives in Northern Virginia with his wife Susan who is 
a life-long high school and middle school science teacher.

    Chairman Boehlert. Thank you very much.
    In your testimony, I observe that there are a number of new 
players on your team. I hope we are not using the same 
playbook.
    Here is a new player on the team, Dr. Sega.
    Dr. Ronald M. Sega, Under Secretary for the Air Force, has 
a very distinguished career in government in a variety of 
important capacities. Dr. Sega, we are pleased to welcome you 
in this new capacity.

 STATEMENT OF DR. RONALD M. SEGA, UNDER SECRETARY FOR THE AIR 
                             FORCE

    Dr. Sega. Thank you.
    Mr. Chairman, Congressman Gordon, and distinguished Members 
of the Committee, I am honored to appear before you today to 
discuss----
    Chairman Boehlert. Dr. Sega, would you make sure your mike 
is on.
    Dr. Sega. Okay. Let us try that again here. Okay. Thank 
you.
    Mr. Chairman, Congressman Gordon, and distinguished Members 
of the Committee, I am honored to appear before you today to 
discuss the status of the National Polar-orbiting Operational 
Environmental Satellite System, NPOESS.
    Mr. Chairman, I request that my written statement be 
entered into the record.
    Chairman Boehlert. Without objection, so ordered.
    All of the statements will be included in the record in 
their entirety, and we would appreciate your willingness to 
kind of abbreviate so we can get to the important dialogue.
    Dr. Sega. Thank you, sir.
    In my role of overseeing the Department of Defense space 
activities as Under Secretary of the Air Force and the DOD 
Executive Agent for Space, I am committed to preserving the 
space capabilities that our commanders and forces depend on to 
conduct their missions.
    Shortly after I was sworn in as Under Secretary of the Air 
Force this August, I met with the NPOESS Executive Committee, 
the EXCOM. We were briefed that program cost growth would 
likely exceed the Nunn-McCurdy statutory limits, so we directed 
that Congress be notified and chartered an Independent Program 
Assessment, IPA, team to examine management, budget, and 
technical issues.
    Also, in light of the system program director's impending 
departure, we selected Brigadier General Select Sue Mashiko, 
one of our most experienced program managers. And Sue Mashiko 
is behind us here. She led the Atlas booster program as the 
program manager and EELVs department. The Nation has now its 
longest successful launch streak of 43 in a row successful 
national security satellite launches, in part due to Brigadier 
General Select Mashiko. She agreed to take over at this 
position as an interim program manager though her some of her 
household things have already been transferred to her new job 
in Florida and Eglin Air Force Base as Vice Commander.
    We also requested that the Office of the Secretary of 
Defense Cost Analysis Improvement Group complete an independent 
cost estimate of the NPOESS program of record. All of these 
actions, including the Nunn-McCurdy notification to Congress on 
September 28, 2005 were coordinated between the EXCOM members.
    The EXCOM next met in October. We were briefed on 
preliminary results of the independent assessment and decided 
to cap the program expenditures within the fiscal year 2006 
limits as the assessment team, the IPA, and the cost 
estimators, the CAIG, continued their work.
    In order to reduce the technical risk of a key sensor, the 
Visible/Infrared Imager Radiometer Suite, VIIRS, the EXCOM also 
decided to change the VIIRS' development approach from 
concurrent development where the engineering and flight units 
were built at the same time, to a serial development. We are 
delivering the engineering unit first and then following with 
the flight unit. And to reduce the risk of the science coverage 
gap, the EXCOM decided that NASA should launch the NPOESS 
Preparatory Project, NPP, satellite into an afternoon orbit.
    The IPA is still looking at several options, and will 
deliver its report to the EXCOM on November 22. The CAIG is 
also scheduled to present their independent cost estimate of 
the baseline program at that time. The EXCOM will review these 
results and determine the way ahead.
    The actions taken by the EXCOM reflect their determination 
to reduce the technical and management risk and programmatic 
risk to NPOESS. This effort reflects a much larger effort to 
structure space acquisition programs within what I see as four 
distinct but interrelated acquisition phases: operational 
system procurement, systems development, advanced technology 
development, and science and technology.
    This restructuring of acquisition is designed to 
redistribute the risk. Decreased risk in the operational 
procurement phase, that is, increase the technology maturity 
and reducing the risk in production and fielding of operational 
systems and increase the risk in the advanced technology 
development and science and technology phases.
    Operational systems like NPOESS are critical for our 
nation. Gaps in polar coverage will impact field commanders, 
situational awareness, and operational mission planning, effect 
low-Earth orbit space environment monitoring, which is crucial 
for precision navigation, communications, and missile defense 
operations, and degrade the severe weather forecast that help 
protect both military and civilian property. Polar-orbiting 
satellites such as NPOESS are necessary to meet DOD weather 
forecasting and national security objectives.
    Mr. Chairman, I appreciate the continued support of the 
Congress, this committee, and the House Armed Services 
Committee to deliver vital capabilities to our war fighters and 
ensure we have the space capabilities we need.
    Thank you for the opportunity to appear before this 
committee today. I look forward to your questions.
    [The prepared statement of Dr. Sega follows:]

                  Prepared Statement of Ronald M. Sega

INTRODUCTION

    Mr. Chairman and Members of the Committee, I am honored to appear 
before you today to address the state of the National Polar-Orbiting 
Operational Environmental Satellite System (NPOESS). In my role of 
overseeing Department of Defense (DOD) space activities as Under 
Secretary of the Air Force and the Department of Defense (DOD) 
Executive Agent for Space, I am committed to preserving the space 
capabilities that our commanders and forces depend on to conduct their 
missions.

NPOESS STATUS

    The NPOESS Integrated Program Office (IPO), made up of DOD, 
Department of Commerce (DOC), and National Aeronautics and Space 
Administration (NASA) personnel, was formed in December 1994, in 
response to the President's direction to converge the DOD and DOC polar 
weather satellite systems: the Defense Meteorological Satellite Program 
(DMSP) and the Polar Orbiting Environmental Satellite (POES), 
respectively.
    Since that time, the program has experienced several development 
challenges, culminating in the Nunn-McCurdy notification to Congress on 
September 28, 2005. We notified Congress that the NPOESS cost has grown 
at least 15 percent. Currently, the OSD Program Assessment & Evaluation 
Cost Analysis Improvement Group is independently assessing the NPOESS 
program cost and expects to complete their work in December 2005. We 
will provide the results of their effort to this committee when it 
becomes available. As we address the issues with the program and the 
risks of completing the acquisition, we acknowledge the possibility 
that the cost estimates may grow even higher. Hand-in-hand with the 
cost growth, the launch date has slipped; we anticipate the first 
NPOESS launch no earlier than fiscal year 2012.
    The NPOESS Executive Committee (EXCOM) chartered an Independent 
Program Assessment (IPA) team to support the establishment of a clear 
and unambiguous program baseline and cost estimate. In addition to an 
in-depth analysis of the current program, the IPA is currently 
exploring several options for a re-structured NPOESS program; however, 
these are preliminary and further evaluation is needed.
    We expect the EXCOM to direct a program re-plan based on the IPA 
recommendations while taking user requirements into consideration 
through the Senior Users Advisory Group (SUAG), a Flag Officer/SES-
level group from nine organizations within NOAA, the Air Force, NASA, 
the Joint Staff, the Navy, and the National Weather Service. For the 
re-plan, the IPO will build a detailed cost and schedule estimate in 
early calendar year 2006, prepare a new Acquisition Program Baseline, 
and update the Selected Acquisition Report. Once the new estimates are 
complete, the DOC and DOD will implement the new program baseline 
through each agency's funding processes.
    One of the IPA's preliminary findings is that too much work has 
been deferred to maintain the current program schedule. Even if 
additional FY06/07 funding were provided, the program could not 
maintain the current schedule because development of various sensors 
requires more time for integration and testing in order to reduce 
overall mission risk.

AVOIDING COVERAGE GAPS

    Building and launching NPOESS is critical for our nation's weather 
forecasting capabilities. Currently, polar orbiting platforms provide 
over 90 percent of the data used in DOC and DOD prediction models. A 
gap in polar coverage will impact commanders' situational awareness and 
operational mission planning. These satellites also provide low-Earth 
orbit space environment monitoring which is needed for effective 
precision navigation, communications and missile defense operations, 
and the operation of all orbiting spacecraft.
    Polar-orbiting meteorological spacecraft also help with protecting 
both military and civilian property. For example, if polar-orbiting 
microwave imagers or infrared sounders are not available, hurricane 
forecasts will be degraded.
    If we encounter or anticipate a significant gap in polar satellite 
coverage, we would potentially employ several overhead platforms--
spaceborne and airborne--to provide weather data. For instance, we may 
partner with NASA to use data from their research satellites in Air 
Force weather models. In addition, the Air Force is currently 
evaluating the usefulness of the high altitude flight regime using 
long-duration missions in the upper atmosphere for persistent coverage 
of mission areas not visible to geostationary satellites. Finally, one 
way we may minimize a gap in coverage is through a DMSP Service Life 
Extension Program aimed at increasing the lifespan of critical 
components.

CONCLUSION

    NPOESS is important to the future of DOD weather forecasting. The 
Air Force is responsible for weather forecasting for global military 
operations to include in areas where data is unavailable or denied. 
Presently, DMSP is a key assured source of data to accomplish that 
mission. Geostationary satellite data is of lower spatial resolution 
and cannot cover latitudes higher than 67 degrees--yet high latitude 
conditions are major drivers of worldwide weather. Polar-orbiting 
satellites such as NPOESS, as the eventual replacement for DMSP, are 
necessary to support national security objectives.
    I appreciate the continued support of the Congress and this 
committee to deliver vital capabilities to our warfighters and ensure 
we have the forecasting and remote sensing capabilities we need.

                      Biography for Ronald M. Sega

    Dr. Ronald M. Sega is Under Secretary of the Air Force, Washington, 
D.C. Dr. Sega is responsible for all actions of the Air Force on behalf 
of the Secretary of the Air Force and is acting Secretary in the 
Secretary's absence. In that capacity, he oversees the recruiting, 
training and equipping of more than 710,000 people, and a budget of 
approximately $110 billion. Designated the Department of Defense 
Executive Agent for Space, Dr. Sega develops, coordinates and 
integrates plans and programs for space systems and the acquisition of 
all DOD space major defense acquisition programs.
    Dr. Sega has had an extensive career in government service, 
academia and research. He graduated from the U.S. Air Force Academy in 
1974 as a distinguished graduate. His active-duty assignments included 
instructor pilot and Department of Physics faculty member at the U.S. 
Air Force Academy. He entered the Air Force Reserve in 1982 with the 
901st Tactical Airlift Group at Peterson Air Force Base, Colo., serving 
in a variety of operations positions. From 1987 to 2001 he served at 
Air Force Space Command in several assignments, including Mission Ready 
Crew Commander for satellite operations for the Global Positioning 
System, Defense Support Program and Midcourse Space Experiment. A 
command pilot with more than 4,000 flying hours, he retired from the 
Air Force Reserve in 2005 as a major general, last serving as the 
reserve assistant to the Chairman of the Joint Chiefs of Staff.
    Dr. Sega joined NASA as an astronaut in 1990, making his first 
Shuttle flight in 1994 aboard the Space Shuttle Discovery. From 
November 1994 to March 1995, he was NASA's Director of Operations, 
Russia, responsible for managing NASA activities supporting astronaut 
and cosmonaut training for flight on the Russian Mir Space Station. He 
completed his second Shuttle flight in 1996 as payload commander for 
the third Shuttle/Mir docking mission aboard Atlantis, completing his 
astronaut tenure with 420 hours in space.
    Since 1982, Dr. Sega has been a faculty member in the Department of 
Electrical and Computer Engineering at the University of Colorado at 
Colorado Springs with a rank of Professor since 1990. In addition to 
teaching and research activities, he was Technical Director of the 
Laser and Aerospace Mechanics Directorate at the U.S. Air Force 
Academy's F.J. Seiler Research Laboratory, and Assistant Director of 
the Space Vacuum Epitaxy Center, including management of the Wake 
Shield Facility Flight Programs at the University of Houston. Dr. Sega 
was the Dean of the College of Engineering and Applied Science at the 
University of Colorado from 1996 to 2001. In August 2001, he was 
appointed as the Director of Defense Research and Engineering, Office 
of the Secretary of Defense, serving as Chief Technical Officer for the 
Department and the Chief Advisor to the Secretary of Defense and Under 
Secretary of Defense for Acquisition, Technology and Logistics for 
scientific and technical matters. Dr. Sega has authored or co-authored 
more than 100 technical publications, has served on numerous local, 
regional and national advisory and governance boards, and he is a 
Fellow of the American Institute of Aeronautics and Astronautics and 
the Institute of Electrical and Electronics Engineers.

EDUCATION

1974   Distinguished graduate, Bachelor of Science degree in math and 
        physics, U.S. Air Force Academy, Colorado Springs, Colo.

1975  Master of Science degree in physics, Ohio State University, 
        Columbus

1982  Doctor of Philosophy in electrical engineering, University of 
        Colorado

CAREER CHRONOLOGY

1974-1982, U.S. Air Force pilot, instructor pilot, and Physics 
        Department faculty member (U.S. Air Force Academy, Colorado 
        Springs, Colo.)

1982-1985, Assistant Professor, Department of Electrical and Computer 
        Engineering, University of Colorado at Colorado Springs

1985-1990, Associate Professor, Department of Electrical and Computer 
        Engineering, University of Colorado at Colorado Springs (1987-
        1988, Technical Director, Lasers and Aerospace Mechanics 
        Directorate, Frank J. Seiler Research Laboratory, U.S. Air 
        Force Academy, Colorado Springs, Colo.; 1989-1990, Assistant 
        Director for Flight Programs, Space Vacuum Epitaxy Center, 
        Associate Research Professor in Physics, University of Houston, 
        Texas)

1990-1991, Astronaut candidate, NASA, Lyndon B. Johnson Space Center, 
        Houston, Texas

1991-1996, Astronaut, NASA, Lyndon B. Johnson Space Center, Houston, 
        Texas (1990-1996, Adjunct Professor of Physics, University of 
        Houston, Texas)

1996-2001, Dean, College of Engineering and Applied Science, University 
        of Colorado at Colorado Springs

2001, acting Assistant to the Secretary of Defense for Nuclear, 
        Chemical and Biological Programs, Office of the Secretary of 
        Defense, the Pentagon, Washington, D.C.

2001-2005, Director of Defense Research and Engineering, Office of the 
        Secretary of Defense, the Pentagon, Washington, D.C.

1982-2005, U.S. Air Force Reserve officer, pilot (302nd Tactical 
        Airlift Wing), space operator (Air Force Space Command), and 
        reserve assistant to the Chairman of the Joint Chiefs of Staff

2005-present, Under Secretary of the Air Force, Washington, D.C.

    Chairman Boehlert. Thank you very much, Dr. Sega.
    Dr. Livanos. And you know, it is not often that, on Capitol 
Hill, the contractors are thrown into a cage. Usually 
contractors are a favorite subject for criticism, but your team 
has been particularly forthcoming in responding to our 
information inquiries, and we have had complete dialogue, and I 
appreciate that very much. This is very helpful to all of us as 
we conduct this very important business.
    The Chair now recognizes you for your opening statement.

STATEMENT OF DR. ALEXIS C. LIVANOS, PRESIDENT, NORTHROP GRUMMAN 
                        SPACE TECHNOLOGY

    Dr. Livanos. Chairman Boehlert, Ranking Member Gordon, and 
distinguished Members of the Committee, I appreciate the 
opportunity to discuss with you the status of the NPOESS 
program today.
    Northrop Grumman serves as prime contractors of NPOESS. We 
were awarded that contract in August of 2002.
    I am here today to convey my personal commitment, and the 
commitment of my company, to this program. We are employing 
extensive resources to this effort and are committed to mission 
success, a concept that we have employed consistently over the 
last 20 years.
    We accept the responsibility for problems in the program, 
and we stand accountable to our customers and to you to move 
the program forward in the most cost-effective manner possible.
    NPOESS will revolutionize weather forecasting and military 
planning far surpassing our current capabilities. Observation 
delivery time of just 15 minutes compared to the hours needed 
today with the ability to measure ocean waves, see sand storms, 
for example. NPOESS will play a big role in providing more 
precise advanced warning of hurricanes and other adverse 
weather, and very importantly, empower our armed forces with 
real-time environmental information essential for their mission 
success and personal safety.
    As prime, we are responsible for overall system design, 
integration, and performance of the system. We are supported by 
a diverse team of contractors. In fact, more than 70 percent of 
the program is subcontracted. We have 1,700 people working on 
the program in 15 states.
    And NPOESS has achieved success in many fronts. The ground 
data processing segment, the terrestrial communications 
network, and the spacecraft design are moving smoothly through 
development, as are 10 out of the 13 sensors. But we have got 
our problems and cost overruns associated with the development 
of some sensor suites. We have conducted extensive tests of 
these new suites and instruments and believe we now know what 
it will take to make them function properly.
    When invited to appear before this committee, I was asked 
four specific questions, and I am prepared to address them now.
    First you asked for an estimate of the cost and the launch 
date for the first NPOESS satellite.
    Earlier this year, at the request of our customer, we 
developed and submitted more than 30 scenarios on how to 
proceed. The exact program cost and launch readiness dates will 
be determined by the decision by the Integrated Program Office. 
We anticipate receiving direction from the IPO in early 2006. 
At that time, we will immediately begin development of a 
revised program.
    Next slide.
    [Slide.]
    Depending on the option selected, launch delays for the 
first few satellites could range from months to years with cost 
increases of $1 billion or more.
    Your second question asked what Northrop Grumman has 
implemented in its oversight of subcontractors.
    More than 80 percent of the NPOESS cost growth and delay is 
attributable to sensor development by subcontractors. Northrop 
Grumman is working aggressively to resolve the issues at the 
subcontractor level and has taken many steps to correct any 
systemic process issues we have discovered. Specifically, we 
have expanded and strengthened the expertise of our on-site and 
support subcontract management. We have appointed a new team, 
an NPOESS vice president program director and spacecraft 
director who are seasoned professionals with experience in the 
execution phase of the program. We have instituted the practice 
of conducting deep dives into subcontractor design and 
development activity at the first sight of problems using our 
expertise and resources. We have co-located Northrop Grumman 
engineers and managers at subcontractor facilities to help 
solve problems. We have made the vice President of subcontracts 
a direct report to me to increase oversight. And we have a 
commitment at the CEO level from both Northrop Grumman and the 
subcontractors' top executives to assure performance because of 
the importance of this program.
    The third question is whether we made recommendations to 
the government on a path forward and what those options are.
    As I said earlier, we have spent many months studying 
alternatives and submitted more than 30 options to the IPO and, 
more recently, to the Independent Program Assessment Team.
    We have used three criteria to develop the scenarios: fit 
within specified funding limits, minimize the life cycle costs, 
and meet mission objectives. The options we recommended 
involved trading increases in program schedule for decreases in 
near-term funding. They also address reductions in scope, such 
as canceling a satellite or eliminating instruments. The range 
of options is extensive, and we believe we have carefully 
considered every possibility.
    As part of studying alternatives, we have concluded that 
additional funds would allow us to shorten the development 
schedule, reduce cost, reduce risk, and assure continuity in 
weather coverage, which is my response to your fourth question. 
This would enable continued acceleration of the development 
schedule for sensors and the risk reduction at large.
    Mr. Chairman, we stand behind the NPOESS program. We are 
ready to execute the chosen approach. We have and we will 
commit whatever it takes to make it happen.
    [The prepared statement of Dr. Livanos follows:]

                Prepared Statement of Alexis C. Livanos

Introduction

    Chairman Boehlert, Ranking Member Gordon and distinguished Members 
of the Committee. I am Alexis Livanos, president of Northrop Grumman 
Space Technology and vice president of Northrop Grumman Corporation. I 
appreciate the opportunity to discuss the status of the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) with you 
today.
    As the Nation's next-generation environmental data system, NPOESS 
will provide global, 24/7 environmental monitoring, surpassing any 
existing capabilities. The NPOESS system of low-Earth orbiting 
satellites, ground data processing networks, and a terrestrial 
communication network will play a pivotal role in weather preparedness 
in civil, military and science missions for the next 20 years, 
providing enormous advances in high-fidelity spectral, spatial, and 
temporal measurements over existing systems. NPOESS will give civilians 
more precise advance warning of hurricanes and severe weather, reducing 
the potential loss of human life and property; and will revolutionize 
battlefield situational awareness with timely knowledge of the weather 
for use by the military to its advantage during conflicts and 
operations. Observation to delivery time will be just 15 minutes 
compared to the hours that are needed today. Finally, the capability to 
make measurements at precisely the same time each day maintains 
consistency in the long-term data records required for climate change 
analysis and assessment.

NPOESS Prime Contractor Responsibilities

    Northrop Grumman is developing NPOESS under a contract awarded in 
August, 2002 by the NPOESS Integrated Program Office (IPO), which is 
jointly funded by the Department of Commerce and Department of Defense 
with participation from NASA. We are the prime contractor, responsible 
for overall system design, integration and performance. We are joined 
in this endeavor by a diverse team of subcontractors. Northrop Grumman 
Space Technology has the lead for system engineering and integration 
and the satellites. Our principal teammate and subcontractor, Raytheon, 
provides the ground segment products for command, control, 
communications and mission data processing and they also provide one of 
the most significant sensors on the spacecraft. Most sensors and a wide 
range of system components are provided by subcontractors from across 
the country. As a matter of fact, over 70 percent of the program is 
subcontracted effort.
    NPOESS is being developed under a shared system performance 
responsibility (SSPR) contract, in which the government and contractor 
share both program risk and decisions. Our profit is at risk if the 
system doesn't perform. This is a powerful motivation to build a 
quality product that meets the Nation's needs.
    NPOESS is among Northrop Grumman Space Technology's highest 
priority programs. As the prime contractor, we take responsibility for 
the current status of the program and we are committed to successfully 
resolving the technical, cost, and schedule challenges it faces. Our 
goal is mission success.
    The NPOESS satellites will host 13 sensor types; seven have new or 
modified designs and the rest have designs similar to existing 
instruments or have already been built. The seven new or modified 
instruments are the Visible/Infrared Imager Radiometer Suite (VIIRS), 
the Ozone Mapper/Profiler Suite (OMPS), the Cross-track Infrared 
Sounder (CrIS), the Conical Scanning Microwave Imager/Sounder (CMIS), 
the Advanced Technology Microwave Sounder (ATMS), the Space 
Environmental Sensor Suite (SESS), and the Aerosol Polarimeter Sensor 
(APS). Recognizing that new sensors require a longer time for 
development, the IPO awarded development contracts for VIIRS, CrIS, 
OMPS and CMIS up to three years in advance of selecting Northrop 
Grumman as the prime contractor. The development of ATMS was done for 
NASA on a separate contract. The IPO sensor development work was 
subsequently transferred to Northrop Grumman. The SESS contract was 
awarded after Northrop Grumman became prime contractor, and the APS 
contract has not yet been awarded.
    Northrop Grumman is also supplying the command, control, 
communications and data processing and on-orbit operations and support 
to the NPOESS Preparatory Project (NPP). NPP is a NASA mission with two 
purposes: (1) to provide data continuity between NASA's Earth Observing 
System science satellites and the NPOESS operational mission, and (2) 
to help in risk reduction for the deployment of the operational mission 
by flying selected instruments, installing the first-phase ground 
systems, and providing fully-processed data to users.

Historical Background

    After completing the initial program baseline, Northrop Grumman 
learned of the Administration's FY04 and through FY07 budget cuts and 
FY03 Congressional budget reductions. These budget reductions directly 
impacted the NPOESS baseline and necessitated a complete replan of the 
program, which was completed in February 2004. We were directed to give 
NPP activities (sensor deliveries, ground system delivery, system 
integration, and mission operations preparations) a higher priority 
than down-stream NPOESS activities. As a result, contract funds 
originally intended for NPOESS were diverted to cover NPP-associated 
cost overruns and complete the NPP work.

NPOESS Program Status

    The overall NPOESS system is making progress on many fronts. The 
ground data processing segment, the terrestrial communication network, 
and the spacecraft design are moving smoothly through development with 
no major issues. In June 2005, the System delta Preliminary Design 
Review (dPDR) was the capstone event for a top-to-bottom review of the 
NPOESS design. The review confirmed the soundness of the overall 
technical design and confirmed that the system would achieve the 
required technical performance. To support this review, we planned and 
executed a comprehensive set of six Preliminary Design Audits (PDAs) 
over the six months leading up to the formal, week-long System dPDR. 
The scope of this review was vast, spanning spacecraft, sensors, the 
ground segments, operations and support, system engineering, and end 
data product performance. During the review, more than 50 individual 
reviewers supporting seven review teams examined more than 570 design 
documents. The team successfully passed all PDAs and the dPDR, with no 
technical show-stoppers identified. The findings of the independent 
dPDR executive review team, comprised of highly experienced NASA, 
Aerospace, NGST/Raytheon, and User personnel, were complementary and 
beneficial for the next phase of development.
    Both ground segment developments, including the Command, Control, 
and Communications Segment (C3S) and the Interface Data Processing 
Segment (IDPS), are proceeding according to plan. In October of this 
year, the team successfully completed the NPP portion of the C3S 
Factory Acceptance Test following six months of rigorous testing. 
Installation and integration of the C3S into all eight ground sites is 
scheduled to be complete by next May, with a Segment Acceptance Test 
next September.
    Two of the four NPP sensors for the NPP risk reduction satellite 
are very mature in their development. The CrIS engineering development 
unit has been delivered to the spacecraft contractor for NPP, Ball 
Aerospace, for preliminary testing and the first CrIS flight unit will 
be delivered next spring. The ATMS engineering development unit and the 
flight unit, which were developed by Northrop Grumman Electronic 
Systems for NASA, have also been delivered. Delivery of these units has 
enabled Ball Aerospace to start performing initial interface testing of 
the sensors on the NPP spacecraft.

Current Program Estimates (Question 1)

    When invited to appear before this committee, I was asked to 
respond to four specific questions. The first question asked for our 
current estimate of program cost and launch date, and the steps that 
need to be taken to firm up the cost and schedule estimate.
    Earlier this year, as it became apparent the cost overruns 
associated with sensor development activity would exceed available 
reserves, we developed options for how to proceed with the overall 
program. We submitted more than 30 options to our customer and more 
recently, the Independent Program Assessment team, and anticipate 
receiving direction in early 2006 on the path forward. At that time, we 
will immediately begin developing a new program baseline which will 
require establishing a new detailed schedule and cost estimate for the 
program and renegotiated subcontracts with our suppliers. The entire 
process may be completed in the fourth quarter of 2006. In the 
meantime, the IPO has directed us to create detailed plans for FY06 
that are consistent with the current FY06 budget and will allow the 
program to proceed on a solid footing while the long-range options are 
evaluated through December of this year. We are often asked about why 
this takes so long--the reason is the detailed planning required to 
ensure that over 60,000 networked tasks remain properly phased to meet 
program needs.
    The restructured program cost and launch readiness dates will 
depend on the direction we receive following the government's 
assessment of options and the decision on the path forward. Relative to 
the question about cost and launch dates, I can summarize that launch 
delays for the first two satellites range from months to years, and the 
cost increases can be $1 billion or more, depending on the assumptions 
and ground rules of the options examined. I'd like to add that the 
number cited in the invitation letter as the September 2003 baseline of 
$7.4 billion is a figure Northrop Grumman does not recognize as 
directly associated with our contract. We regret the cost growth this 
program has experienced and recognize the impact it has on our 
customers, and consequently, have taken very substantial measures to 
fix the issues.

Sensor Development Challenges (Question 2)

    The second question asked what Northrop Grumman Space Technology is 
doing to address the problems on the program and particularly what 
changes are we implementing in our oversight of the subcontractors.
    More than 80 percent of the NPOESS cost growth and delay is 
attributable to the new instrument development activity. Northrop 
Grumman takes this responsibility very seriously and has responded with 
aggressive action to recover from the known problems. We have taken 
steps to correct systemic process issues that have been the root cause. 
As the prime contractor, it is our responsibility to oversee and manage 
the successful performance of all NPOESS subcontractors.
    Five of the new sensors had passed early design reviews and were at 
different stages of development when Northrop Grumman was awarded the 
prime contract. After four of these sensor developments were 
transferred to NGST (ATMS remains under contract to NASA), we became 
aware that the instruments had some level of developmental challenge--
but three instruments, VIIRS, OMPS, and CMIS--were experiencing unique 
problems that required sustained, tailored responses.
    During an investigation into these problems, Northrop Grumman found 
that in some cases, the issues were isolated problems and responded to 
focused fixes. In other cases, however, the sensor problems resulted 
from systemic subcontractor process issues that required, and continue 
to require, broad-reaching Northrop Grumman and government intervention 
for proper resolution.
    Northrop Grumman Space Technology has applied our own expertise and 
drawn on the resources of our corporation to assist the subcontractors. 
We are working closely with all the instrument subcontractors, but 
especially the VIIRS, OMPS, and CMIS subcontractors, by sharing our 
mission assurance, quality, hardware handling, software, testing, and 
design best practices, along with our program management best 
practices, to help them transition away from inadequate processes to a 
repeatable production process focus. In the long run, we believe these 
actions will improve our subcontractors' program performance and permit 
them to deliver production versions of the instruments, on-cost and on-
schedule.
    We are working diligently to put NPOESS on solid footing and have 
made organizational changes to further improve the performance of our 
instrument subcontractors. These changes include:

        <bullet>  Expanded and strengthened the expertise of our on-
        site and support subcontract management teams which are 
        responsible for directing subcontractor program execution.

        <bullet>  Replaced the NGST NPOESS vice president and program 
        director and the lead for the NPOESS sensors with very seasoned 
        subcontract and program management expertise.

        <bullet>  Reassigned the NGST vice president for subcontracts 
        to the NPOESS program as the NPOESS vice president and deputy 
        program director to focus executive management attention on all 
        NPOESS program suppliers.

        <bullet>  Made the vice president for subcontracts a direct 
        report to the sector president to raise the level of oversight 
        and review of all subcontractors across NGST.

        <bullet>  Instituted the practice of conducting technical and 
        process ``deep dives'' into the subcontractor design and 
        development activities at the first sign of problems utilizing 
        Northrop Grumman expertise and resources. This intervention 
        includes activities at the subcontractor's suppliers who are 
        providing key components. We have co-located NGST engineers and 
        program management at subcontractor facilities to help them 
        solve problems.

        <bullet>  Increased the frequency of NGST-to-subcontractor 
        executive communication meetings to assure issues are addressed 
        rapidly.

    A key lesson learned is to conduct early, extensive reviews of new 
subcontractors very soon after subcontract award, especially in cases 
where contractual responsibility is transferred. This is to ensure that 
supplier processes are robust and consistent with the comprehensive set 
of criteria we believe are needed for these developments and to ensure 
that development maturity is completely understood.

System Options (Question 3)

    Your third question asked if Northrop Grumman made recommendations 
to the government on a path forward and what those options are. We 
spent many months studying alternatives at the request of our customer 
and have submitted more than 30 options to the IPO and more recently, 
the Independent Program Assessment team. These options are currently 
under consideration by the government.
    Our criteria for these options were to fit within government 
specified funding limits, minimize life cycle costs, and meet defined 
mission objectives. The options involved trading increases in program 
schedule for reductions in near-term funding requirements. They also 
address reductions in scope, such as canceling a satellite or 
eliminating instruments. Options with longer schedules naturally 
increase the program's life cycle cost. The outcome of this planning 
activity, and subsequent additional cost growth, is heavily dependent 
upon the amount and timing of additional funds in FY06-08. Our list of 
options is extensive, and in the interest of a successful NPOESS 
program, we believe we have carefully considered every major option.

Moving Forward (Question 4)

    As part of looking ahead and studying alternatives, we have 
concluded that additional funds in FY06 and FY07 would significantly 
lower the program risk. The additional funds would allow us to shorten 
the development schedule, significantly reduce life cycle costs, 
resolve risk issues sooner, and decrease chances of a gap in 
environmental data and weather coverage. Additional funds would enable 
us to optimize the development schedule of two key sensors, VIIRS and 
CMIS. VIIRS is on the critical path to the NPP launch and CMIS is on 
the critical path to the first NPOESS launch. Additional funding would 
also help facilitate transition to a less risky development for the 
system overall. Any estimate of how much cost and time might be saved 
is highly dependent on additional factors, such as how soon the funding 
would be available and how it maps to the out-year plans; but if no new 
funds are available, the resolution of these issues will take longer 
than desired.

Conclusion

    In summary, the NPOESS program is healthy on many fronts. We have a 
lot of work to do to improve the technical capability and operability 
of three of our sensor packages, but we know how to do this and work is 
under way. We have provided more than 30 different scenarios to our 
government customers on the critical path forward, optimizing cost and 
schedule considerations. We await their direction to re-baseline this 
program and move forward. Our Northrop Grumman commitment to NPOESS 
mission success is solid, and the resources and talent of our 
professionals are extensive. If asked what I would recommend for this 
program, I would say that I hope that the government chooses to 
minimize schedule delays, minimize risk and deliver this critical 
operational capability into the hands of our war fighters and the 
severe weather forecasters as soon as is practically possible.

                    Biography for Alexis C. Livanos

    Dr. Alexis Livanos is Northrop Grumman Corporate Vice President and 
Space Technology Sector President. In this role, he is responsible for 
the operations of the Sector, which develops a broad range of systems 
at the leading edge of space, defense, and electronics technology. Dr. 
Livanos also serves on the company's corporate policy council.
    Previously, he led the turnaround of the Navigation and Space 
Sensors Division and established growth strategies in areas such as 
avionic systems and space sensors for use in the global war on 
terrorism.
    Before joining Northrop Grumman in 2003, Dr. Livanos served as 
Executive Vice President of Boeing Satellite Systems where he was 
responsible for technology, engineering, manufacturing, supply chain 
management, and strategic relationships and ventures. He previously 
served as Deputy General Manager for the former TRW Electronic Systems 
and Technology Division. He also served as Program Manager for the 
GUARDRAIL program; Operations Manager for the Microwave Technology and 
Development Operations; Manager of the Microelectronics Center; and 
Microelectronics Manager of two highly successful restricted programs 
related to MILSTAR 1.
    Throughout his career, Dr. Livanos gained expertise in the fields 
of advanced communications systems technology and technology 
insertions, hardware design, and satellite manufacturing and 
production, and has participated in the successful launch of 41 
satellites.
    Dr. Livanos earned a Bachelor's degree in mechanical engineering, a 
Master's degree in engineering science, and a Ph.D. in engineering 
science and physics from the California Institute of Technology, where 
he subsequently taught applied physics for two years as a post-
doctorate fellow.
    He is a member of the IEEE and serves on the Engineering Board of 
Counselors for the University of Southern California. He is also 
Chairman of the Advisory Council for the Graduate Aeronautical 
Laboratories at California Institute of Technology.

    Chairman Boehlert. Thank you very much, Dr. Livanos.
    When you go back to your office, would you remind your 
colleagues of how important their work is and how much their 
input is appreciated by those of us on Capitol Hill? Thank you 
very much.
    Dr. Powner. Thank you, Mr. Chairman.
    Chairman Boehlert. The floor is yours.

   STATEMENT OF MR. DAVID A. POWNER, DIRECTOR OF INFORMATION 
 TECHNOLOGY MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Thank you, Mr. Chairman.
    Chairman Boehlert, Ranking Member Gordon, Members of the 
Committee, we appreciate the opportunity to testify on NPOESS 
planned satellite system whose life cycle costs are now 
approaching the $10 billion mark. Since we last testified 
before Chairman Ehlers' Subcommittee on this program nearly two 
and one-half years ago, significant cost overruns and delays 
have occurred due, in part, to sensor development problems, 
poor contractor performance and program management.
    The current direction for the program is at a standstill as 
options are being made to minimize the cost overruns, schedule 
delays, and effects on users.
    This morning, as requested, I will summarize NPOESS's 
tentative cost and schedule, program risks, including those 
associated with key sensors, the status of options to move 
forward, and key management steps to reverse NPOESS's poor 
performance.
    First, cost and schedule. Last fall, we reported that the 
overall program cost estimate had run approximately $1.2 
billion, bringing the total cost to approximately $8 billion. 
Another large cost increase will soon be announced due to 
sensor development issues. We expect this increase to be about 
$1.4 billion, based on our analysis of recent contractor 
trends. This will bring the program's life cycle cost to about 
$10 billion.
    The schedule for the launch of the first satellite has also 
been delayed further, and the potential gap in coverage that 
this committee has been monitoring for some time continues to 
grow. This means that our nation is decreasing its chance of 
having the data essential for weather forecasting and military 
operations.
    When the NPOESS development contract was awarded, the 
schedule for launching of the first satellite was driven by a 
requirement that it be available as a backup to the launch of 
the final satellite if the predecessor post program fails. This 
meant that the first NPOESS satellite be available to back up 
the final POES satellite in December 2007.
    My written statement indicates that the first NPOESS 
satellite will not be available for launch until December 2010, 
three years after it is needed to back up the final POES 
satellite. The written statements from Admiral Lautenbacher and 
Dr. Sega claim that this gap can now be up to four years. 
Therefore, should the final POES launch fail in December 2007, 
there will be no backup satellites for launch, and there could 
be a gap in satellite coverage, especially since the 
operational satellites will be at the end of their useful 
lives.
    Regarding key program risks, the development of key sensors 
continues to pose significant risks. For example, the program 
continues to struggle with the technical complexity and 
component testing of the VIIRS sensor whose delivery is 
essential for the near-term risk reduction demonstration 
satellite that is to allow the program to work with sensors, 
ground control, and data processing systems well before the 
first NPOESS launch.
    As a result of significant program cost growth, the current 
direction for the program is at a standstill as options to 
minimize future cost, schedule, and user impacts are being 
evaluated.
    Until last week, we were told that five options were being 
considered that included removing a key sensor from the first 
satellite, delaying multiple launches, and not launching the 
risk reduction satellite. We recently have been informed that 
nine additional options exist. All of these would impact cost, 
schedules, and system users. NPOESS's Executive Committee plans 
to narrow these options in a meeting next week, obtain 
independent cost estimates of the selected options, and make a 
decision in December on the future direction of the program. 
Clearly, a timely decision is needed to inform this committee 
of future funding requirements to stabilize or even lessen the 
gap of satellite coverage, to re-negotiate contracts, to 
prepare users for data shortfalls, and to begin the turnaround 
in contractor and program performance.
    Once the decision is made to move forward, improved 
management of this program will be essential to correct 
NPOESS's poor historical performance. This should include 
greater contractor oversight, more timely risk identification 
and escalation to key program executives, greater executive 
level oversight to monitor progress and to address future risks 
of this program's cost schedule and performance.
    In summary, Mr. Chairman, NPOESS is a program in crisis. 
Although we commend efforts to study the issues so that the 
best decisions can be made to move forward, we are nearing a 
point where we need to stop studying and start managing this 
critical program. Moving forward with timely decision making 
will be more important than ever, as will continued oversight 
and strong leadership.
    This concludes my statement. Thank you for your leadership 
and oversight of this critical acquisition.
    [The prepared statement of Mr. Powner follows:]

                 Prepared Statement of David A. Powner

Mr. Chairman and Members of the Committee:

    We appreciate the opportunity to participate in today's hearing to 
discuss our work on the planned National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) program. NPOESS is expected to 
be a state-of-the-art environment-monitoring satellite system that will 
replace two existing polar-orbiting environment satellite systems. 
Polar-orbiting satellites provide data and imagery that are used by 
weather forecasters, climatologist, and the military to map and monitor 
changes in weather, climate, the oceans, and the environment. The 
NPOESS program is considered critical to the United States' ability to 
maintain the continuity of data required for weather forecasting and 
global climate monitoring through the year 2020. At your request, we 
will discuss the NPOESS program's schedule, cost, trends, and risks, 
and describe plans and implications for moving the program forward.
    This statement builds on other work we have done on environmental 
satellite programs over the last several years.\1\ As agreed with your 
staff members, we plan to continue our oversight of this program. An 
overview of the approach we used to perform this work--our objectives, 
scope, and methodology, is provided in Appendix 1.
---------------------------------------------------------------------------
    \1\ GAO, Polar-orbiting Environmental Satellites: Information on 
Program Cost and Schedule Changes, GAO-04-1054 (Washington, D.C.: 
September 30, 2004); Polar-orbiting Environmental Satellites: Project 
Risks Could Affect Weather Data Needed by Civilian and Military Users, 
GAO-03-987T (Washington, D.C.: July 15, 2003); Polar-orbiting 
Environmental Satellites: Status, Plans, and Future Data Management 
Challenges, GAO-02-684T (Washington, D.C.: July 24, 2002); National 
Oceanic and Atmospheric Administration: National Weather Service 
Modernization and Weather Satellite Program, GAO/T-AIMD-0086 
(Washington D.C.: March 29, 2000); and Weather Satellites: Planning for 
the Geostationary Satellite Program Needs More Attention, GAO-AIMD-97-
37 (Washington, D.C.: March 13, 1997).
---------------------------------------------------------------------------

Results in Brief

    Over the past several years, the NPOESS program has experienced 
continued schedule delays, cost increases, and technical challenges. 
The schedule for the launch of the first satellite has been delayed by 
at least 17 months (until September 2010 at the earliest), and this 
delay could result in a gap in satellite coverage of at least three 
years if the last satellite in the prior series fails on launch. 
Program life cycle cost estimates have grown from $6.5 billion in 2002 
to $8.1 billion in 2004 and are still growing. While the program is 
currently reassessing its life cycle cost estimates, our analysis of 
contractor trends as of September 2005 shows a likely $1.4 billion 
contract cost overrun--bringing the life cycle cost estimate to about 
$9.7 billion. Technical risks in developing key sensors continue, and 
could lead to further cost increases and schedule delays.
    As a result of expected program cost growth, the Executive 
Committee responsible for NPOESS is evaluating options for moving the 
program forward--and new cost estimates for those options. Key options 
under consideration in August 2005 included removing a key sensor from 
the first satellite, delaying launches of the first two satellites, and 
not launching a preliminary risk-reduction satellite. All of these 
options impact the program's cost and schedules, and the system users 
who rely on satellite data to develop critical weather products and 
forecasts--although the full extent of that impact is not clear. 
Further, last week we were informed that there are nine new options now 
under consideration, and all are likely to impact costs, schedules, and 
system users. Until a decision is made, the program remains without a 
plan for moving forward, and there are opportunity costs in not making 
a decision--some options are lost, and others may become more 
difficult. Given the history of large cost increases and the factors 
that could further affect NPOESS costs and schedules, continued 
oversight, strong leadership, and timely decision-making are more 
critical than ever.

Background

    Since the 1960s, the United States has operated two separate 
operational polar-orbiting meteorological satellite systems: the Polar-
orbiting Operational Environmental Satellites (POES), managed by the 
National Oceanic and Atmospheric Administration (NOAA) and the Defense 
Meteorological Satellite Program (DMSP) managed by the Department of 
Defense (DOD). The satellites obtain environmental data that are 
processed to provide graphical weather images and specialized weather 
products and are the predominant input to numerical weather prediction 
models. These images, products, and models are all used by weather 
forecasters, the military, and the public. Polar satellites also 
provide data used to monitor environmental phenomena, such as ozone 
depletion and drought conditions, as well as data sets that are used by 
researchers for a variety of studies, such as climate monitoring.
    Unlike geostationary satellites, which maintain a fixed position 
above the Earth, polar-orbiting satellites constantly circle the Earth 
in an almost north-south orbit, providing global coverage of conditions 
that affect the weather and climate. Each satellite makes about 14 
orbits a day. As the Earth rotates beneath it, each satellite views the 
entire Earth's surface twice a day. Currently, there are two 
operational POES satellites and two operational DMSP satellites that 
are positioned so that they can observe the Earth in early morning, mid 
morning, and early afternoon polar orbits. Together, they ensure that, 
for any region of the Earth, the data provided to users are generally 
no more than six hours old. Figure 1 illustrates the current 
operational polar satellite configuration. Besides the four operational 
satellites, six older satellites are in orbit that still collect some 
data and are available to provide some limited backup to the 
operational satellites should they degrade or fail. In the future, both 
NOAA and DOD plan to continue to launch additional POES and DMSP 
satellites every few years, with final launches scheduled for 2007 and 
2011, respectively.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Each of the polar satellites carries a suite of sensors designed to 
detect environmental data that are either reflected or emitted from the 
Earth, the atmosphere, and space. The satellites store these data and 
then transmit them to NOAA and Air Force ground stations when the 
satellites pass overhead. The ground stations then relay the data via 
communications satellites to the appropriate meteorological centers for 
processing. The satellites also broadcast a subset of these data in 
real time to tactical receivers all over the world.
    Under a shared processing agreement among four satellite data 
processing centers--NOAA's National Environmental Satellite Data and 
Information Service (NESDIS), the Air Force Weather Agency, the Navy's 
Fleet Numerical Meteorology and Oceanography Center, and the Naval 
Oceanographic Office--different centers are responsible for producing 
and distributing, via a shared network, different environmental data 
sets, specialized weather and oceanographic products, and weather 
prediction model outputs.\2\ Each of the four processing centers is 
also responsible for distributing the data, to its respective users. 
For the DOD centers, the users include regional meteorology and 
oceanography centers, as well as meteorology and oceanography staff on 
military bases. NESDIS forwards the data to NOAA's National Weather 
Service for distribution and use by government and commercial 
forecasters. The processing centers also use the Internet to distribute 
data to the general public. NESDIS is responsible for the long-term 
archiving of data and derived products from POES and DMSP.
---------------------------------------------------------------------------
    \2\ These environmental data sets, specialized weather and 
oceanographic products, and weather prediction model outputs are 
produced through algorithmic processing. An algorithm is a precise set 
of procedures that enable a desired end result, such as a measurement 
of natural phenomena.
---------------------------------------------------------------------------
    In addition to the infrastructure supporting satellite data 
processing noted above, properly equipped field terminals that are 
within a direct line of sight of the satellites can receive real-time 
data directly from the polar-orbiting satellites. There are an 
estimated 150 such field terminals operated by U.S. and foreign 
governments and academia. Field terminals can be taken into areas with 
little or no data communications infrastructure--such as on a 
battlefield or a ship--and enable the receipt of weather data directly 
from the polar-orbiting satellites. These terminals have their own 
software and processing capability to decode and display a subset of 
the satellite data to the user. Figure 2 depicts a generic data relay 
pattern from the polar-orbiting satellites to the data processing 
centers and field terminals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


NPOESS Overview

    Given the expectation that combining the POES and DMSP programs 
would reduce duplication and result in sizable cost savings, a May 1994 
Presidential Decision Directive\3\ required NOAA and DOD to converge 
the two satellite programs into a single satellite program capable of 
satisfying both civilian and military requirements. The converged 
program, NPOESS, is considered critical to the United States' ability 
to maintain the continuity of data required for weather forecasting and 
global climate monitoring through the year 2020. To manage this 
program, DOD, NOAA, and the National Aeronautics and Space 
Administration (NASA) formed a tri-agency Integrated Program Office, 
located within NOAA.
---------------------------------------------------------------------------
    \3\ NSTC-2, May 5, 1994.
---------------------------------------------------------------------------
    Within the program office, each agency has the lead on certain 
activities. NOAA has overall program management responsibility for the 
converged system and for satellite operations; DOD has the lead on the 
acquisition; and NASA has primary responsibility for facilitating the 
development and incorporation of new technologies into the converged 
system. NOAA and DOD share the costs of funding NPOESS, while NASA 
funds specific technology projects and studies. Figure 3 depicts the 
organizations comprising the Integrated Program Office and lists their 
responsibilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Program acquisition plans call for the procurement and launch of 
six NPOESS satellites over the life of the program, as well as the 
integration of 13 instruments, consisting of 10 environmental sensors 
and three subsystems. Together, the sensors are to receive and transmit 
data on atmospheric, cloud cover, environmental, climate, 
oceanographic, and solar-geophysical observations. The subsystems are 
to support non-environmental search and rescue efforts, sensor 
survivability, and environmental data collection activities. According 
to the program office, seven of the 13 planned NPOESS instruments 
involve new technology development, whereas six others are based on 
existing technologies. In addition, the program office considers four 
of the sensors involving new technologies critical, because they 
provide data for key weather products; these sensors are shown in bold 
in Table 1, which lists the planned instruments and the state of 
technology on each.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to the sensors and subsystems listed above, in August 
2004, the President directed NASA and the Departments of Defense, the 
Interior, and Commerce to place a LANDSAT-like imagery capability on 
the NPOESS platform. This new capability is to collect imagery data of 
the Earth's surface similar to the current LANDSAT series of 
satellites, which are managed by the Department of Interior's U.S. 
Geological Survey and are reaching the end of their respective life 
spans. One instrument was launched in 1984 and is now long past its 
three-year design life; the newer satellite is not fully operational. 
LANDSAT is an important tool in environmental monitoring efforts, 
including land cover change, vegetation mapping, and wildfire effects. 
The decision to add a LANDSAT-like sensor to the NPOESS platform is 
currently being revisited by the President's Office of Science and 
Technology Policy and the Office of Management and Budget.
    In addition, the NPOESS Preparatory Project (NPP), which is being 
developed as a major risk reduction and climate data continuity 
initiative, is a planned demonstration satellite to be launched several 
years before the first NPOESS satellite is to be launched. It is 
planned to host three of the four critical NPOESS sensors (the visible/
infrared imager radiometer suite, the cross-track infrared sounder, and 
the advanced technology microwave sounder), as well as a noncritical 
sensor (the ozone mapper/profiler suite). NPP will provide the program 
office and the processing centers an early opportunity to work with the 
sensors, ground control, and data processing systems. Specifically, 
this satellite is expected to demonstrate the validity of about half of 
the NPOESS environmental data records\4\ and about 93 percent of its 
data processing load.
---------------------------------------------------------------------------
    \4\ Environmental data records are weather products derived from 
sensor data records and temperature data records.
---------------------------------------------------------------------------

NPOESS Acquisition Strategy

    NPOESS is a major system acquisition that consists of three key 
phases: the concept and technology development phase, which lasted from 
roughly 1995 to early 1997; the program definition and risk reduction 
phase which began in early 1997 and ended in August 2002; and the 
engineering and manufacturing development and production phase, which 
began with the award of the development and production contract in 
August 2002 and will continue through the end of the program. Before 
the contract was awarded in 2002, the life cycle cost estimate for the 
program was estimated to be $6.5 billion over the 24-year period from 
the inception of the program in 1995 through 2018. Shortly after the 
contract was awarded, the life cycle cost estimate grew to $7 billion.
    When the NPOESS development contract was awarded, program officials 
identified an anticipated schedule and funding stream for the program. 
The schedule for launching the satellites was driven by a requirement 
that the satellites be available to back up the final POES and DMSP 
satellites should anything go wrong during the planned launches of 
these satellites. In general, program officials anticipate that roughly 
one out of every 10 satellites will fail either during launch or during 
early operations after launch.
    Early program milestones included (1) launching NPP by May 2006, 
(2) having the first NPOESS satellite available to back up the final 
POES satellite launch in March 2008, and (3) having the second NPOESS 
satellite available to back up the final DMSP satellite launch in 
October 2009. If the NPOESS satellites were not needed back up the 
final predecessor satellites, their anticipated launch dates would have 
been April 2009 and June 2011, respectively.
    In 2003, we reported that these schedules were subsequently changed 
as a result of changes in the NPOESS funding stream.\5\ A DOD program 
official reported that between 2001 and 2002 the agency experienced 
delays in launching a DMSP satellite, causing delays in the expected 
launch dates of another satellite. In late 2002, DOD shifted the 
expected launch date for the final satellite from 2009 to 2010. As a 
result, the department reduced funding for NPOESS by about $65 million 
between fiscal years 2004 and 2007. According to program officials, 
because NOAA is required to provide the same level of funding that DOD 
provides, this change triggered a corresponding reduction in funding by 
NOAA for those years. As a result of the reduced funding, program 
officials were forced to make difficult decisions about what to focus 
on first. The program office decided to keep NPP as close to its 
original schedule as possible, because of its importance to the 
eventual NPOESS development, and to shift some of the NPOESS 
deliverables to later years. This shift affected the NPOESS deployment 
schedule. To plan for this shift, the program office developed a new 
program cost and schedule baseline.
---------------------------------------------------------------------------
    \5\ GAO-03-987T.
---------------------------------------------------------------------------
    After this new baseline was completed in 2004, we reported that the 
program office increased the NPOESS cost estimate from about $7 billion 
to $8.1 billion, and delayed key milestones, including the planned 
launch of the first NPOESS satellite--which was delayed by seven 
months.\6\ The cost increases reflected changes to the NPOESS contract 
as well as increased program management funds. According to the program 
office, contract changes included extension of the development 
schedule, increased sensor costs, and additional funds needed for 
mitigating risks. Increased program management funds were added for 
non-contract costs and management reserves.
---------------------------------------------------------------------------
    \6\ GAO-04-1054.
---------------------------------------------------------------------------
    We also noted that other factors could further affect the revised 
cost and schedule estimates. Specifically, the contractor was not 
meeting expected cost and schedule targets of the new baseline because 
of technical issues in the development of key sensors. Based on its 
performance through May 2004, we estimated that the contractor would 
most likely overrun its contract at completion in September 2011 by 
$500 million. In addition, we reported that risks associated with the 
development of the critical sensors, integrated data processing system, 
and algorithms, among other things, could contribute to further cost 
increases and schedule slips.

NPOESS Schedules, Costs, and Trends Continue to Worsen

    Over the past year, NPOESS cost increases and schedule delays have 
demonstrated worsening trends. NPOESS has continued to experience 
problems in the development of a key sensor, resulting in schedule 
delays and anticipated cost increases. Farther, contractor data show 
that costs and schedules are likely to continue to increase in the 
future. Our trend analysis shows that the contractor will most likely 
overrun costs by $1.4 billion, resulting in a life cycle cost of about 
$9.7 billion, unless critical changes are made. Program risks, 
particularly with the development of critical sensors, could further 
increase NPOESS costs and delay schedules. Management problems at 
multiple levels--subcontractor, contractor, program office, and 
executive leadership--have contributed to these cost and schedule 
issues.

NPOESS Sensor Problems Triggered Schedule Delays and Cost Increases

    NPOESS has continued to experience problems in the development of a 
key sensor, resulting in schedule delays and anticipated cost 
increases. In early 2005, the program office learned that a 
subcontractor could not meet cost and schedule due to significant 
technical issues on the visible/infrared imager radiometer suite 
(VIIRS) sensor--including problems with the cryoradiator,\7\ excessive 
vibration of sensor parts, and errors in the sensor's solar 
calibration. These technical problems were further complicated by 
inadequate process engineering and management oversight by the VIIRS 
subcontractor. To address these issues, the program office provided 
additional funds for VIIRS, capped development funding for the conical-
scanned microwave imager/sounder (CMIS) and the ozone mapper/profiler 
suite sensors, and revised its schedule in order to keep the program 
moving forward.
---------------------------------------------------------------------------
    \7\ The cryoradiator is a key component of the VIIRS sensor. It is 
intended to cool down components of the sensor.
---------------------------------------------------------------------------
    By the summer of 2005, the program office reported that significant 
technical issues had been resolved--but they had a significant impact 
on the overall NPOESS program. Regarding NPOESS schedule, the program 
office anticipated at least a 10-month delay in the launch of the first 
satellite (totaling at least a 17-month delay from the time the 
contract was awarded) and a six-month delay in the launch of the second 
satellite. A summary of recent schedule changes is shown in Table 2. 
The effect of these delays is evident in the widening gap between when 
the last POES satellite is expected to launch and when the first NPOESS 
satellite could be available if needed as a backup. This is significant 
because if the last POES satellite fails on launch, it will be at least 
three years before the first NPOESS satellite could be launched. During 
that time, critical weather and environmental observations would be 
unavailable and military and civilian weather products and forecasts 
would be significantly degraded.
    As for NPOESS costs, program officials reported that the VIIRS 
development problems caused the program to overrun its budget, and that 
they need to reassess options for funding the program. They did not 
provide an updated cost estimate, noting that new cost estimates are 
under development. A summary of recent program cost growth is shown in 
Table 3.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Trends in Contractor Data Show Continued Cost and Schedule Overruns; 
                    Overall Costs Projected to Grow

    In addition to the overall program office cost and schedule 
estimates, it is valuable to assess contractor data to monitor the 
contractor's progress in meeting deliverables since contractor costs 
comprise a substantial portion of the overall program costs. NPOESS 
contractor data show a pattern of cost and schedule overruns--and a 
most likely contract cost growth of about $1.4 billion.
    One method project managers use to track contractor progress on 
deliverables is earned value management. This method, used by DOD for 
several decades, compares the value of work accomplished during a given 
period with that of the work expected in that period. Differences from 
expectations are measured in both cost and schedule variances. Cost 
variances compare the earned value of the completed work with the 
actual cost of the work performed. For example, if a contractor 
completed $5 million worth of work and the work actually cost $6.7 
million, there would be a -$1.7 million cost variance. Schedule 
variances are also measured in dollars, but they compare the earned 
value of the work completed to the value of work that was expected to 
be completed. For example, if a contractor completed $5 million worth 
of work at the end of the month, but was budgeted to complete $10 
million worth of work, there would be a -$5 million schedule variance. 
Positive variances indicate that activities are costing less or are 
completed ahead of schedule. Negative variances indicate that 
activities are costing more or are falling behind schedule. These cost 
and schedule variances can then be used in estimating the cost and time 
needed to complete the program.
    Using contractor-provided data, our analysis indicates that NPOESS 
cost performance continues to experience negative variances. Figure 4 
shows the 6-month cumulative cost variance for the NPOESS contract. 
From March 2005 to September 2005, the contractor exceeded its cost 
target by $103.7 million, which is about 9 percent of the contractor's 
budget for that time period. The contractor has incurred a total cost 
overrun of $253.8 million with NPOESS development only about 36 percent 
complete. This information is useful because trends often tend to 
continue and can be difficult to reverse unless management attention is 
focused on key risk areas and risk mitigation actions are aggressively 
pursued. Studies have shown that, once programs are 15 percent 
complete, the performance indicators are indicative of the final 
outcome.
    Based on contractor performance from March 2005 to September 2005, 
we estimate that the current NPOESS contract will overrun its budget--
worth approximately $3.4 billion--by between $788 million and $2 
billion. Our projection of the most likely cost overrun is about $1.4 
billion. The contractor, in contrast, estimates about a $371 million 
overrun at completion of the NPOESS contract. Adding our projected $1.4 
billion overrun to the prior $8.1 billion life cycle cost estimate and 
the project office's estimated need for $225 million in additional 
management costs brings the total life cycle cost of the program to 
about $9.7 billion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our analysis also indicates that the contract is showing a negative 
schedule variance. Figure 5 shows the six-month cumulative schedule 
variance of NPOESS. From March 2005 to September 2005, the contractor 
was unable to complete $27.8 million worth of scheduled work. In 
September, the contractor was able to improve its overall schedule 
performance because of an unexpectedly large amount of work being 
completed on the spacecraft (as opposed to the sensors). It was not a 
reflection of an improvement in the contractor's ability to complete 
work on the critical sensors. Specifically, performance on the 
development of critical sensors over the past six months continued to 
be poor, which indicates that schedule performance will likely remain 
poor in the future. This is of concern because an inability to meet 
contract schedule performance could be a predictor of future rising 
costs, as more spending is often necessary to resolve schedule 
overruns.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Risks Could Further Affect NPOESS Cost and Schedules

    Risk management is a leading management practice that is widely 
recognized as a key component of a sound system development approach. 
An effective risk management approach typically includes identifying, 
prioritizing, resolving, and monitoring project risks.
    Program officials reported that they recognize several risks with 
the overall program and critical sensors that, if not mitigated, could 
further increase costs and delay the schedule. In accordance with 
leading management practices, the program office developed a NPOESS 
risk management program that requires assigning a severity rating to 
risks that bear particular attention, placing these risks in a 
database, planning response strategies for each risk in the database, 
and reviewing and evaluating risks in the database during monthly 
program risk management board meetings.
    The program office identifies risks in two categories: program 
risks, which affect the whole NPOESS program and are managed at the 
program office level, and segment risks, which affect only individual 
segments\8\ and are managed at the integrated product team level. The 
program office has identified 17 program risks, including 10 medium to 
medium-high risks. Some of these risks include the delivery of four 
sensors (VIIRS, CMIS, the cross-track infrared sounder and the ozone 
mapper/profiler suite) and the integrated data processing system; and 
the uncertainty that algorithms will meet system performance 
requirements. Figure 6 identifies the 17 program risks and their 
assigned levels of risk.
---------------------------------------------------------------------------
    \8\ These segments are identified as (1) overall system 
integration, (2) the launch segment, (3) the space segment, (4) the 
interface data processing segment, and (5) the command, control, and 
communications segment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Managing the risks associated with the development of VIIRS, the 
ozone mapper/profiler suite, the cross-track infrared sounder, the 
integrated data processing system, and algorithm performance is of 
particular importance because these are to be demonstrated on the NPP 
satellite that is currently scheduled for launch in April 2008. The 
risks with the development of CMIS are also important because CMIS is 
one of the four critical sensors providing data for key weather 
products.
    At present, the program office considers two critical sensors--
VIIRS and CMIS--to present key program risks because of technical 
challenges that each is facing. In addition to the previously reported 
VIIRS problems, the sensor continues to experience significant problems 
dealing with the technical complexity of the ground support equipment. 
The testing of optical and solar diffuser components has also been more 
challenging than expected and is taking longer than planned to 
complete. In addition, the delivery of components for integration onto 
the sensor, including the electronics material from two subcontractors, 
has been behind schedule due to technical challenges. Until the current 
technical issues are resolved, delays in the VIIRS delivery and 
integration onto the NPP satellite remain a potential threat to the 
expected launch date of the NPP.
    The CMIS sensor is experiencing schedule overruns that may threaten 
its expected delivery date. Based on the prime contractor's analysis, 
late deliveries of major CMIS subsystems will occur unless the current 
schedule is extended. For example, the simulator hardware is already 
expected to be delivered late, based on the current contractual 
requirement of December 2006. CMIS also continues to experience 
technical challenges in the design of the radio frequency receivers, 
the structure, and the antenna. In addition, extensive effort has been 
expended to resolve system reliability and thermal issues, among other 
things. To the program office's credit, it is aware of these risks and 
is using its risk management plans to help mitigate them.

Current Program Issues Due, in Part, to Problems at Multiple Management 
                    Levels

    Problems involving multiple levels of management--including 
subcontractor, contractor, program office, and executive leadership--
have played a role in bringing the NPOESS program to its current state. 
As noted earlier, VIIRS sensor development issues were attributed, in 
part, to the subcontractor's inadequate project management. 
Specifically, after a series of technical problems, internal review 
teams sent by the prime contractor and the program office found that 
the VIIRS subcontractor had deviated from a number of contract, 
management, and policy directives set out by the main office and that 
both management and process engineering were inadequate. Neither the 
contractor nor the program office recognized the underlying problems in 
time to fix them. After these issues were identified, the 
subcontractor's management team was replaced. Further, in January 2005, 
the NPOESS Executive Committee (EXCOM) called for an independent review 
of the VIIRS problems. This independent review, delivered in August 
2005, reported that the program management office did not have the 
technical system engineering support it needed to effectively manage 
the contractor, among other things. Additionally, the involvement of 
NPOESS executive leadership has wavered from frequent heavy involvement 
to occasional meetings with few resulting decisions. Specifically, the 
EXCOM has met five times over the last two years. Most of these 
meetings did not result in major decisions, but rather triggered 
further analysis and review. For instance, program officials and the 
program's Tri-Agency Steering Committee\9\ identified five options to 
present at the executive committee meeting in mid-August 2005 and 
expected to receive direction on how to proceed with the project. The 
EXCOM did not select an option. Instead, it requested further analysis 
of the options by another independent review team, and an independent 
cost estimate by DOD's Cost Analysis Improvement Group.
---------------------------------------------------------------------------
    \9\ The Tri-Agency Steering Committee reviews and consolidates 
issues for the Executive Committee and provides oversight of the 
program office.
---------------------------------------------------------------------------
    Sound management is critical to program success. In our reviews of 
major acquisitions throughout the government, we have reported that 
sound program management, contractor oversight, risk identification and 
escalation, and effective and timely executive level oversight are key 
factors determining a project's ability to be delivered on time, within 
budget, and with promised functionality.\10\ Given the history of large 
cost increases and the factors that could further affect NPOESS costs 
and schedules, continued oversight, strong leadership, and timely 
decision-making are more critical than ever.
---------------------------------------------------------------------------
    \10\ For example, GAO, High-Risk Series: An Update, GAO-05-207 
(Washington, D.C.: January 2005) and Major Management Challenges and 
Program Risks: Department of Transportation, GA0-03-108 (Washington, 
D.C.: January 2003).
---------------------------------------------------------------------------

Options for Moving Forward Are under Consideration, but Cost, Schedule, 
                    and Impact on Users Are Not Fully Understood

    In August 2005, the program office briefed its Executive Committee 
on the program's cost, schedule, and risks. The program office noted 
that the budget for the program was no longer executable and offered 
multiple alternatives for reconfiguring the program. Specifically, the 
program office and contractor developed 26 options during the March to 
August 2005 timeframe. Of these options, the Tri-Agency Steering 
Committee selected five options, shown in table 4. All of these options 
alter the costs, schedules, and deliverables for the program. While the 
options' preliminary life cycle cost estimates range from $8.8 billion 
to $9.2 billion, they all involve reductions in functionality and 
limited probabilities for meeting schedules within the cited budgets. 
None of the options presented discussed the potential for adding 
funding in the short-term to hold off longer-term life cycle cost 
increases.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Project officials anticipated that at its August meeting, the EXCOM 
would decide on an option and provide directions for keeping the 
project moving. However, EXCOM officials requested further analysis and 
detailed cost estimates, and they deferred a decision among 
alternatives until December 2005.

New Options Under Consideration Would Affect Cost, Schedule, and System 
                    Users; Full Extent Unknown

    Last week, we learned that in addition to the five options 
presented in August 2005, program executives are considering nine new 
options. While we were not provided any details about the nine new 
options, program officials informed us that they too will affect NPOESS 
costs, schedule, and promised functionality for system users--although 
their full impact is not yet clear. Program officials expect the EXCOM 
to decide on a limited number of options on November 22, 2005, and to 
obtain independent cost estimates of those options and make a decision 
to implement one of the options in December 2005. After a decision is 
made, the prime contractor will need time to develop more precise cost 
estimates and the program office with need to renegotiate the contract. 
Until a decision is made, the program remains without a plan for moving 
forward. Further, there are opportunity costs in not making a 
decision--that is, some options may no longer be viable, contractors 
are not working towards a chosen solution, and other potential options 
become more difficult to implement.
    Clearly, timely decisions are needed to allow the program to move 
forward and for satellite data users to start planning for any data 
shortfalls they may experience. Until a decision is made on how the 
program is to proceed, the contractor and program office cannot start 
to implement the chosen solution and some decisions, such as the 
ability to hold schedule slips to a minimum, become much more 
difficult.
    In summary, NPOESS is a program in crisis. Over the last few years, 
it has been troubled by technical problems, cost increases, and 
schedule delays. Looking forward, technical challenges persist; costs 
are likely to grow; and schedule delays could lead to gaps in satellite 
coverage. Program officials and executives are considering various 
options for dropping functionality in order to handle cost and schedule 
increases, but the full impact of these options is not clear. Moving 
forward, continued oversight, strong leadership, and informed and 
timely decision making are more critical than ever.
    This concludes my statement. I would be pleased to respond to any 
questions that you or other Members of the Committee may have at this 
time.

Appendix I

                   Objectives, Scope, and Methodology

    Our objectives were to (1) discuss the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) program's schedule, 
cost, trends, and risks and (2) describe plans and implications for 
moving the program forward. To accomplish these objectives, we focused 
our review on the Integrated Program Office, the organization 
responsible for the overall NPOESS program. We also met with officials 
from the Department of Defense, the National Aeronautics and Space 
Administration, and NOAA's National Weather Service and National 
Environmental Satellite Data and Information Service to discuss user 
needs for the program.
    To identify schedule and cost changes, we reviewed program office 
contract data, the Executive Committee minutes and briefings, and an 
independent review team study, and we interviewed program officials. We 
compared changes in NPOESS cost and schedule estimates to prior cost 
and schedule estimates as reported in our July 2002\11\ and July 2003 
testimonies\12\ and in our September 2004 report.\13\
---------------------------------------------------------------------------
    \11\ GAO, Polar-orbiting Environmental Satellites: Status, Plans, 
and Future Data Management Challenges, GAO-02-684T (Washington, D.C.: 
July 24, 2002).
    \12\ GAO, Polar-orbiting Environmental Satellites: Project Risks 
Could Affect Weather Data Needed by Civilian and Military Users, GAO-
03-987T (Washington, D.C.: July 15, 2003).
    \13\ GAO, Polar-orbiting Environmental Satellites: Information on 
Program Cost and Schedule Changes, GAO-04-1054 (Washington, D.C.: 
September 30, 2004).
---------------------------------------------------------------------------
    To identify trends that could affect the program baseline in the 
future, we assessed the prime contractor's cost and schedule 
performance. To make these assessments, we applied earned value 
analysis techniques\14\ to data from contractor cost performance 
reports. We compared the cost of work completed with the budgeted costs 
for scheduled work for a six-month period, from March to September 
2005, to show trends in cost and schedule performance. We also used 
data from the reports to estimate the likely costs at the completion of 
the prime contract through established earned value formulas. This 
resulted in three different values, with the middle value being the 
most likely. We used the base contract without options for our earned 
value assessments.
---------------------------------------------------------------------------
    \14\ The earned value concept is applied as a means of placing a 
dollar value on project status. It is a technique that compares budget 
versus actual costs versus project status in dollar amounts. For our 
analysis, we used standard earned value formulas to calculate cost and 
schedule variance and forecast the range of cost overrun at contract 
completion.
---------------------------------------------------------------------------
    To identify risks, we reviewed program risk management documents 
and interviewed program officials. Further, we evaluated earned value 
cost reports to determine the key risks that negatively affect NPOESS's 
ability to maintain the current schedule and cost estimates.
    To assess options and implications for moving the program forward, 
we reviewed the five options presented at the Executive Committee 
briefing and met with representatives of the National Weather Service 
and National Environmental Satellite Data and Information Service to 
obtain their views on user's needs and priorities for satellite data.
    NOAA officials generally agreed with the facts presented in this 
statement and provided some technical corrections, which we have 
incorporated. We performed our work at the Integrated Program Office, 
DOD, NASA, and NOAA in the Washington, D.C., metropolitan area, between 
June 2005 and November 2005, in accordance with generally accepted 
government auditing standards.

                     Biography for David A. Powner

    Dave is currently responsible for a large segment of GAO's 
information technology (IT) work, including systems development, IT 
investment management, and cyber critical infrastructure protection 
reviews. He has nearly 20 years of both public and private information 
technology-related experience. In the private sector, he held several 
executive-level positions in the telecommunications industry, including 
overseeing IT and financial internal audits, and software development 
associated with digital subscriber lines (DSL). At GAO, he has led 
reviews of major IT modernization efforts at Cheyenne Mountain Air 
Force Station, the National Weather Service, the Federal Aviation 
Administration, and the Internal Revenue Service. These reviews covered 
many information technology areas including software development 
maturity, information security, and enterprise architecture. Dave has 
an undergraduate degree from the University of Denver in Business 
Administration and is a graduate of the Senior Executive Fellows 
program at Harvard University's John F. Kennedy School of Government.

                               Discussion

                             Cost Overruns

    Chairman Boehlert. Thank you very much, Mr. Powner.
    You know, those of us in government, whether we are the 
Executive Branch or the Legislative Branch, are pretty darn 
good at underestimating. We usually underestimate costs and we 
are darn sure all of us underestimate overruns.
    So I think at the outset we need to make sure we understand 
the magnitude of the problem we are dealing with here. We just 
heard from GAO. Our witnesses today, those of you other than 
GAO, talk about cost increases being at least 15 percent for 
about a billion dollars. Let us get a little more specific than 
that. Our understanding is that the figures, based on current 
information, are more likely an increase of at least $2 billion 
and probably $3 billion and maybe even more. Is that right, 
Admiral Lautenbacher?
    Vice Admiral Lautenbacher. Yes, the rough order of 
magnitude that we have seen from our independent analysis, 
program analysis, is it could be $2 billion to $3 billion. And 
remember that those are ballpark estimates, as they claim at 
this point accurate for one significant digit, so we need to be 
very careful about how we use those costs as precise 
measurements of what the future might look like at this point.
    Chairman Boehlert. Dr. Sega, I am assuming that your answer 
would be the same.
    Dr. Sega. The strength of the Independent Program 
Assessment Team is principally in the technology and the 
management areas. That is why we additionally asked the OSD 
CAIG, the folks that have greater expertise in cost estimation, 
to give their view of what the costs are. We will have that 
next week on the program of record. I don't know what the costs 
are at this point.
    Chairman Boehlert. You find it hard to argue, I assume, 
with the GAO testimony just reported to us.
    Dr. Sega. I agree with that, and I would also point out 
that as one goes forward in a complex system development, 
especially one that has many different sensors, that there is 
the risk in the integration phase of this work. And so as we 
get the input into the technology aspects, we also would need 
to look at the integration risk of this system, which is quite 
complex.
    Chairman Boehlert. Thank you.
    Dr. Livanos.
    Dr. Livanos. The options that we have worked through range 
from about $1.2 billion to $1.3 billion all of the way up to 
$2.5 billion, and a lot depends on the scenario and the funding 
profiles and the restrictions of the funding curves as well as 
what is the desire for minimizing or optimizing system 
performance, and how the scenarios fit together.

                       Funding Levels and Delays

    Chairman Boehlert. It is sobering.
    Dr. Livanos has testified that additional funds in 2006 and 
2007 would allow Northrop Grumman to shorten the development 
schedule of this program. Now we hear that all of the time, Dr. 
Livanos. That is understandable. Boeing and Raytheon have told 
us the same thing. The Independent Program Assessment that you 
and Dr. Sega commissioned, Admiral Lautenbacher, to evaluate 
the NPOESS program also supports this conclusion. Yet, in your 
testimony, you say that additional funding in 2006 and 2007 
would not buy back any schedule delays. Now you are talking 
about cost overruns in the billions, and you are talking about 
delay in the capability of something that I think we all can 
agree is critically important. How can you make such an 
absolute statement in this matter?
    Vice Admiral Lautenbacher. The Independent Program Analysis 
Team went out and looked at the technical risks, as Dr. Livanos 
has mentioned. That is their strength. They took a look at the 
plan. You mentioned before we have got new players and we have 
a new playbook. We are trying to build a new playbook. I think 
that is important, too. Part of the optimism or aggressiveness 
in the schedule that was created originally before I inherited 
the program included concurrent development of the first 
engineering unit and the first flight unit for VIIRS. As we 
have gotten into VIIRS and found out how difficult it is to 
overcome some of the technical challenges, that appears to us 
today not to be a wise decision. That is the information that 
we have to date. So we are looking at trying to contain the 
schedule risk with the funding risk. So we believe the best way 
to do this is to do it the old-fashioned way, do it head to 
tail. Do the engineering model and make sure it works. It 
tests. It works. And then apply that to the flight unit. If you 
do that, there is enough money to rearrange in the program in 
2006 to allow us to take care of some of the other initial 
developments like the CMIS sensor, which we believe is the next 
big one to take a look at in terms of its impact on cost and 
schedule.
    Chairman Boehlert. But are you----
    Vice Admiral Lautenbacher. I am not--we are not locked into 
this, but this is what we have from the initial look, which the 
IPA gave us in the last meeting. So I am reporting to you 
exactly what we have available for our use at this point. And I 
am just----
    Chairman Boehlert. You are not contradicting the statement. 
You are not telling us that more money would have no impact on 
the schedule?
    Vice Admiral Lautenbacher. I am telling you that there is 
no way to buy back this schedule. More money is not going to 
buy back this schedule.
    Chairman Boehlert. Are you speaking for the CAIG for the 
EXCOM?
    Vice Admiral Lautenbacher. Well, I am----
    Chairman Boehlert. Yeah, because more----
    Vice Admiral Lautenbacher. I am telling you what I heard--
--
    Chairman Boehlert. This is so much more than just about 
NOAA and about predicting weather. We all know how important 
that is, particularly in the aftermath of Katrina. But this is 
about national security and the operations of the military. I 
mean, you know, Dr. Sega and DOD and the Air Force are not 
partners in this, you know, simply because they are looking for 
new avenues to share some of their money. I mean, there is a 
strategic interest and a very important national security 
purpose. When you are talking about big gaps in capability, 
that is cause for concern. So that is why we are not lending to 
the concept that you have to put more money in 2006 and 2007, 
but we are looking at that possibility. And the preliminary 
indications are that it might promote--it might have a positive 
impact on the schedule and reduce the gap when we don't have 
the capability, and it would save a lot of dollars. I mean, 
those are two worthy objectives.
    Dr. Sega, and then my time is up.
    Dr. Sega. Mr. Chairman, if I could address two parts of 
this. One is the capability gap.
    The Department of Defense principle input is the DMSP 
satellites. Our assessment is the functional availability gap 
for us occurs in 2012 with the current systems. We have four 
additional DMSP satellites to launch: 17, 18, 19, and 20. We 
are engaged in a Service Life Extension Program in those 
satellites. Two of the components include solid state 
recorders, we have had some failures of recorders in the past, 
as well as many IMUs to mitigate some of the problems that we 
have had on gyros. We believe that that is a step that may see 
even additional light of the DMSP satellites. So our look is to 
future--our functional availabilities gap with the current 
estimates of satellites is around 2012.
    Some of the satellites, the CMIS sensors, are not as mature 
as they should be at this phase of the program. For example, 
the CMIS sensor, the Conical-scanning Microwave Imager Sounder, 
is at the--stage at this point. That would normally be assessed 
in the four range. One wouldn't start integration with 
technology at that level. So we have asked the Independent 
Program Assessment Team to, in addition to looking at the 
overall program, to make their estimates of what the TRL levels 
are of the various components.
    Chairman Boehlert. Now NOAA has a gap before you do, and 
some people would suggest, while it is an equal cost-sharing 
partnership, there is a greater degree of interest and urgency 
on the part of NOAA than on the Air Force. And maybe you are 
somewhat reluctant partners in terms of where you would put 
this on your priority scale versus where NOAA, out of 
necessity, must put it in its priority scale. How would you 
address that?
    Dr. Sega. Sir, I only address it from the DOD standpoint. 
There is enhancement, clearly, to the spatial and spectral 
resolution that--and the frequency when you have additional 
satellites, such as POES and then NPOESS, in the constellation 
for weather sensing. So the weather models would be better. But 
in terms of where the needs threshold is for the Department of 
Defense is as I stated with the additional functional 
availability. I think partnerships are good.
    Chairman Boehlert. Thank you.
    My time has expired.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    Admiral Lautenbacher, in your testimony, you stated that 
additional funding in fiscal year 2006 and 2007 wouldn't allow 
you to go back to the original--wouldn't, as you said, buy back 
the timeline. That is correct. But what it will do, which has 
been well stated over and over, is that it will reduce future 
slippage. It will reduce future increased slippage in time or 
slippage in budget. So no, you can't get back what has already 
been wasted, but you can make preparations not to waste more 
time and money. That is the difference.
    And I would like to ask you some questions, please.

                       EXCOM and Decision-making

    On March the 31st, the prime contractor briefed your 
program management team on cost and schedule problems with the 
program. At that time, they laid out three scenarios to fix 
this program. All of them assumed a year and a half slip in 
schedule on delivery of the first satellite and showed growth--
a cost growth of up to $800 million over the life of the 
program. General Kelly told our staff that he personally told 
you there were programs and costs problems. Do you recall that?
    Vice Admiral Lautenbacher. Yes, I was aware that there were 
cost and schedule problems.
    Mr. Gordon. And you chaired the Executive Committee for 
this program with participation of NASA and DOD, is that 
correct?
    Vice Admiral Lautenbacher. I am a co-chair, equal partner 
from the three agencies.
    Mr. Gordon. And when did EXCOM meet to determine a course 
forward for this program?
    Vice Admiral Lautenbacher. The EXCOM met to look at the 
analysis of all of this information in August.
    Mr. Gordon. August 19, even though you had had this 
information for quite some time. Now between April the 1st and 
August the 19th, the contractors were working out options and 
the Integrating Program Office was evaluating these options, is 
that correct?
    Vice Admiral Lautenbacher. And the tri-agency steering 
group was meeting as well to evaluate it, so the chain was 
working on trying to come to grips with the issues that the 
contractor presented to us during that time.
    Mr. Gordon. And General Kelly was chairing that tri-agency 
steering committee meeting during this time, looking at the 
options, and you were aware of that?
    Vice Admiral Lautenbacher. Again, he is one of three. He is 
a member of a tri-party committee. So he is one of the co-
chairs.
    Mr. Gordon. Now on April the 19th, General Kelly at TSC was 
told there were two critical dates coming up. First, the EXCOM 
had to make a planning roadmap decision by June the 1st. 
Second, the EXCOM would have to make a decision on a preferred 
option by August the 1st. If this didn't happen, you would lose 
flexibility on the options and likely incur higher costs. 
General Kelly was asked to carry this message to the EXCOM, 
which you chaired. Did General Kelly tell you that early 
decision had to be made to keep options open and costs down?
    Vice Admiral Lautenbacher. We had discussions on when we 
should make decisions on options, and looking at the 
information that we had----
    Mr. Gordon. Sir, did General Kelly tell you about the June 
1 and August 1 deadlines that were necessary?
    Vice Admiral Lautenbacher. I don't remember whether he said 
June 1 or August 1. We talked about the fact that people are 
asking for some decisions and deadlines.
    Mr. Gordon. So if you knew that your own managers believed 
you had to move quickly at EXCOM to keep all options open and 
save money, why did EXCOM not meet until August the 19th?
    Vice Admiral Lautenbacher. We planned to have a meeting. 
Based on the availability of information, it made sense to 
analyze. It took time to get that information together and to 
base it on something that is factual. And in that time, what we 
found that--was that the IPO, in our view, did not have the 
cost-estimating abilities that it should have independently and 
that we were relying totally on contractor costs. That is a 
weak basis, in my view, on which to make a final decision on 
the future of the program. We wanted to get as much information 
as we could together for the EXCOM to ensure usefulness of the 
meeting, sir.
    Mr. Gordon. And so it took you from March the 31st to come 
to the conclusion that you couldn't trust those figures?
    Vice Admiral Lautenbacher. During that time, the numbers 
kept changing. Things kept coming up. There were things--it 
didn't settle down. It didn't--it was not--it wasn't a set of 
clear-cut options where all of the questions were answered, the 
questions that GAO asked, that they are still asking.
    Mr. Gordon. What was constant during that entire time, 
though--what was constant was that by planning for additional 
funds in 2006 and 2007 would both save money in the long run as 
well as to hopefully stop future slippage?
    Vice Admiral Lautenbacher. We were looking at options that 
included the funding in fiscal year 2006 at that point.
    Mr. Gordon. But wasn't that the consensus from--that you 
were being told from all outside sources?
    Vice Admiral Lautenbacher. I don't know if it was the 
consensus of all outside sources, because I don't know what all 
of the outside sources were.
    Mr. Gordon. All of the ones that were reporting to you on 
this issue.
    Vice Admiral Lautenbacher. We were looking at options, as 
we did in the EXCOM. We were looking at options that added 
funding, some funding in fiscal year 2006 and some in fiscal 
year 2007 and other funding in the years, you know, beyond 
fiscal year 2008 and out.
    Mr. Gordon. Well, it looks to me like--I used to call it a 
``rope a dope,'' but whether it is a slow down or whatever it 
might be in the decision-making process is going to cost the 
taxpayers a lot of money. And I just hope, as I said in my 
opening statement, this is not an attempt to run the clock out 
so that you can turn this problem and real mess over to someone 
else.
    Vice Admiral Lautenbacher. I assure you that this is not an 
attempt to run out the clock. As most of you know, I eat, 
sleep, breathe, and live NOAA. I wake up in the middle of the 
night worrying about these issues. I want to make sure this 
program is funded, because I am part of having to deal with the 
funding issues that we have. I am leaning for it as much as 
anybody in this committee to try to get the right answers and 
to save the taxpayer money. We will----
    Mr. Gordon. Well, somewhere decisions have to be made. 
Somewhere you are going to have to make a decision.
    Vice Admiral Lautenbacher. We did. We made decisions along 
the way to execute the fiscal year 2005 funding and execute the 
fiscal year 2006 funding. And that was the critical piece of 
this to try to keep the windows of opportunity as open as far 
as possible to ensure that we could come up with the optimum 
solution that could pass budget muster, that would pass muster 
with this committee, and deliver the satellite on time.
    Mr. Gordon. Thank you. And can I expect that the 
materials--information that we have requested that you have not 
provided us will be provided? And if so, when?
    Vice Admiral Lautenbacher. I again want to assure the 
Committee that I am dedicated to providing as much information 
as the Committee needs as fast as I can get it there. We have 
delivered a number of volumes. The remaining material is under 
the interagency review process run by OMB. I cannot control 
that directly, and I regret that, but I will do everything I 
can to move the rest of the material over. As I said, we have 
already delivered, you know, a number of volumes and expenses 
material, and we will continue to provide everything the 
Committee wants.
    Mr. Gordon. Thank you, sir.
    Chairman Boehlert. Thank you very much.
    Dr. Ehlers.

                      Launch Schedule and Funding

    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, I would like to just clarify an issue. 
Admiral Lautenbacher, your testimony doesn't address the 
schedule shift as clearly as--I just don't quite get a clear 
picture there. Dr. Sega says that NPOESS will launch no earlier 
than fiscal year 2012. Is that--do you agree with that 
prediction? Am I following the question?
    Vice Admiral Lautenbacher. Yes, I believe that 2012 is a 
reasonable ballpark estimate based on the range of options and 
our understanding of the technical difficulties. Yes.
    Mr. Ehlers. Then what--can you say what problems that will 
cause for NOAA, if that is the actual date?
    Vice Admiral Lautenbacher. We will have to look at 
launching on request versus launching on schedule for the final 
POES. We believe that we can, with the shifting of the NPP in 
orbit, changing the orbit time for NPP, delaying the launch of 
the final POES, that we can make up the gap that we have with 
the schedule. So there is an option that allows us to maintain 
continuity. It requires everything to work well.
    Mr. Ehlers. Okay. The next--a series of questions here.
    Dr. Livanos, you said in your testimony that additional 
funding in fiscal year 2006 and 2007 would--a series of 
questions, would significantly reduce life cycle costs. I 
assume I heard that correctly. And my question to the other 
members of the panel is do you agree or disagree with that? In 
other words, would additional funding in fiscal years 2006 and 
2007 significantly reduce life cycle costs? We will go right to 
left this time. Mr. Powner.
    Mr. Powner. Well, clearly when you look at additional funds 
in 2006 and 2007 we have differences of opinions on whether you 
can buy back the schedule and whether that will reduce life 
cycle costs. With most of these programs, you can buy back some 
schedule and you can reduce life cycle costs with funds. What 
we have not seen--we have only seen the five options that have 
been--our understanding is there were 20-some options prior to 
the five options, and those options did address 2006 and 2007 
funding, buying back the schedule and reducing life cycle 
costs. So we are not in a position to say how much that could 
buy back or, in fact, how much we could reduce life cycle 
costs. But clearly that is something that should be revisited.
    Mr. Ehlers. Okay.
    Dr. Sega, your response to that? Will the earlier funding 
reduce significantly life cycle costs?
    Dr. Sega. Sir, that is not clear to me whether it would or 
it would not. Depending on what work needs to be done in fiscal 
year 2006 and fiscal year 2007 and what our constellation looks 
like after we have made these decisions will determine what the 
funding profile would be. If we are best served to mature the 
technology of needed sensors prior to integration, then the 
funding profile should reflect that. So--and until we lay out a 
concrete plan of where we are going forward, I think it is 
premature to lay out a funding strategy.
    Mr. Ehlers. And when would you suggest that concrete plan 
to be laid out?
    Dr. Sega. It is certainly our hope and expectation that 
after the 22nd of November meeting, in which we will be able to 
bring down the number of options that we think are reasonable 
for further work, two or three or so, and----

                   Independent Program Analysis (IPA)

    Chairman Boehlert. Would the gentleman yield for just a 
second on that, and I won't take it out of your time? The IPA 
is due when?
    Dr. Sega. The IPA is to brief out on November 22 at our 
next EXCOM, as is the CAIG with respect to the program of 
record. To make decisions along the way of life cycle cost and 
so forth, you would do the CAIG estimates against the option 
you plan on pursuing. And so you need to look at a few options 
and run out the numbers in terms of whether or not those 
options are going to be favorable toward life cycle cost as 
well as what the funding profile would be recommended under 
those options. That would be the plan.
    Chairman Boehlert. So could we see those results next week, 
on, what, the 22nd?
    Dr. Sega. Sir, I will speak for myself. As we have done 
with the Independent Program Assessment, the government had the 
briefings from the IPA, at which point we offered, and it was 
accepted, taking the briefings of the IPA and the people to 
brief Members of Congress and staff.
    Chairman Boehlert. So the IPA gives you the report?
    Dr. Sega. That is correct.
    Chairman Boehlert. Can we get the report simultaneous with 
that from IPA?
    Dr. Sega. That has not normally been the process. We 
probably--we ask the questions--some of the issues in terms of 
the questions there are to clarify facts in there, and so we 
generally take in the first shot at the IPA and ask questions, 
and not long after that it has been offered, in our case, to 
our oversight committees. I think that is a reasonable----
    Mr. Gordon. The Chairman asked a question. I mean, I guess 
he deserves a yes or no. Will you do it or not?
    Dr. Sega. Yeah.
    Chairman Boehlert. You know, you said it is not normal, but 
it is not normal to have billions of dollars in cost overruns--
--
    Dr. Sega. Sure.
    Chairman Boehlert.--or a problem of this magnitude. We are 
talking about years in delay of a critical capability. So we 
are on the same team. We are trying to sort this out together.
    Dr. Sega. I understand.
    Chairman Boehlert. And the more----
    Dr. Sega. And----
    Chairman Boehlert.--information that we get, the better 
able we are to make a positive contribution to the overall 
process.
    Dr. Sega. I can request we will try to do it as expediently 
as possible. I don't know if there are any restrictions. 
There--the work is done. The draft--and we will take a look 
at----
    Chairman Boehlert. Well, we are talking about gaps, a very 
limited gap----
    Dr. Sega. I understand.
    Chairman Boehlert.--between the time you get it and the 
time you share it with us so that we can work collaboratively.
    Dr. Sega. I appreciate that. And----
    Chairman Boehlert. Thank you very much.
    Dr. Ehlers, back to you.

                  Launch Schedule and Funding (cont.)

    Mr. Ehlers. Oh, thank you.
    Continuing on with the same question, Admiral Lautenbacher, 
the--if the additional funding were available in 2006 and 2007, 
do you believe that it would significantly reduce life cycle 
costs?
    Vice Admiral Lautenbacher. That is if you believe that 
the--it is tied up with the risks for schedule and cost. We 
would have to look at them--and performance. So they are all 
tied together. I have some doubts, as Dr. Sega does, that it 
would. I am more persuaded, at this point, that it wouldn't do 
us a whole lot of good, because we would be gaining--we would 
still be in the same schedule risk problem that we have today 
with the technical challenges, which I mentioned changing the 
playbook, that the Chairman mentioned, which I think is vitally 
important to this program because of the technical challenges 
involved. So I am not going to sit here and say categorically 
that I know that adding money in 2006 isn't going to change the 
life cycle costs. It probably could if you could deliver on the 
risk. But one accepts some risk with the concurrency that is in 
the program now and building these instruments and assuming you 
can overcome those things, which we have not been able to 
overcome in the last year or two as we have gone from a view 
graph program to a real program delivering hardware. So that is 
where I am on that. I am persuaded that getting rid of the 
concurrency is going to help us to actually deliver a program 
on the lowest risk, most cost-efficient pathway.
    Mr. Ehlers. Well, let me ask another. If you think 
additional funding in 2006 and 2007 would help resolve looming 
technical problems earlier? Let us go back the other way. 
Admiral?
    Vice Admiral Lautenbacher. Yes, and I will tell you what I 
do know or what I do believe from the detailed information that 
I have. I believe on VIIRS that it probably really would not. I 
don't know enough about CMIS to be able to answer that 
question, that is why I suggest that we are looking at ways to 
get some funding into CMIS further in front so we can--so I can 
answer that question more--in more detail of whether it will or 
will not. But we should be able to do that within the 2006 
funding that we have now, we believe.
    Mr. Ehlers. Dr. Sega, would the additional funding in 2006 
and 2007 help resolve looming technical problems earlier?
    Dr. Sega. Sir, extending the answer that I gave before, it 
is going to depend on exactly what those technical problems 
are. Now I visited the folks in Santa Barbara and went through 
the activities that are undergoing there on VIIRS to take a 
personal look at what some of the process problems have been 
and some of the technical challenges are, and I think my 
impression--and again I would ask for others with a more 
detailed analysis, my impression going through the process 
where they are at in terms of the engineering developing unit 
work, the test that needs to be done on that prior to 
proceeding to the flight unit, where they are at is the 
schedule they can hold. I don't know if you can accelerate that 
much more in fiscal year 2006.
    Mr. Ehlers. Okay. If I understand that, that goal we had 
set that it would help resolve the technical problems. Let me 
just ask Mr. Powner.
    Mr. Powner. Chairman Ehlers, it is unclear whether 
additional funds would help resolve those technical problems. I 
think it will clearly help resolve some technical problems, or 
several. One, improve subcontractor performance. I think Dr. 
Livanos clearly pointed that out. But also, too, the oversight 
needs to occur from the executive position, as Dr. Sega 
mentioned, along from the prime's oversight, too. My impression 
to those subcontractors will clearly help identify those 
technical risks and ensure that they get the resolution. So it 
is a bit unclear whether additional funds will help, but this 
oversight pressure from these executives will clearly help 
address those technical issues.
    Mr. Ehlers. I might ask you what penalty is incurred by the 
subcontractors that are not performing adequately.
    Mr. Powner. I am not clear on the penalties for sub-optimal 
performance.
    Mr. Ehlers. Does anyone have a comment on that? Dr. 
Livanos.
    Dr. Livanos. Yes, sir. We have an award fee structure that 
the outcome of the award fee structure depends on the 
performance of the contractor. So that is what we use to 
motivate the subcontractor in a positive and a negative way. 
Furthermore, the Raytheon in Santa Barbara team has put their 
own incentive award system for everybody that is working on 
this program to get rewarded when they actually meet the 
deadlines in the baseline program that was set together last 
December.
    Mr. Ehlers. I would assume they would not receive any 
positive--the company would not receive any positive reward?
    Dr. Livanos. We make the award fee estimation based on a 
certain set of criteria, and certainly cost and schedule are 
among them. But since last December on the rebate slide 
schedule of the VIIRS program, I think we are one and one-half 
months behind. And we did have a three-month slack on the 
schedule. So we are driving it very hard, sir.
    Chairman Boehlert. The gentleman's time has expired. And I 
did not take time--of your time.
    Mr. Wu.

                             Delaying Costs

    Mr. Wu. Thank you very much, Mr. Chairman.
    I want to follow up on questions that Chairman Ehlers and 
Ranking Member Gordon asked earlier.
    And I think it has just been eluded to thus far, but let me 
just put it bluntly. I would prefer not to call it standard 
practice, but it is not that uncommon a practice to hold costs 
down in the next fiscal year or two and let costs balloon in 
the out-years, knowing that it is not going to be on your 
watch. And there has been some discussion here today about 
whether we can buy back the schedule for the current fiscal 
year or the next fiscal year. The consensus seems to be that 
the probability of that is relatively low, but the probability 
of being able to get back further on schedule and to hold down 
life cycle costs in the overall length of the program may be 
significant, and yet we are holding current costs down. Are you 
telling this committee that there is no practice, as is done 
sometimes in business and sometimes in government, of holding 
the current costs down and letting the costs bubble out later 
or balloon out later, that--Admiral, Doctor, that that is not 
going on here?
    Vice Admiral Lautenbacher. From my perspective, it is 
absolutely not going on. We are looking at this program and 
trying to deliver it. Remember that the current schedule is 
basically a 50 percent risk level. I mean, you know. Half good 
and half bad. I don't think we should throw money at 
maintaining that kind of odds. If we are going to put money on 
things, we ought to raise the schedule risk to a point where we 
know we are going to win on this, and that, to me, saves money 
and delivers the program.
    Mr. Wu. Dr. Sega, do you agree with that assessment?
    Dr. Sega. Congressman, it is important to look at this 
series of options that we will have in front of us. Some may 
not be the exact program we have in place now, the baseline 
program. And so to get capability to orbit may not include all 
of the sensors. That is one of the options. It may include a 
strategy of spiraling in to capability and later satellites. 
For example, GPS-I, GPS-II. An incremental improvement in 
building the process and looking at those technologies that are 
mature going forward. We have increased our----
    Mr. Wu. I only have five minutes.
    Dr. Sega. I am sorry.
    Mr. Wu. Can you try to focus on the question?
    Are you holding down current costs and running the risks of 
ballooning out later timelines and later costs?
    Dr. Sega. Absolutely not.
    Mr. Wu. Absolutely not? And Dr. Sega, Admiral Lautenbacher, 
can you tell this committee that there has been absolutely no 
pressure brought upon either of your agencies to hold costs 
down currently and let the risks run further out, whatever 
those might be?
    Chairman Boehlert. Well, while they are formulating their 
answers, I would hope there is pressure on everyone in the 
government to hold down costs but not at the expense of 
critically important technology development or sacrificing the 
timeline. But I know what you are getting at, so we will let 
them respond.
    Vice Admiral Lautenbacher. Yeah, there is no pressure on me 
to do something abnormal with this program based on the cost 
and schedule. The Administration is interested in delivering on 
this program. Obviously, we have to deal with the budget 
pressures, and we are not going to take lightly the request for 
more funds, but you know, in the time--I have been in public 
service for 40 years in the Navy and testified over here in the 
Science Committee. You know that I have always asked for money 
when I need it, and I have not been shy about supporting and 
being an advocate for the programs that I am in charge of. And 
I will continue to do that.
    Dr. Sega. Over my last three months on the job, we are 
increasing the rigor in terms of government oversight in our 
projects. We have increased presence of government folks at key 
sensors in NPOESS. We have done that in other systems. We are 
working toward an 80-percent confidence estimate on what we 
intend to do to look at those technologies that are at a mature 
state prior to doing--that cuts down on cost and risk.
    Mr. Wu. Dr. Sega, again, I only have five minutes, and I 
would like--my color on the light has switched to yellow.
    Has there been any pressure of that sort brought to bear 
upon you or people in your office? Yes or no?
    Dr. Sega. No, sir.
    Mr. Wu. Dr. Powner--or Mr. Powner, your team has been 
following this program for quite some time, and you indicate in 
your testimony that it is very, very important that decisions 
be made in a timely manner or that options will simply be 
foreclosed because of untimely decisions or a lack of action. 
And it appears that the management structure that we are 
talking about here, the Executive Committee, the tri-agency 
steering committee, the Integrated Program Office, that--you 
know, quite simply, there seem to be a lot of cooks in the 
kitchen here for a very, very complex structure, and it may not 
have been able to follow-up on developments and respond with 
decisions in a timely manner. What is your team's assessment of 
the decision-making structure that has been set up to look over 
to guide this program thus far?
    Mr. Powner. Well, I think we have a typical decision-making 
structure. We have a prime contractor overseeing the subs. And 
we have a situation here where the subcontractors, and 
particularly the subcontractor on the key sensors, did not 
deliver.
    Mr. Wu. Okay.
    Mr. Powner. So it is important that we still have the 
government and prime contractor overseeing folks. But from the 
decision-making point of view, looking at this Executive 
Committee, it is extremely important that we get a decision on 
this quickly. The more we linger on the decision, we understand 
the meeting is going to occur next week and there is going to 
be a decision in December. That is very important, because we 
are hearing dates like contracts re-negotiated next fall, new 
baselines at the end of 2006. We are going to be pushing up 
against the 2008 budget at that point in time. So we need to 
get a decision timely, much timelier than we have had in the 
past. And I think the key question is if we can have a decision 
this December.
    Chairman Boehlert. The gentleman's time has expired.
    And the gentleman has stated the case. He did not have just 
five minutes. He had more than six minutes, and we were glad to 
share them, because the line of questioning was very important.
    Is there anyone else that wishes to--yeah, do you expect--
let me--Admiral Lautenbacher and Dr. Sega, do you expect a 
decision in December?
    Vice Admiral Lautenbacher. It is always hard to predict the 
future, but that is our plan. We need to have good results 
presented to us in terms of the options we ask for in this 
meeting coming up, and then we need the CAIG to deliver on cost 
estimates that they have confidence in and that they can show 
us that they have done an exhaustive study as----
    Chairman Boehlert. So November 22?
    Vice Admiral Lautenbacher. November 22.
    Chairman Boehlert. So 30 to 60 days is reasonable to expect 
some specificity in terms of the direction you are going to 
chart for us?
    Vice Admiral Lautenbacher. The CAIG's history has been that 
they need 30 to 60 days to do what we would call a credible, 
independent estimate and provide us with that information. And 
we will push that as hard as we can.
    Chairman Boehlert. Dr. Sega.
    Dr. Sega. That is the CAIG's numbers, so they will say 60 
days in terms of returning and we hope it is for 30.
    Chairman Boehlert. Thank you.
    The gentleman----
    Mr. Wu. I thank the Chairman for the extra minute.
    Chairman Boehlert. Well, you made a valuable contribution, 
as you usually do. Thank you very much.
    The Chair recognizes Mr. Schwarz.

              Satellite Coverage and Forecast Degradation

    Mr. Schwarz. Admiral Lautenbacher and Under Secretary Sega, 
your written testimony, you indicate, one of you, that--again, 
that weather satellite coverage could cause some degradation in 
global weather models. Another of you indicated--I guess that 
this is the GAO, says forecasts would be significantly 
degraded. How much degradation are we talking about here? Are 
we talking about, you know, five percent, 10 percent, 50 
percent, close to 100 percent, first? And secondly, who else 
has got polar-orbiting weather satellites up there? You alluded 
to some. And are they commercial or government satellites that 
other folks have that, again, I have heard from your testimony 
where we could get information if we don't have ours up and 
operating at an appropriate time?
    Vice Admiral Lautenbacher. The polar-orbiting satellites--
let me--this is a hard question to answer, because it is like 
in the military, it is a defense in depth. There is a series of 
instruments that provide information to weather models. If you 
look at what we do today, in terms of the volume of data that 
goes into weather models, 90 percent of the data comes from 
satellites. And a good piece of that comes from--40 or 50 
percent of that comes from the polar-orbiting satellites.
    Mr. Schwarz. Why--let me just clear this up just for my 
edification. Why is a polar-orbiting satellite better than a 
satellite, for instance, in another type of orbit? Why is a 
polar orbit better for weather prediction?
    Vice Admiral Lautenbacher. Two reasons. The geostationary 
satellite gives you constant view all of the time. You can 
watch the hurricanes and all of that. We have two of those, but 
that is 22,400 miles from the Earth. The polar-orbiting 
satellites, first of all, give you the coverage of the whole 
globe, and they do it at about 400 miles. The resolution and 
the volume of information from other parts of the Earth that 
you need to put into these large-scale models, which will then 
feed into the regional models, is very valuable to us. Put it 
that way.
    Now the people that have satellites, the European 
equivalent of NOAA intends to launch a series of--just like--
not like NPOESS, but a series of--well, they are getting into 
the polar physics right now. We have operational polar 
satellites. The Chinese and the Japanese are looking at it, as 
well as the Koreans. In terms of the operational polar network, 
the United States has cornered the market on it, at this point, 
in terms of how we use it and how it is operational.
    Mr. Schwarz. So there is an opportunity here, a 
possibility, I wouldn't class it as an opportunity, for a 
significant degradation of our ability?
    Vice Admiral Lautenbacher. There is, but we are looking at 
options, I think--I believe that we could work our way out of 
this.
    Mr. Schwarz. Mr. Secretary, is that your feeling, as well?
    Dr. Sega. Congressman, our professional needs, our 
functional availability for satellites will not show a gap 
until 2012. Augmenting it with additional sensing data improves 
from the spatial and spectral resolution, which is important. 
It improves some of the modeling. We tend to look at smaller 
areas to sort of focus in terms of our work. So it is an 
improvement. We are looking forward to NPOESS, but our base 
threshold is met on the 2012 current satellites.
    Mr. Schwarz. Your base threshold is met out to 2012, but 
there is the--after the degradation, then, if there is, in 
fact, degradation, would commence on or in the 2012 or on or 
about 2012?
    Dr. Sega. With the current estimate of lifetime and so 
forth, it would be complete. We have 17, 18, 19, and 20 on the 
ground still. We are improving them from a service flight 
extension aspect. We hope that their lifetime actually will 
exceed the average lifetime of those on orbit. We have had one 
satellite, I believe it has been up for over 140 months.
    Mr. Schwarz. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Just let me follow up on that. Good 
question.
    How much degradation? I mean, can you give us an estimate? 
Is it five percent? Is it 50 percent? Can you give us a 
ballpark estimate?
    Vice Admiral Lautenbacher. It is situational. It depends on 
where the storms are and the kind of information they are 
getting. So to say, well, all of the weather is going to be 
degraded by such and such, 25 percent, would be false, because 
in many cases, it will be all right. In some cases, you may 
degrade it 50 percent. So you could have situations where you 
rely on that data, if you don't have enough other sensor data, 
to provide building the models and you have difficult 
situations, fast reacting fronts, loss of systems that are----
    Chairman Boehlert. So actually, your situational cause for 
concern in our----
    Vice Admiral Lautenbacher. It should be. And that is a 
concern of ours as well. I just can't tell you to sit here and 
say every one of the forecasts will be degraded 25 percent. We 
can't make that statement, because that is not true. It would 
be a range of estimates. Maybe 50 percent in cases, and that is 
the ballpark, based on my, you know, science knowledge to, 
perhaps, just a few percent in some cases.
    Chairman Boehlert. Thank you.
    Mr. Udall.

                          IPA Recommendations

    Mr. Udall. Thank you, Mr. Chairman.
    I want to thank the panel for being here today.
    I thought that I would turn to Dr. Sega. And it is good to 
see you again.
    I think you are familiar with these IPA options, which are 
relatively new, and Mr. Powner and the GAO haven't had a chance 
to look at them, but I would be curious to get their opinion as 
well.
    What I read these to say is that we are reducing risk, and 
the cheapest way forward is to make these investments sooner 
rather than later. Would you care to comment on that from your 
perspective?
    Dr. Sega. Congressman Udall, it is going to be unwarranted 
to look at a plan ahead and what satellites that we need to fly 
at the earliest time. There is a plan ahead if you continue 
with the baseline program. There is also a plan ahead if you 
proceed with one of the options. In addition to the options 
that you saw with the IPA at their interim report in October, 
we are looking to see additional options, which I believe that 
they have, in the meeting next week. And so it is based on the 
options set and how you phase the development of the 
technology, the funding, and the on-orbit capability.
    Mr. Udall. Is there any way that we could stick to the 
baseline?
    Dr. Sega. The large numbers that you see in terms of 
dollars and the large risk to cost, schedule, and technical 
performance is in the baseline program. We would have to look 
at that really hard.
    Mr. Udall. And I am not sure that is a no, but I think the 
elements of--I think you--all of the panel here on the 
Committee is expressing great concern and a significant amount 
of frustration and particularly in context of the IPA document 
and their recommendations, in which I think simply put, they 
suggest that you spend these dollars up front. You reduce the 
risk and it is the cheapest way forward. And if that includes 
also this--of course schedule slip is always a possibility, but 
you reduce the cost and the potential for significant schedule 
slip. If you care to comment, Dr. Sega.
    Dr. Sega. There are examples of previous programs where you 
ran the--a parallel approach to reduce the schedule time and 
forewent the option of having an engineering development unit. 
We do not believe that is good practice. I believe the industry 
would also concur that the development of an engineering unit 
and testing unit and understanding the technology prior to 
going to the operational flight unit is the last thing to do. 
And so when you apply some of these best practices, you end up 
seeing a schedule that moves to the right from what was 
currently baselined.
    Mr. Udall. It seems to me that you are spending resources 
now to analyze the technical risks and work with the 
instrumentation parallel to the other work that is underway, 
that that would be a very reasonable and important investment. 
But I hear a contravening point of view being expressed on that 
in that regard. And Dr. Sega, do you have an additional comment 
on making those investments now?
    Dr. Sega. In the case of the engineering development unit, 
there are basically two teams working: one on the engineering 
developing unit and one on the flight unit. When you basically 
move them into serial configuration, then the workforce is 
reduced, because you concentrate on the engineering development 
unit, learn from it, and apply those lessons learned from the 
flight unit. So in that case, you have reduced the effort in 
that period of time where you had parallel efforts going, and 
now you have moved them to serial activities. So you have to 
lay this out through the whole program to understand really 
where we are at.
    Mr. Udall. I appreciate your testimony.
    I move to Mr. Powner. I want to thank the GAO for shining a 
light on this situation. And could you comment on how, from 
your point of view, spending additional money in the next two 
years would help manage risk, which I think is the extent of 
what we are trying to understand?
    Mr. Powner. Yeah, we are not aware of those specific 
options that you laid out, Congressman Udall. But clearly, on 
most programs, money now can help reduce risks in the near-
term, long-term, and also reduce life cycle costs. We are 
hopeful that these nine options that we have heard about that 
will be discussed next week incorporate some of those thoughts 
so that we can fully explore those options. We haven't seen 
that to date. Clearly it was not in the five options, but we 
are hoping that it is in the nine.
    Chairman Boehlert. All right. Thank you very much.
    The gentleman's time has expired.
    November 22 is the key date. And then shortly thereafter, 
we hope that you will be forthcoming with very specific 
recommendations, because we are all working toward the same 
goal: eliminating the gap, limiting the cost, and providing the 
maximum capability for not only weather forecasting but for 
national security.
    With that, the Chair recognizes the distinguished gentleman 
from California, Mr. Rohrabacher.

                  Cost Overruns and Funding Priorities

    Mr. Rohrabacher. Thank you, Mr. Chairman.
    This committee has its highs and lows, inspired by great 
achievements in space, NASA put that probe right on that comet, 
you know, hundreds of thousands of miles away or billions of 
miles away. That was just so impressive. And--you know, and 
then we have our--go from our peaks to our valleys, and we are 
sort of sitting here with our feet stuck in the mud, watching, 
for example, after billions of dollars being spent and all of 
the focus of NASA, and the foam keeps falling off of the 
Shuttle. And this, unfortunately, is one of those moments where 
we seem to be in a valley, and it seems to be depressing. And 
this is a depressing analysis of failure and, perhaps, 
incompetence that we are hearing today. And I might add, this 
done at the cost of billions of dollars to the American 
taxpayer at a time when it really counts, at a time when this 
Congress is trying to come up with savings in our budgets to 
pay for the suffering of our people who suffered through these 
natural disasters. And now we hear about billions of dollars in 
your industry that just basically has gone right down the 
toilet. And it is--as I say, this is depressing.
    And specifically, Mr. Chairman, it is clear that someone 
has dropped the ball, and perhaps more importantly, somebody 
dropped the satellite, which hasn't been discussed here. This--
and it appears to be--now correct me if I am wrong. This 
program, if it is successful and we move forward, is likely to 
cost twice as much as when we originally talked about it when 
this was approved. Already we spent $3 billion, and the 
program's costs have risen by over 50 percent. Correct me if I 
am wrong, but that sounds like what we are headed for.
    So with $3 billion already spent, your testimony today is 
the program is at a standstill. Mr. Chairman, that is $3 
billion that we have spent. $3 billion. And our testimony is 
the program is at a standstill. It is basically dead in the 
water. $3 billion. I don't need to go through all of the things 
that $3 billion--where we could spend it on that would help 
improve the lives of the people of this country, and perhaps 
the safety of our military who are over in Iraq right now.
    And what I am also hearing today, Mr. Chairman, is that it 
is the subcontractors' fault. Let us blame the subcontractors. 
Well, all of this is unacceptable. It is totally unacceptable.
    And let me make one suggestion. Let me ask your opinion on 
one, perhaps, fundamental flaw in the system. Someone must have 
approved and said that the sensors could be built that would 
make this a successful program before we approved the program. 
Somebody must have said that. Well, should--now obviously they 
couldn't, because right now, we are hearing that maybe--that 
the problem with the fundamental technology that is necessary 
for the success of the program. That is the sensors. And from 
the testimony I am hearing today, we don't know if those--if we 
really have that sensor technology. Why, after $3 billion, is 
there a question about whether the fundamental technology 
necessary for the success of the program is possible or not? 
Doesn't this indicate that there is a flaw in our system when 
we go forward and spend that much money, approve such a big 
program, and now he is telling us we don't know if the sensors 
can work? Come on. Correct me. Move forward. There is. Show me 
where I am wrong in that analysis.
    Admiral, go right ahead.
    Vice Admiral Lautenbacher. Yes, let me talk just a few 
minutes.
    The sensors--this program, looking in retrospect--I was not 
here at the beginning of the program, as many of us--neither of 
us at the table were.
    Mr. Rohrabacher. I know. It is the subcontractors' fault or 
it is the guy's fault before you.
    Vice Admiral Lautenbacher. I am not saying that at all. I 
am telling you how the program started. The program started, as 
many programs do, on an aggressive schedule and an aggressive 
cost, and aggressive technical, I don't want to say 
breakthroughs, but developments. We are a very entrepreneurial 
nation. We have--as you have said, we have put probes on the 
asteroids, and we are able to do these things. So we can accept 
them as commonplace. We are going to have a technical 
breakthrough every time. So this program was, in my view, built 
on an optimistic basis. As it went along, the development of 
the sensors--and by the way, risk reduction measures were put 
in place for the sensors. It wasn't like the people four or 
five years ago didn't know that this was an issue that we had 
to develop these sensors and integrate them. So time was added. 
In fact, the contracts and the process was started earlier to 
allow this----
    Mr. Rohrabacher. And that didn't work.
    Vice Admiral Lautenbacher. And--you are right.
    Mr. Rohrabacher. Okay. So wouldn't it be better for us, in 
the future, Mr. Chairman, if we are going to approve projects 
like this, and Admiral, wouldn't you say that it would be 
rational for us to say that we have identified those 
fundamental technologies in a project like this that are 
necessary for the success of the program to make sure that they 
both are built prior to us spending billions of dollars on 
other elements of the program?
    Chairman Boehlert. If I might interrupt at this juncture. I 
think the gentleman is making it absolutely clear that the 
critical design and review has to be more rigorous. He is 
absolutely right.
    Mr. Rohrabacher. Well, you have to go to the heart of the 
matter. And if they told us in the beginning that, oh, we can 
do these sensors, somebody must have said that. Well, now, 
obviously, the word of those technologists doesn't mean diddly 
squat, and we need to make sure that before we move forward 
with billions of dollars in spending, that the technology isn't 
just ``we can probably do that'' or ``we know we can do that,'' 
but that it has already been done. And it is based on proven 
technologies.
    Chairman Boehlert. Now I think----
    Mr. Rohrabacher. Now with that said, one last point. What 
about this? Somebody dropped a satellite in this program. I 
haven't heard much about that. Did that--did the dropping of 
the satellite affect this program in any way?
    Vice Admiral Lautenbacher. No, sir. That was a different 
program.
    Mr. Rohrabacher. It was a different program, but that did 
not affect this program?
    Vice Admiral Lautenbacher. It did not affect this program.
    Mr. Rohrabacher. Okay.
    Vice Admiral Lautenbacher. What we are talking about today 
did not involve that dropped satellite.
    Mr. Rohrabacher. All right. Well, I will accept that, but I 
won't accept the fact that we moved forward with a program 
based on assurances that technology would be there that is not 
there now.
    Chairman Boehlert. Thank you very much for your always 
spirited interventions. And the new theme song for all of us, 
``Climb Every Mountain.'' But the good news is that there is 
light at the end of the tunnel, so to speak. We have got this 
critically important meeting on the 22nd. We have additional 
information. Everyone has sort of looked back and examined how 
we got here and is determined to extricate ourselves from this 
quagmire we are in right now. So that is good.
    Mr. Calvert.

                  Lessons Learned and Future Programs

    Mr. Calvert. Thank you, Mr. Chairman.
    I just have a short period of time. I am running late for 
another appointment.
    But I just wanted to carry on Mr. Rohrabacher's theme here 
on lessons learned from both the Admiral and Dr. Sega and from 
Dr. Livanos, the lessons learned and the experiences you have 
applied in all space programs. I know that--I also put on my 
other hat on the Armed Services Committee, I know that the Air 
Force is interested in getting into space which pertains to 
radar. And the last cost number I looked at just initial--just 
before we even really get into this, is about $35 billion. Is 
that about right, Dr. Sega?
    Dr. Sega. I have seen an estimate on a planned space radar 
program, but I want to--if I could, the approach that is laid 
out in the--in my opening statement is very specific to this. 
If you go to operational systems procurements, we should have 
material technologies. Also, it is in the developmental system, 
which is the next generation. And once it is mature, it can 
grow--it can evolve----
    Mr. Calvert. Well, and that is where I wanted to get to. We 
get into these programs where we are, obviously, dealing with 
technologies, sometimes, that, at best, is new and not tested 
yet, that we don't get into this situation down the road. 
Hopefully, through this experience, we are going to move it 
along, and we are going to get this fixed and get it 
operating--up and operating within the timeline that you need 
it. But how is this going to--going back to--how are we going 
to look at this--other programs that we are looking at down the 
road that are even more costly than what we are doing with here 
with NPOESS?
    Dr. Sega. I think being consistent with the approach that 
has the Nation investing, say, in four generations of 
technology, a science and technology base, advanced technology. 
That is where the risk should be. We should work off the risk 
and mature the technology in the developmental systems phase. 
When we commit to an operational systems procurement, we are 
starting with mature technologies. We are working on the 
integration, the manufacturing pieces, and understanding how it 
could be--how they will interface with the ground and the 
troops and so forth.
    Mr. Calvert. And that, obviously, is not what was done with 
NPOESS?
    Dr. Sega. To my understanding, that is correct.
    Mr. Calvert. So basically, this started wrong and it is 
ending wrong? Or the process is not going very well.
    Dr. Sega. Sir, I think it is fair to say, and others can 
comment here, that the technology needed to be matured prior to 
moving to advanced space integration.
    Mr. Calvert. Any other comments? Dr. Livanos.
    Dr. Livanos. Yes, sir. I think we spend a substantial 
amount of time trying to figure out what--but more importantly, 
what lessons did we learn on how to properly manage the 
contracts and development. And we are preparing a short white 
paper that will communicate with other folks in the same arena, 
like Boeing and members of the staff here, what are those 
lessons learned, because we cannot afford to do them again. I 
think that, from--again, how to manage the subcontractor, there 
are four primary items here. First of all is we have got to 
make sure that when we talk about design maturity, that the 
standards are exactly the same with ourselves and what the 
subcontractor is stating. Secondly, we need to really examine 
the claims and we need to do that before the subcontractor 
starts. We need to really be very careful and dig deep on the 
schedule for development and understand that. And then finally, 
I think we need to look at, in detail, the DNA of the 
subcontractor. Do they have the same processes we do? Do they 
have the same heritage that we do? Do they basically follow up 
in the same way that we do? What exactly is contained in the 
critical design? So we need to know all of that, and I think, 
as I said, that this is a very painful lesson learned.
    Mr. Calvert. If I could, I don't know, this probably is not 
the most technically challenging thing that all of you have 
been involved in in your careers, I suspect. Is it or isn't it? 
Is this the most challenging technology that what we are trying 
to develop here that you have ever been involved in?
    Dr. Livanos. Let us see. I think this is probably the one 
occasion where we had the most sensor development in one 
program.
    Mr. Calvert. The point is, what I am getting at, is if we 
move down the road involving these other programs, this kind of 
wakes everybody up here, I think, in this panel is that when we 
are dealing with our friends in the DOD as they move forward on 
some of these other programs, we are going to ask tough 
questions early on to make sure we don't end up where we are at 
today.
    So with that, Mr. Chairman, thank you very much.
    Chairman Boehlert. Thank you very much, Mr. Calvert.
    Mr. Sodrel.
    Mr. Sodrel. Thank you, Mr. Chairman.
    And I thank the panel members for being here today.
    Along this same line, Admiral Lautenbacher, in the first of 
2005, NOAA announced a new partnership with NASA for the next 
generation of NOAA geostationary satellites. I understand with 
recent advances in the space-based observing technology, we are 
pushing beyond weather and turning from the NOAA's GOES-R 
platform into a more encompassing environmental operational 
satellite that will benefit multiple sectors of the government. 
Now that goal sounds a lot like the goal we have here. And I 
guess my question is, given all of the problems that we 
currently have, is--the needs are multiple users on one 
satellite a good idea for going forward?
    Vice Admiral Lautenbacher. I believe that it is, based on 
what we have done. We are taking the lessons learned. We have 
just had a milestone review with NOAA's GOES-R program. We have 
taken the lessons that we have learned from this NPOESS 
experience and applied them to both the schedule and the 
contracting methods and the program management setup. So all of 
the things that we will go through here today has things that 
we have found out by Monday morning quarterbacking has now been 
added into the NOAA's GOES-R program scheduled in the program 
costs. Our biggest issue is to try to keep it on schedule. 
Congress cut this program this year, and we are going to have 
an issue with trying to work on that as well. So we are going 
to be continuing to press to keep our money intact in order to 
ensure that we can deliver on the program. But I believe that 
the lessons we have learned from NPOESS, we are going to be 
looking at reasonable instrument development schedules and 
technologies, not ones that are going to be a significant 
challenge; ones that we can handle.
    Mr. Sodrel. Well, we already had some questions asked about 
the technology not being available, and I guess my follow-up 
question for each of you is if you had to have some priorities, 
either the priorities of the schedule or the priorities of the 
technology, there is some mature technology out here, it seems 
to me that part of the problem was no plan B. If we are going 
to stay on schedule, we may have to abandon the search for this 
new technology and use something that is more mature in order 
to stay on schedule. Was there no plan in place that we would 
use some mature technology in the event that this was not 
developed on the schedule?
    Vice Admiral Lautenbacher. Again, I was not here at the 
beginning of the program, but knowing what I know about the 
system and looking at how it was constructed, take away the 
Monday morning quarterbacking, the folks at that time that 
looked at this did their best to try to assess the availability 
of the technology and whether it was doable in that sense. They 
added a risk reduction piece. We are adding more in NOAA's 
GOES-R. It obviously was not enough. They looked at it--at 
management structure that obviously didn't do what it was 
supposed to do. We are changing that. They were people who were 
working their hardest, I assure you, to try to deliver this. 
They were not people who were trying to sabotage this program 
or not be able to deliver on time. As far as I am concerned, my 
issue with those is that we have to make the timelines on 
those, and I am willing to look at part of the technology, 
because we have to have continuing geostationary coverage, and 
that is where I am at in the management of the next satellite 
program, which is a geostationary one.
    Mr. Sodrel. Dr. Sega, would you like to follow up on that?
    Dr. Sega. Congressman, perhaps you reverse what we consider 
a plan A and a plan B, with the plan B being what we know, 
especially in satellites where we can forward a capability gap. 
And plan B is the higher end solution that if it matures in 
time, it can spiral into the baseline system.
    Dr. Livanos. I can restrict my remarks on the NPOESS 
satellite, sir.
    The satellite itself is a requirement for 55 types of 
things that it has to deliver. We are currently looking--we 
meet 50 of those. We are currently looking at how maybe we can 
change the nature of some of the sensors, not deliver the 55, 
but just 50 so that it would be good enough for the mission. 
Those are some of the options we are looking at. So we are not 
looking at the new instrument, but we are looking at changing 
the performance of some of the leftover instruments, two 
specifically, and see if it can accommodate the mission. We are 
working with the Integrated Program Office.
    Mr. Sodrel. Thank you.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you.
    The Chair will recognize Mr. Gordon. He has one brief 
question, and then the Chair will try to sum up where I think 
we are.

                     Possible Supplemental Request

    Mr. Gordon. Thank you, Mr. Chairman.
    I think one thing that we have learned today is that there 
is a lot that we don't know. But there are some things that we 
do know. We do know that this is a program in crisis, as Mr. 
Powner said, that--we do know that taxpayer dollars are at 
risk. We do know that there is a gap in satellite coverage that 
will almost inevitably lead to loss of lives and loss of, 
probably, also dollars lost, whether it is damages or what 
might happen. I think we know that the sooner that we start on 
a new plan, the more likely that we are going to avoid having 
that gap. And we do know that you are going to try to make a 
decision on a plan toward the end of this year, although that 
roll-out and renegotiating contracts and all of the other 
things will, whether they are intentional or unintentional, 
leads us almost to the 2008 fiscal year. And I think that we 
also know that the sooner that we get started on a program like 
this, the more money that we can save in the life cycle.
    So with that sort of a premise, I would like to ask, and 
suggest also, that as you look at this plan that you are going 
to receive and decide by the end of the year, that again there 
has got to be lots of roll-outs. But hopefully there will be 
some elements of it, particular sensors or whatever, that can 
be started now and can be done simultaneously to the final 
roll-out. And if that occurs, and if you find that you do not 
have the funds to do that, I would like to ask whether you 
would ask for a supplemental or it be part of the supplemental, 
to get the funds to do these simultaneous programs that could 
save lives and dollars in the long run.
    We will start with Admiral Lautenbacher and then Dr. Sega, 
please.
    Vice Admiral Lautenbacher. I would most definitely 
entertain a supplemental----
    Mr. Gordon. Would you--I mean, I know you would take it, 
but would you request a supplemental?
    Vice Admiral Lautenbacher. I certainly would----
    Mr. Gordon. Okay. And Dr. Sega?
    Vice Admiral Lautenbacher.--if it were required, I would do 
that.
    Mr. Gordon. When you say, now, required----
    Vice Admiral Lautenbacher. I don't want to say I am going 
to--before I even look at the options to say that I am going to 
commit to request a supplemental. I want to look at the options 
first. But I have no hesitation, and I haven't had it 
previously.
    Mr. Gordon. Dr. Sega.
    Dr. Sega. Sir, we will request the resources to get the job 
done.
    Mr. Gordon. Sir?
    Dr. Sega. We will request the resources to get the job 
done.
    Mr. Gordon. Would you request a supplemental?
    Dr. Sega. If necessary, if that is what it takes to get the 
job done.
    Mr. Gordon. Thank you.

                            Closing Remarks

    Chairman Boehlert. Thank you very much.
    Now let me give you my take on--and so often is the case 
with Mr. Gordon and the Chair, our remarks sometimes are 
interchangeable. If you read the transcript without identifying 
the author of the remarks, you wouldn't know which one. But 
that is because we are on the same wavelength in so many 
instances on this committee, and that is one of the reasons why 
I so dearly cherish this assignment is because this committee 
does work on a bipartisan basis. That isn't always on other 
Committees of this Congress in this atmosphere, but in this 
one, we pride ourselves on that.
    All right. Here is where I think we are.
    First, this committee, on both sides of the aisle, is 
obviously extremely concerned about how the NPOESS program has 
been run and where it is going. And we are going to intensify 
our oversight on it. Second, this committee expects, or perhaps 
I should say demands, full information about the options being 
considered from NPOESS before a final decision is made. That 
means we expect to get the documents in our request letter, and 
I think we have every right to expect that. And we expect to 
see the IPA and CAIG results very shortly after you review 
them. And finally, we are not urging at this time that funds be 
added in fiscal year 2006 or 2007, but we do think that the 
burden of proof is on the agencies to show why it is wise not 
to add those funds. If it looks like you need to slow things up 
to prevent further technical problems, then that decision needs 
to be stated clearly with a clear statement of the remaining 
technical risks and a clear statement of the costs and delays 
that will result.
    We need to move forward as partners. Let me stress that. We 
need to move forward as partners with full explanations and 
sharing of information. We are going to continue to keep our 
eye on the ball.
    Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 12:09 p.m., the Committee was adjourned.]


                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Vice Admiral Conrad C. Lautenbacher, Jr. (Ret.), 
        Administrator, National Oceanic and Atmospheric Administration 
        (NOAA)

Questions submitted by the Majority

Q1.  On November 18, the Department of Defense announced that Northrop 
Grumman Space and Mission Systems Corporation was awarded a $12 million 
contract modification to transfer responsibility for part of the 
Conical Scanning Microwave Imager (CMIS) sensor from Boeing to Northrop 
Grumman. Please explain why this change was made. How will it help 
reduce technical and schedule risk- associated with the CMIS sensor? 
Under the contract modification, what aspects of the CMIS sensor remain 
Boeing's responsibility and what aspects are Northrop Grumman's 
responsibility? Do you anticipate further contract modifications for 
CMIS?

A1. This contract modification for the Conical Scanning Microwave 
Imager Sounder (CMIS) changed some responsibilities in the program that 
will streamline the design process. The change transferred the CMIS 
momentum wheel compensation responsibility from Boeing Satellite System 
(BSS) to Northrop Grumman Space Technology (NGST). The NPOESS satellite 
design includes a large spinning reflector as part of the CMIS sensor. 
The momentum wheels compensate for the torque and momentum applied to 
the spacecraft. The contract previously required Boeing to supply the 
wheels as part of the CMIS. Sensor analysis showed that the spacecraft 
attitude control subsystem, a NGST task, could provide the necessary 
compensation, therefore responsibilities were realigned. No additional 
contract modifications are anticipated for the CMIS Sensor.

Q2.  The National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) Independent Program Assessment found that, while there 
is major sensor testing planned for Fiscal Year (FY) 06, there are no 
management reserves to cover potential problems in FY06. How will you 
deal with any problems discovered during the major tests if there is no 
reserve funding? If necessary, would you request reprogramming of funds 
from other programs?

A2. The NPOESS Integrated Program Office (IPO) and Northrop Grumman 
Space Technology (NGST) have an agreed-to scope of activities for FY 
2006 that can be accomplished within appropriated funding levels. The 
change in design philosophy for the Visible/Infrared Imager/Radiometer 
Suite (VIIRS), from concurrent development to serial development, will 
allow the NPOESS program to internally reallocate funding to meet its 
most pressing development tasks and still carry out the replanned FY 
2006 NPOESS development program. These NPOESS tasks include a minimum 
level of management reserve to address typical problems that may occur 
in testing. We will reassess the required FY 2006 funding during the 
restructuring and certification efforts.

Q3.  The NPOESS Executive Committee (EXCOM) met on November 22 to 
consider a number of options for reconfiguring the NPOESS program. What 
guidance did the EXCOM provide to the Tri-Agency Steering Committee, 
Integrated Program Office, and the Independent Program Assessment to 
develop these options? When and in what form was that guidance 
provided? What criteria did the EXCOM apply in choosing which option or 
options to pursue? What other decisions were made at the EXCOM meeting?

A3. At its August 19, 2005 meeting, the EXCOM directed the 
establishment of an Independent Program Assessment (IPA) which would be 
led by the U.S. Air Force. The IPA would undertake a complete 
independent review of the NPOESS program, including technical, cost, 
management, organization and policy. The EXCOM did not provide specific 
guidance or selection criteria for the IPA to use in developing 
options. The EXCOM also directed Department of Defense's Cost Analysis 
Improvement Group (CAIG) to review the NPOESS program.
    At the October 13, 2005 meeting, the EXCOM received an update from 
the IPA on three intermediate options that it had developed. The IPA 
stated its intention to develop several more options and the EXCOM 
agreed. Although there was considerable discussion between the EXCOM 
and the IPA, no specific guidance was provided by the EXCOM to the IPA 
regarding the options or criteria for choosing options.
    At their November 22, 2005 meeting, the EXCOM accepted four options 
for further costing. The Independent Program Assessment team (IPA) and 
the Triagency Steering Committee (TSC) were not further instructed to 
develop these options. The EXCOM gave verbal direction to the Cost 
Analysis Improvement Group (CAIG) to provide cost estimates for the 
four options selected. Once these cost estimates are completed, program 
alternatives can be weighed and the program restructured, if 
appropriate. The EXCOM did not provide specific criteria to apply in 
choosing options.
    Further EXCOM decisions taken at the November 22 meeting include:

        <bullet>  Determine best way to establish a Program Executive 
        Officer (PEO) structure

                --  Brigadier General select Mashiko as PEO

        <bullet>  Strengthen Integrated Program Office (IPO) Staffing

        <bullet>  Place a Senior User Advisory Group (SUAG) 
        representative within the PEO Staff

        <bullet>  IPO should engage with Naval Research Laboratory 
        (NRL) to investigate Windsat

        <bullet>  Cost the four options at the 80 percent confidence 
        level

        <bullet>  Departments of Defense and Commerce brief Congress on 
        the Nunn-McCurdy breach, process, timeline

        <bullet>  TSC/IPO should develop a strategic plan for U.S. 
        environmental sensing, including technology development

Q4.  Please explain what changes, if any, NOAA has made or will make to 
the program developing the next generation of geostationary satellites, 
GOES-R, based on each of these lessons learned from the NPOESS program:

Q4a.  Mr. Powner's testimony explained that seven of the 13 sensors on 
NPOESS are new technology. Dr. Sega's testimony outlined a concept for 
future satellite programs in which technology would first be proven on 
research satellites and then integrated into operational platforms. 
Will you use only previously proven technology on GOES-R, or will it 
include new technology in its sensors?

A4a. While the GOES-R sensors are based on proven technology, the 
sensors will be technologically more advanced and possess improvements 
and new capabilities responsive to user requirements.
    The Advanced Baseline Imager (ABI), Solar Environment in Situ Suite 
(SEISS), Solar Imaging Suite (SIS), and Hyperspectral Environmental 
Suite (HES) Program Definition and Risk Reduction (PDRR) activities all 
started prior to the GOES-R System PDRR. The Geostationary Lightning 
Mapper (GLM) PDRR is projected to start in early 2006. All instrument 
development schedules have sufficient margin to allow for resolution of 
problems. Of these instruments, the HES is the most challenging, and 
reviews are on-going to examine the risks and develop mitigation 
strategies.
    Numerous review efforts will take place during the GOES-R System 
PDRR phase to ensure that program risks, including technology 
maturation and application are properly identified, managed, and 
reflected in contractor and Government cost and schedule estimates and 
in the budget. We also plan to form a GOES-R Independent Review Team 
consisting of senior space program experts, to probe technology 
readiness, with emphasis on the instrument suites.

Q4b.  In the NPOESS program, the critical design review for the 
Visible/Infrared Imager Radiometer Suite (VIIRS) was conducted without 
building a full engineering design unit. Will you require more rigorous 
critical design reviews in GOES-R? If so, please outline the 
requirements you plan to use for GOES-R critical design reviews.

A4b. Yes, for GOES-R we will require more rigorous design reviews. Both 
the Advanced Baseline Imager (ABI) and the Hyperspectral Suite (HES) 
developments will include an Engineering Development Unit (EDU), as 
well as engineering models of critical components.
    Engineering models will be developed for each instrument in the 
SIS, and for each instrument in SEISS. We are evaluating if an EDU is 
required for the GLM. This sensor has yet to enter the PDRR phase. As 
the concept matures, we will make a decision.
    For on-going instrument development, the GOES-R Program is 
utilizing the NASA Goddard Space Flight Center (GSFC) Office of Systems 
Safety and Mission Assurance, Systems Review Office guidelines and is 
adhering to all NASA and NASA GSFC technical, management, safety, and 
mission assurance processes.
    The specific guidelines for critical design reviews (CDR) include 
the requirement that the CDR be held near the completion of an 
engineering model, if applicable, or the end of the breadboard 
development stage. This will be prior to any design freeze and before 
any significant fabrication activity begins. The CDR presents a final 
detailed design using substantially completed drawings, analyses and 
breadboard/engineering model evaluation testing to show that the design 
will meet the final performance and interface specifications and the 
required design objectives. The CDR should represent a complete and 
comprehensive presentation of the entire design. For the CDR, as well 
as the other major design milestones, there are detailed checklists of 
the information and analyses that must be presented to successfully 
complete the milestone and progress further. The acceptability of the 
data and analysis presented by the contractor for the milestone is 
assessed against the requirements through internal peer and external 
reviews.
    Finally, the GOES-R Independent Review Team, a group of senior 
space program experts, will assess GOES-R execution status on an annual 
basis and will be available for ad hoc reviews as requested by NOAA 
management. The adequacy of design milestone criteria and 
accomplishment will also be a part of NASA GSFC monthly management 
reviews of the flight project, and a part of the proposed NOAA Program 
Management Council monthly management reviews.

Q4c.  Contractor bids typically assume a 50 percent confidence level 
that the bid price is achievable. The NPOESS EXCOM directed that future 
cost estimates should be at an 80 percent confidence level. What 
confidence level will NOAA require for bids for the GOES-R contract?

A4c. The budget for GOES-R will be established at a confidence level 
consistent with the degree of programmatic risk. We will establish this 
level based on the knowledge gained during PDRR from the contractors' 
and Government risk and cost assessments. The Request for Proposal 
(RFP) for the GOES-R System Acquisition and Operations (A&O) contract 
will not be developed until summer 2006. Our preliminary plan is to 
request the contractors to identify the confidence level associated 
with their offer and to also provide two other confidence percentiles 
associated with their offer. This information will be used to support 
an assessment of the degree of risk that the contractors' bids 
represent.

Q5.  In your testimony, you stated that you believe the technical 
issues with two of the problematic instruments for NPOESS, CMIS and 
VIIRS, ``are being resolved.'' You also said that NOAA is 
``incorporating lessons learned from VIIRS into our management approach 
to CMIS.'' Please explain more specifically what technical issues 
remain and what lessons learned from VIIRS are being incorporated into 
NPOESS program management processes.

A5. IPO and NGST have implemented a number of management, design 
review, and test technological lessons learned from the experience with 
VIIRS to address the remaining issues related to CMIS. These include 
assembling tiger teams to address engineering challenges; tracking 
project management using earned value management techniques; directing 
management changes and improved staffing to ensure the appropriate 
skills are matched to the job; enhancing quality assurance by the 
contractor; increasing the physical presence of IPO and NGST personnel 
at contractor work sites; and conducting additional independent 
reviews, and flight unit integration and test after the Engineering 
Development Unit integration and test is complete.
    The critical sensor issues occurred with the instrument 
subcontractors. To correct these problems, Northrop Grumman Space 
Technology (NGST), the prime contractor, worked with the instrument 
manufacturers and their suppliers in resolving underlying failures, 
including conducting extensive audits of these suppliers and has 
intervened to improve their program execution. These methods of 
handling suppliers have been institutionalized within the NPOESS 
program and should serve to mitigate any future design problems. Two 
lessons learned from VIIRS are that (1) a serial design philosophy 
instead of a concurrent one is more appropriate, and (2) more intense 
government oversight is required of prime and sub-contractors.

Q6.  In his testimony, Dr. Livanos said, ``The satellite itself has a 
requirement for 55 types of things that it has to deliver. We are 
currently looking at how we can meet 50 of those.'' Are the users of 
NPOESS data being consulted as part of this look at decreasing the 
number of requirements for NPOESS? If so, please explain the process by 
which the users are included or consulted with about decisions 
regarding requirement changes. If you have consulted with users, what 
options do they favor and what are their primary concerns about cutting 
back from 55 to 50 environmental data records?

A6. The NPOESS user community is represented by the Senior Users 
Advisory Group (SUAG). The SUAG is represented in the Nunn-McCurdy 
process. As part of this process, they will have significant input 
concerning the future status of the 55 environmental data records 
selected for the NPOESS program.

Q7.  Some of the options under consideration for moving forward with 
NPOESS would result in one polar orbit being covered by European 
satellites. What would be the impact to NOAA's weather forecasting 
capabilities if there were no U.S. civilian satellite or no satellite 
at all in one of the polar orbits? How can we be sure the European 
satellites will be ready in time and be compatible with our weather 
forecast models?

A7. NOAA's National Weather Service and other users require twice daily 
global coverage from at least two polar-orbiting platforms. Compared to 
a two polar-orbiting system, a single polar-orbiting platform operating 
in the prime afternoon orbit is estimated to degrade global weather 
forecasts by 10 percent. If all polar-orbiting satellites fail, the 
loss in forecasting capability would be 25 percent in the Northern 
Hemisphere and 60 percent in the Southern Hemisphere. In 1998, NOAA and 
the European Organisation for the Exploitation of Meteorological 
Satellites (EUMETSAT) signed an agreement to share responsibilities for 
the polar-orbiting operational environmental satellite mission. Under 
this agreement, EUMETSAT will assume responsibilities for the mid-
morning orbit while NOAA will maintain its capabilities in the 
afternoon orbit. EUMETSAT is building three polar-orbiting satellites 
that will carry current NOAA instruments as well as new European 
instruments. The first of these satellites is already built and is 
scheduled to be launched and operational by the end of 2006. These 
three satellites will provide service in the mid-morning polar orbit 
through 2020. Under the agreement, NOAA will have access to data and 
products from the European satellites for use in our weather forecast 
models. In that the EUMETSAT satellites will have NOAA instruments, we 
know that the data from these instruments will be compatible with our 
weather forecast models. In addition, we are working with EUMETSAT to 
ensure that data from their new instruments will be compatible with our 
models.

Q8.  Mr. Powner said in his testimony that an independent review of the 
problems plaguing the NPOESS program was delivered to the government in 
August 2005. According to Mr. Powner, that report said that the NPOESS 
program management office did not have the technical system engineering 
support it needed to effectively manage the contractor. What changes 
have you made or will you make to fix this problem?

A8. Systems engineering is the centerpiece of our organizational 
restructuring efforts and will remain a focal point for the completion 
of the NPOESS design. A position for an experienced Systems Engineering 
Manager for NPOESS and NPOESS Preparatory Project has been established. 
A complement of staff with the necessary skills to perform systems 
engineering, monitor the development of the spacecraft, payloads, 
algorithms, and missions operations has been proposed and is being 
planned. The pending realignment of the IPO and of Northrop Grumman 
Space technology (NGST) increases systems engineering capability.

Q9.  If the last of NOAA's current series of polar satellites fails, 
there could be up to a three-year polar-satellite coverage gap. What 
outreach activities has NOAA conducted to alert international 
organizations, such as the World Meteorological Organizations and the 
countries participating the Global Earth Observing System of Systems 
(GEOSS), that NPOESS will be delayed and that a gap in polar-orbiting 
data may result?

A9. We are still assessing whether there could be a gap in polar 
satellite service. If we determine that there could be a gap, we will 
undertake appropriate outreach activities with national and 
international users and partners.
    We plan to reduce the likelihood of a gap between the POES and 
NPOESS satellites by delaying the launch of NOAA-N Prime by at least 
one year. Should this satellite fail, we will have to rely on 
capabilities from older on-orbit satellites. We would also accelerate 
the use of data from the NPOESS Preparatory Project (NPP) mission for 
operational weather forecasting, in addition to its climate mission and 
risk reduction missions.
    In addition, we will use data and products from the European series 
of polar orbiting satellites, which are scheduled to be operational by 
the end of 2006. We expect these satellites will provide service in the 
mid-morning polar orbit through 2020.

Questions submitted by the Minority

Q1.  At the time of the hearing, the Nunn-McCurdy threshold of 15 
percent cost overrun for the NPOESS program had been reached. A 
Department of Defense press release issued on November 15 included an 
estimate of the overrun of 21.8 percent. In your testimony, you 
indicated an expected cost overrun of ``at least'' 15 percent. We now 
know the NPOESS program has exceeded the 25 percent level. Why did you 
not inform the Committee during the hearing that a possibility existed 
for the 25 percent threshold to be reached--a situation that would 
prevent you or Dr. Sega from providing assurances about the Executive 
Committee's ability to move forward on a decision plan for the NPOESS 
program in December?

A1. The November 15, 2005 Department of Defense press release detailed 
major defense acquisition program cost and schedule changes since the 
June 2005 reporting period. This information is based on the Selected 
Acquisition Reports (SARs) submitted to the Congress for the September 
30, 2005, reporting period. SARs summarize the latest estimates of 
cost, schedule, and technical status. Subsequent quarterly exception 
reports are required only for those programs experiencing unit cost 
increases of at least 15 percent or schedule delays of at least six 
months. Quarterly SARs are also submitted for initial reports, final 
reports, and for programs that are re-baselined at major milestone 
decisions. The NPOESS Program was one of several programs in the 
report.
    At the time of the November 16, 2005 hearing, NOAA had not been 
informed that the 25 percent threshold would be exceeded. Our first 
official notice that the threshold would be exceeded came from the 
Department of Defense's Cost Analysis Improvement Group's (CAIG) report 
to the NPOESS Executive Committee on November 22, 2005.
    Upon review of the CAIG estimate, the NPOESS Program Director 
issued a program deviation report on November 30, 2005. The Committee's 
staff was provided with a copy of the CAIG's assessment that a 25 
percent breach would occur on December 8, 2005. On January 12, 2006, 
the Secretary of the Air Force notified Congress he had reasonable 
cause to believe that the 25 percent threshold would be exceeded. A 
Nunn-McCurdy certification process is now underway.

Q2.  The original Memorandum of Understanding between DOD, NOAA, and 
NASA did not anticipate the requirements imposed on DOD by a Nunn-
McCurdy breach of cost thresholds. What contingencies is NOAA exploring 
if DOD decides it cannot certify the NPOESS program and therefore 
withdraws its participation in NPOESS? If DOD does decide to withdraw 
from the program, would NOAA and NASA proceed with the NPOESS program? 
What procedures and funding would be required for NOAA to purchase 
additional POES-series satellites?

A2. We are hopeful that the program will proceed as planned and 
restructured by the Nunn-McCurdy process with the Department of Defense 
(DOD) as an integral part of the program. Should DOD withdraw from the 
program, then NOAA would need to determine the most cost-effective 
solution to satisfy its requirements whether it is NPOESS or some other 
alternative. Because of this potential risk, NOAA is exploring options, 
such as the development of Polar-orbiting Operational Environmental 
Satellites (POES)-like satellites, in the event it would need to 
proceed by itself.

Q3.  How much of the currently budgeted FY 2006 and FY 2007 funding is 
available for reprogramming within the NPOESS program by changing the 
VIIRS development approach from concurrent development to serial 
development?

A3. Between changing the VIIRS development approach from concurrent 
development to serial development and other prudent program 
allocations, the Integrated Program Office in working with Northrop 
Grumman Space Technology was able to keep NPOESS's development on track 
and within the FY 2006 budget. This includes providing additional 
resources for the development of the CMIS sensor.

Q4.  You and Dr. Sega both discussed the EXCOM's interest in better 
assessing and reducing the technical, financial and schedule risks of 
the NPOESS program. Has the EXCOM received or requested an analysis of 
the integration risks? Are the current options and plans for NPOESS 
based solely upon the risks associated with the development of the 
individual sensors or has integration risk been incorporated as well?

A4. The EXCOM has been briefed about integration risks by the IPO, the 
Cost Analysis Improvement Group (CAIG), and the Independent Program 
Assessment (IPA). An analysis of overall program risks will be part of 
the Nunn-McCurdy process. Integration risk has been consistently 
addressed in the program and is considered and highlighted in the Risk 
Management process employed on the program. The decision to use a 
serial design process reduces integration risk by including additional 
testbed work.

Q5.  What are the ramifications for the NPOESS program if the Nunn-
McCurdy certification process results in a finding that the NPOESS 
system is essential to the national security with respect to data 
availability to NOAA and other civilian users and with respect to 
NOAA's international data sharing agreements, and for the current 
technical and software specifications of the NPOESS system?

A5. The NPOESS program was established in 1995 with the requirement 
that the data it provides satisfy both military and civil environmental 
data requirements and remain free and open to national and 
international users, except in times of national emergency as dictated 
by the U.S. National Command Authority. A Nunn-McCurdy certification 
that NPOESS is essential to national security will not affect data 
availability to the civil user community.
    Being essential to national security is different than being part 
of the national security system which: (a) involves intelligence 
activities; (b) involves cryptologic activities related to national 
security; (c) involves command and control of military forces; (d) 
involves equipment that is an integral part of a weapon or weapon 
system; or (e) is critical to the direct fulfillment of military or 
intelligence missions.

Q6.  The Committee learned from the contractor for the NPOESS project 
that a specific briefing on cost and schedule was given to the IPO on 
March 31, 2005. That briefing was given by Northrop Grumman employees 
who flew to Washington and briefed IPO staff in the staff offices in 
Silver Spring, Maryland.

     Committee staff have reviewed copies of the monthly reports that 
were provided by the contractor to the IPO for the half year prior to 
this briefing. Those materials gave ample warning of profound cost and 
schedule problems in three central instruments necessary for the 
success of this program (VIIRS, CMIS, OMPS). In light of this 
documentary trail, staff find it hard to understand how the March 31 
briefing could have been a surprise to anyone involved with the 
management of the program. Certainly the visit itself by Northrop 
Grumman was not a surprise but appears to have been something that was 
arranged and discussed among IPO and Northrop Grumman staff for at 
least a couple of weeks prior to the briefing (based on e-mail traffic 
provided by Northrop Grumman).

     Please provide a specific indication of when, by what means and 
from which individual each of the following individuals learned that 
Northrop Grumman was indicating they could not maintain the cost and 
schedule baseline. Also indicate when each of the following individuals 
learned that Northrop Grumman had prepared three scenarios for 
discussion at the March 31 briefing and the general slip in schedule 
and cost growth associated with those options.

        a.  Mr. John Cunningham

        b.  Mr. Greg Withee

        c.  General John Kelly

        d.  Admiral Conrad Lautenbacher

A6. All NPOESS EXCOM and Triagency Steering Committee (TSC) members 
knew of the development problems in the NPOESS instruments in Fall 
2004. In January 2005, the EXCOM instructed the TSC to establish an 
independent review team (IRT) to give the Government independent advice 
on these problems. However, IPO and the contractor responded to 
repeated questions by the EXCOM and TSC members as to the impact of 
these problems on overall NPOESS cost and schedule by maintaining that, 
although delivery of NPOESS instruments to the NPP satellite had 
slipped and were exerting significant pressure on the FY 2005 and FY 
2006 budget, launch of the first NPOESS satellite remained within cost 
and schedule.
    On March 16, 2005, the TSC visited the Northrop Grumman Space 
Technology site and asked, the same question regarding the overall 
impact of the sensor problems to the NPOESS cost and schedule. The 
contractor stated that, although the delivery of NPOESS instruments to 
the NPP satellite had slipped and were exerting pressures on the FY 
2005 and 2006 budgets, the launch of the first NPOESS satellite 
remained on schedule.
    With respect to when the following individuals learned that 
Northrop Grumman was indicating it could not maintain the cost and 
schedule baseline:

        a.  We do not know exactly when Mr. John Cunningham first 
        learned this information; he has since left Government service;

        b.  Mr. Greg Withee learned from voice communication from John 
        Cunningham early in the first week of April 2005;

        c.  General John Kelly learned from voice communication from 
        Mr. Greg Withee in the first two weeks of April 2005;

        d.  Admiral Conrad Lautenbacher learned from voice 
        communication from Mr. Greg Withee in the first two weeks of 
        April 2005.

    Scenarios were presented to the TSC on April 19, 2005. There was no 
discussion that these were the same scenarios as in the March 31 
briefing. The March 31 briefing was finally sent to Mr. Greg Withee in 
the summer 2005, and soon after discussed with General John Kelly and 
Admiral Lautenbacher.

Q7.  In the weeks and months following the March 31 briefing, the IPO 
was placed in charge of overseeing the development of scenarios to find 
the optimal combination of minimizing schedule slip at the least cost. 
The IPO, in turn, relied upon Northrop Grumman to develop those options 
with more specific information. The IPO would present options to the 
Tri-Agency Steering Committee (TSC). We know there were presentations 
to the TSC in April and May. Finally, the Executive Committee met on 
August 19, 2005 with an intention to provide some direction to the 
program. The decision of the EXCOM was to ask for outside review of 
four options. Four and a half months passed between the March 31 
briefing and the first meeting of the EXCOM.

Q7a.  During those four-and-a-half months the IPO made representations 
to the TSC about the need for speed in receiving guidance from the 
EXCOM. Please provide a list of items that the IPO asked the TSC to 
move up the decision chain and indicate which of those issues were 
communicated to the EXCOM, or its officials, and the means by which 
these communications occurred.

A7a. During the four and one-half months after March 31 the Tri-Agency 
Steering Committee examined a range of options. As the IPO and Northrop 
Grumman Space Technology (NGST) investigated the options, variations 
were identified that represented increased knowledge of the problem. As 
a result, cost estimates were growing and schedules were slipping. 
Neither the IPO nor the contractor could provide consistent cost and 
schedule estimates for the program; thus the estimates and information 
were not deemed credible and the action items in the IPO presentations 
were not followed.
    In July 2005 the TSC thought the estimates had firmed and scheduled 
an EXCOM. On August 11 John Cunningham briefed General Kelly and Mr. 
Greg Withee that, with the inclusion of more detailed subcontractor 
estimates, the estimates had changed again and were significantly 
higher than set previous estimates. At the EXCOM meeting, which was 
held a week later, it was decided to call in another review team to 
examine the total program, and provide independent cost and schedule 
assessments.

Q7b.  Please explain how communications between John Cunningham and 
General Kelly occurred between March 31 and August 19.

A7b. Communications between General Kelly and John Cunningham were 
primarily through TSC meetings and pre-briefs for these meetings. 
Additional communications included e-mails and the monthly EXCOM 
reports from Mr. Cunningham to members of the TSC and EXCOM.

Q7c.  Both in private meetings with Members and staff, and in the 
hearing record, there has been an effort to explain that the IPO's work 
was not viewed as entirely reliable on cost and schedule issues. It is 
unclear whether this is due to the staffing mix at the IPO lacking 
adequate cost estimating resources, the personnel involved, or some 
combination of these issues (or other issues yet to be raised). Please 
clarify why the IPO was not viewed as a reliable source of information. 
If that was the view of NOAA senior management, clarify when and how 
this view emerged. Further, please clarify why NOAA senior management 
waited so long to seek outside advice if the IPO was not viewed as a 
reliable source of information. Admiral Lautenbacher, General Kelly and 
Greg Withee may have differing views on these issues and we ask that 
each be allowed to provide their own perspective if there are 
differences in response to this issue.

A7c. The IPO provided rough cost and schedule estimates that were 
constructed primarily by a top-down management estimate for the effort 
required to make the program executable. IPO cost and schedule 
estimates continued to change during the spring and summer of 2005. At 
its August 16 meeting, the Tri-Agency Steering Committee (TSC) believed 
an additional independent estimate was necessary to raise the 
confidence level of the options it was reviewing. The EXCOM concurred 
at its August 19, 2005 meeting.

Q7d.  Please provide a clear explanation of the role of the TSC in 
managing NPOESS. It stood between the formal, interagency managerial 
body, the Executive Committee, and the interagency project management 
office, the IPO. What exactly did the TSC do?

A7d. The TSC was created to serve as a tri-agency issue coordination 
forum to facilitate streamlined decision-making by the EXCOM 
Principals. The TSC reviewed the status of the program, considered 
decisions necessary to program activity, and referred issues with 
recommendations to the EXCOM.

Question submitted by Representative Jim Costa

Q1.  Dr. Livanos's testimony states: ``We have a lot of work to do to 
improve the technical capability and operability of three of our sensor 
packages, but we know how to do this and work is under way. We have 
provided more than 30 different scenarios to our government customers 
on the critical path forward, optimizing cost and schedule 
considerations.'' However, there is no mention of spacecraft issues 
(e.g., bus design, launch schedules, etc.) and how they will be 
impacted by the re-baselining of the program. What impacts will you 
expect resolution of the issues with the sensors and re-baselining of 
the NPOESS program to have on the portions of the program involving the 
spacecraft?

A1. The spacecraft has been impacted by the redirection of funds in FY 
2006. Specifically, more funds are being used on NPOESS Preparatory 
Project (NPP) sensors and the Conical Scanning Microwave Imager/Sounder 
(CMIS). This will delay launch availability, but not impact the 
spacecraft bus design or ability to meet current requirements.
                   Answers to Post-Hearing Questions
Responses by Ronald M. Sega, Under Secretary for the Air Force

Questions submitted by Chairman Sherwood L. Boehlert

CMIS

Q1.  On November 18, the Department of Defense announced that Northrop 
Grumman Space and Mission Systems Corporation was awarded a $12 million 
contract modification to transfer responsibility for part of the 
Conical Scanning Microwave Imager (CMIS) sensor from Boeing to Northrop 
Grumman. Please explain why this change was made. How will it help 
reduce technical and schedule risk associated with the CMIS sensor? 
Under the contract modification, what aspects of the CMIS sensor remain 
Boeing's responsibility and what aspects are Northrop Grumman's 
responsibility? Do you anticipate further contract modifications for 
CMIS?

A1. This was a modification to the National Polar-orbiting Operating 
Environmental Satellite Systems (NPOESS), Acquisition and Operations 
Contract. The change transferred the Conical Scanning Microwave Imager 
Sounder (CMIS) momentum wheel compensation responsibility from Boeing 
Satellite System (BSS) to Northrop Grumman Space Technology. The NPOESS 
Satellite design includes a large spinning reflector as part of the 
CMIS sensor, requiring Momentum Wheel Assemblies (MWAs) to compensate 
for the torque and momentum applied to the spacecraft. The baseline 
design had Boeing Satellite supplying the MWAs as part of the CMIS 
Sensor. Trade studies revealed that if the spacecraft attitude control 
subsystem developed by Northrop Grumman performed momentum compensation 
for CMIS, then CMIS related anomalies would have lower impact on the 
overall mission performance.

NPOESS INDEPENDENT PROGRAM ASSESSMENT

Q2.  The National Polar-Orbiting Operational Environmental Satellite 
System (NPOESS) Independent Program Assessment found that, while there 
is major sensor testing planned for Fiscal Year (FY) 06, there are no 
management reserves to cover potential problems in FY06. How will you 
deal with any problems discovered during the major tests if there is no 
reserve funding? If necessary, would you request reprogramming of funds 
from other programs?

A2. The program is presently evaluating several alternatives and 
implementing the recommendations of the Independent Program Assessment. 
The program office and Northrop Grumman Space Technology have recently 
established an agreed-to scope of activities for FY06 that is in 
concert with the appropriated funding and recommended confidence 
levels. These activities include a prudent level of management reserve 
to address problems that may occur. As part of the ongoing Nunn-McCurdy 
certification activities, we will reassess the required FY06 funding 
consistent with the program alternative chosen.

NPOESS EXECUTIVE COMMITTEE

Q3.  The National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) Executive Committee (EXCOM) met on November 22, to 
consider a number of options for reconfiguring the NPOESS program. What 
guidance did the EXCOM provide to the Tri-Agency Steering Committee, 
Integrated Program Office, and the Independent Program Assessment to 
develop these options? When and in what form was that guidance 
provided? What criteria did the EXCOM apply in choosing which option or 
options to pursue? What other decisions were made at the EXCOM meeting?

A3. The EXCOM provided verbal direction to the program office to 
consider four options provided by the Independent Program Assessment, 
and directed the Cost Analysis and Improvement Group (CAIG) to provide 
independent cost estimates for those options. The EXCOM also directed 
the program office to keep open other options that may merit additional 
consideration. Once the cost estimates are finished, program 
alternatives can be weighed and the program restructured. The EXCOM did 
not provide specific criteria to apply in choosing options and did not 
choose a replan option at this time. There were no other decisions made 
at the meeting concerning options or the restructuring of the program.

NPOESS, CMIS, & VIIRS

Q4.  In his testimony, Admiral Lautenbacher stated that he believes the 
technical issues with two of the problematic instruments for National 
Polar-orbiting Operational Environmental Satellite System (NPOESS), 
Conical Microwave Imager Sounder (CMIS) and the Visible/Infrared Imager 
Radiometer Suite (VIIRS), ``are being resolved.'' He said that National 
Oceanic and Atmospheric Administration (NOAA) is ``incorporating 
lessons learned from VIIRS into our management approach to CMIS.'' 
Please explain more specifically what technical issues remain with CMIS 
and VIIRS and what lessons learned from VIIRS are being incorporated 
into CMIS and NPOESS program processes.

A4. The Visible/Infrared Imager Radiometer Suite (VIIRS) experienced 
issues with its telescope and with integrated circuits used in the 
focal planes. The Conical Microwave Imager Sounder (CMIS) development 
experienced integration and early subsystem test failures of key front-
end receiver elements. As a lesson learned from the VIIRS development, 
CMIS development will proceed in a serial manner.

NPOESS USERS

Q5.  In his testimony, Dr. Livanos said, ``The satellite itself has a 
requirement for 55 types of things that it has to deliver. We are 
currently looking at how we can meet 50 of those.'' Are the users of 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) data being consulted as part of this look at decreasing the 
number of requirements for NPOESS? If so, please explain the process by 
which the users are included or consulted with about decisions 
regarding requirement changes. If you have consulted with users, what 
options do they favor and what are their primary concerns about cutting 
back from 55 to 50 environmental data records?

A5. All requirements questions, especially those concerning the 
environmental data records, are brought to the attention of the Senior 
Users Advisory Group. This group of senior leaders from Department of 
Commerce (DOC), National Aeronautics 8s Space Administration (NASA), 
and the Department of Defense (DOD) is chaired by the Director of the 
National Weather Service. This group meets regularly to discuss program 
progress and the needs of the meteorological community. The Nunn-
McCurdy process is examining a range of options regarding environmental 
data records.

NPOESS PROGRAM MANAGEMENT OFFICE

Q6.  Mr. Powner said in his testimony that an independent review of the 
problems plaguing the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) program was delivered to the government in 
August 2005. According to Mr. Powner, that report said that the NPOESS 
program management office did not have the technical system engineering 
support it needed to effectively manage the contractor. What changes 
have you made or do you plan to make to fix this problem?

A6. The Integrated Program Office has completely restructured its 
management organization to strengthen the systems engineering effort 
for the program. Additional support will be added to the systems 
engineering organization in the future. All three agencies (National 
Oceanic and Atmospheric Administration (NOAA) , National Aeronautics 8y 
Space Administration (NASA), and the United States Air Force (USAF)) 
have committed to help staff the organization. A Chief Engineer 
position was created to handle major systems development problem areas 
and to ensure adequate attention is paid to each concern. A Mission 
Assurance shop with direct report to the NPOESS System Program Director 
will review program milestones to ensure readiness before passing major 
gates in the development and production areas.

NPOESS EXECUTIVE COMMITTEE

Q7.  What do you see as the most difficult program management 
challenges for National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) today and how are these being addressed by 
the NPOESS Executive Committee (EXCOM)?

A7. The most difficult program management challenge facing the NPOESS 
program is to keep the program progressing while the Nunn-McCurdy 
certification process and resulting decisions are in progress. The 
EXCOM has helped expedite the decision process. For Fiscal Year 2006, 
the work being done is fundamental to any of the NPOESS program replan 
options.

HIGH RISK PROGRAMS

Q8.  Given the problems that the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) program has faced, do you 
believe the contract bid process for high-risk programs needs to be 
changed to ensure that initial bids and program baselines are based on 
an 80 percent confidence level and incorporate only previously proven 
technologies?

A8. The selection of a confidence level for program cost estimates is a 
program-specific decision. It should be tied to the risk that the 
agency is willing to take on the program and the appropriate level of 
technology maturity. However, as a matter of policy, I am pursuing a 
fundamental shift in space acquisition, embracing the Young Panel 
findings recommending that programs be funded to higher confidence 
levels whenever possible.

Questions submitted by Representative Bart Gordon

DMSP SATELLITES

Q1.  The DMSP satellite series has been built by Lockheed Martin for 
DOD since the mid-1960's. If DOD required additional DMSP satellites to 
cover a schedule slip for NPOESS that extended beyond 2012, would it be 
possible to order additional DMSP satellites to overcome any potential 
DOD data gap?

A1. The DMSP production line was closed in August 1999. A study was 
completed in 2001 by the Space and Missiles Systems Center that 
examined the feasibility of producing additional DMSP satellites or a 
block upgrade of DMSP. The study concluded that the cost of development 
and production of additional. DMSPs was significant, with non-recurring 
costs increased by parts obsolescence. Design and retooling would also 
be required since DMSP is out of production. Further, additional parts 
have become obsolete, exacerbating the problem. However, we are 
exploring the possibility of a Service Life Extension Program (SLEP) 
for the remaining DMSP satellites that could extend the life of those 
satellites beyond 2012.

NPOESS SYSTEM

Q2.  What are the ramifications for the NPOESS program if the Nunn-
McCurdy certification process results in a finding that the NPOESS 
system is essential to the national security with respect to data 
availability to NOAA and other civilian users and with respect to 
NOAA's international data sharing agreements, and for the current 
technical and software specification of the NPOESS system?

A2. The NPOESS program was established in 1995 with the agreement that 
the data it provides support both military and civil environmental data 
products and be available to national and international users, except 
in times of crisis or war, as dictated by the U.S. National Command 
Authority. Therefore, there should be no adverse ramifications expected 
if the Nunn-McCurdy certification finds NPOESS is essential to national 
security.

NUNN-MCCURDY PROCESS

Q3.  If the Nunn-McCurdy certification process results in a finding 
that the NPOESS system is not essential to the national security can 
DOD proceed with program under the statutory requirements of Nunn-
McCurdy?

A3. To continue the obligation of funds, the Nunn-McCurdy statute 
requires the Under Secretary of Defense for Acquisition Technology and 
Logistics (USD(AT&L) ) to submit to Congress a certification (with 
supporting explanation) that:

        (i)  such acquisition program is essential to the national 
        security;

        (ii)  there are no alternatives to such acquisition program 
        which will provide equal or greater military capability at less 
        cost;

        (iii)  the new estimates of the program acquisition unit cost 
        or procurement unit cost are reasonable; and

        (iv)  the management structure for the acquisition program is 
        adequate to manage and control program acquisition unit cost or 
        procurement unit cost. The USD(AT&L) makes his decision based 
        on a number of inputs from across the Department and, in the 
        case of NPOESS, will also include inputs from Department of 
        Commerce (NOAA) and NASA.

EXCOM

Q4.  You and Admiral Lautenbacher both discussed the EXCOM's interest 
in better assessing and reducing the technical, financial and schedule 
risks of the NPOESS program. Has the EXCOM received or requested an 
analysis of the integration risks? Are the current options and plans 
for NPOESS based solely upon the risks associated with the development 
of the individual sensors or has integration risk been incorporated as 
well?

A4. Integration risk was an integral feature of the risk assessment 
provided to the EXCOM. Integration risk is also considered and 
highlighted in the Risk Management process employed on the program. 
Current options and plans include prudent measures for the mitigation 
of integration risk.

VIIRS

Q5.  How much of the currently budgeted Fiscal Year (FY) 2006 and FY 
2007 funding is available for reprogramming within the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) program by 
changing the Visible/Infrared Imager Radiometer Suite (VIIRS) 
development approach from concurrent development to serial development?

A5. The change from a concurrent to a serial approach did not reduce 
overarching funding for NPOESS in the FY 2006 and 2007 budget. The 
decision to move to serial development was done to reduce the risk 
inherent in a concurrent development. Of the funding that shifted, the 
NPOESS program internally reallocated the available funding to meet its 
most pressing development tasks identified by the Independent Program 
Assessment and to increase the opportunity for increased mission 
success.

Question submitted by Representative Jim Costa

Q1.  Dr. Livanos's testimony states: ``We have a lot of work to do to 
improve the technical capability and operability of three of our sensor 
packages, but we know how to do this and work is under way. We have 
provided more than 30 different scenarios to our government customers 
on the critical path forward, optimizing cost and schedule 
considerations.'' However, there is no mention of spacecraft issues 
(e.g., bus design, launch schedules, etc.) and how they will be 
impacted by the re-baselining of the program. What impacts will you 
expect resolution of the issues with the sensors and re-baselining of 
the NPOESS program to have on the portions of the program involving the 
spacecraft?

A1. It is anticipated that resolution of the sensor issues can be 
accomplished without major impact to the spacecraft. All options are 
viewed in light of their impact on the spacecraft and their effect on 
launch date. The re-baselining is anticipated to slip the launch date. 
The exact slip is dependent upon the option selected.
                   Answers to Post-Hearing Questions
Responses by Alexis C. Livanos, President, Northrop Grumman Space 
        Technology

Questions submitted by the Majority

Q1.  On November 18, the Department of Defense announced that Northrop 
Grumman Space and Mission Systems Corporation was awarded a $12 million 
contract modification to transfer responsibility for part of the 
Conical Scanning Microwave Imager (CMIS) sensor from Boeing to Northrop 
Grumman. Please explain why this change was made. How will it help 
reduce technical and schedule risk associated with the CMIS sensor? 
Under the contract modification, what aspects of the CMIS sensor remain 
Boeing's responsibility and what aspects are Northrop Grumman's 
responsibility? Do you anticipate further contract modifications for 
CMIS?

A1. This contract modification transferred responsibility for CMIS 
momentum compensation from the CMIS instrument and Boeing to the NPOESS 
spacecraft and Northrop Grumman Space Technology. The CMIS instrument 
is a large spinning structure which generates torque and momentum that 
must be compensated for either in the instrument or on the spacecraft. 
In the baseline design, Momentum Wheel Assemblies within the CMIS 
instrument compensated for the torque and momentum generated by the 
instrument. Trade studies indicated that anomalies in CMIS control 
would have less impact on the spacecraft if compensation was provided 
by the spacecraft attitude control subsystem. CMIS momentum 
compensation was therefore transferred to the spacecraft to improve 
performance during a CMIS anomaly and reduce mission risk. The 
remainder of the CMIS instrument functions, including the Receiver 
Subsystem, Scan Control and Data Handling Subsystem, Antennas and 
Structures, and algorithm development, remain Boeing's responsibility. 
Although minor contract modifications to clarify interfaces may occur 
in the future, no significant contract modifications are anticipated.

Q2.  In your testimony, you said, ``The satellite itself has a 
requirement for 55 types of things that it has to deliver. We are 
currently looking at how we can meet 50 of those.'' Are the users of 
NPOESS data being consulted as part of this look at decreasing the 
number of requirements for NPOESS? If so, please explain the process by 
which the users are included or consulted in decisions regarding 
requirement changes. If you have consulted with users, what options do 
they favor and what are their primary concerns about cutting back from 
55 to 50 environmental data records?

A2. NPOESS produces 55 Environmental Data Records (EDRs). Within these 
EDRs there are 1,598 attributes specified in the NPOESS System 
Specification and of these attributes, over 95 percent currently meet 
or exceed spec. Less than five percent do not. NGST is assessing 
hardware and software approaches to bring these attributes into 
compliance and does not plan to eliminate any EDRs. NGST will work in 
conjunction with the IPO, the user community, and through the formal 
program change control process to assess whether specifications can be 
modified or waivers granted for those attributes which cannot be 
brought into compliance. This process requires that trades and analyses 
be performed to define a recommended approach and an expected level of 
performance. The recommended approach will be reviewed and approved by 
the Change Control Board (CCB) prior to submittal to the IPO for review 
and approval. Users are consulted and their inputs incorporated in the 
trades and analyses leading to the recommended approach.
    It should be noted that users are well represented on the program 
and are routinely included in NPOESS on-going activities. Potential 
changes in NPOESS capability or data quality are referred to the Senior 
Users Advisory Group (SUAG). This group is chaired by the Director of 
the National Weather Service and staffed with senior user 
representatives from DOC, DOD, and NASA. Users also participate from 
time to time in the program Integrated Product Teams and were 
participants in the delta Preliminary Design Review held this summer. 
User forums are also held routinely with the Centrals, Operational 
Algorithm Teams (OATS) and science users, and with the direct read-out 
users.

Q3.  While the direction of the NPOESS program is uncertain, what is 
Northrop Grumman Space Technology doing to ensure the company maintains 
the ``A-team'' of highly qualified people (many of whom have only 
recently been put in place due to personnel changes in response to 
NPOESS cost and schedule issues) at Northrop Grumman and at the NPOESS 
subcontractors?

A3. Members of the Northrop Grumman Space Technology (NGST) leadership 
team are highly motivated to resolve issues on the program and deliver 
this important national mission to the country. They are also part of 
NGST's formal incentive compensation program, which provides incentive 
bonuses and restricted stock units for meeting program and organization 
objectives. Incentive awards are based on program performance, and each 
participant has specific goals aligned with the program objectives--to 
include keeping the NPOESS team intact and assuring operating 
efficiency. NGST has also been able to strengthen its NPOESS management 
team by adding key management, notably to the Program Office, Space 
Segment and Payload teams.
    Subcontractors have similar incentive plans in place, and on a case 
by case basis, some subcontractors have individualized incentive plans 
for key personnel. In addition, the NGST NPOESS program office has 
specific employee incentive programs in place at some of the key 
subcontractors. At Raytheon Santa Barbara Remote Sensing, an employee 
incentive plan has been established to support delivery of the VIIRS 
instrument. This plan rewards timely delivery of a high quality product 
and is structured to motivate employees to remain on the NPOESS 
program. To date, the attrition rate on the NPOESS program has been low 
and consistent with other programs at NGST.

Q4.  Northrop Grumman Space Technology participated in the government's 
Critical Design Review (CDR) for the Visible/Infrared Imager Radiometer 
Suite (VIIRS) sensor. VIIRS is a developmental sensor with much new 
technology, yet the CDR did not include a full engineering design unit. 
Given the nature of the CDR, why didn't Northrop Grumman require more 
rigorous review of VIIRS after the company assumed responsibility for 
the VIIRS sensors development? And given the limitations of the VIIRS 
review and Raytheon Santa Barbara's limited experience building 
operations sensors, why wasn't Northrop Grumman's oversight of the 
subcontract more rigorous?

A4. When Northrop Grumman Space Technology (NGST) first took over 
responsibility for the VIIRS subcontract, there was no evidence to 
suggest that a rigorous review was needed. Santa Barbara Remote 
Sensing's (SBRS's) performance under the Government contract that had 
been ongoing for several years had been satisfactory and there was a 
claim of strong heritage to the MODIS instrument. SBRS also enjoyed a 
very favorable reputation in the industry at that time. Unfortunately, 
NGST was unaware of the significant erosion of talent that had occurred 
at SBRS.
    The impact of not performing a rigorous review when taking over 
responsibility for VIIRS has revealed a short-coming in our subcontract 
management practices and is a lesson learned. As a result, I have 
directed NGST to institute the practice of performing subcontractor 
capability assessments of any development activity transferred to NGST. 
I have also directed that NGST audit the criteria, analysis, products, 
and action closure of the last major gate review of any development 
subcontract transferred to NGST. If the review process and products are 
inadequate, the review will be repeated. Repeating this review will 
assure the product is as mature as claimed, that the thoroughness of 
processes employed is adequate, that sufficient analyses support the 
design, and that documentation is complete. This repeated review, 
coupled with the capability audits, technical assessments, and 
executability reviews will allow NGST to best match the technical 
talent assigned to the subcontract management teams with our 
subcontractor's needs and ensure a more effective transfer of 
development responsibility.
    Other than not conducting this early review, our oversight of VIIRS 
has been exceptionally rigorous. The acquisition team assigned to VIIRS 
is staffed with a very experienced and highly qualified Acquisition 
Manager (the program manager for the subcontract), supported by an 
equally qualified team of approximately 20 technical, quality, and 
material and process experts. This team, drawing support from many 
areas within NGST, Aerospace, NASA and the IPO, conducted over a dozen 
focused audits, established fourteen working groups to address 
underlying issues, conducted numerous Surgical Design Reviews to assess 
design maturity in focused areas, and conducted (or will conduct) over 
forty Test Readiness Reviews. NGST Mission Assurance personnel resolved 
issues at SBRS suppliers and in some cases NGST personnel were placed 
at these suppliers. Over the last four months, extensive detailed 
design reviews have been conducted in potential risk areas to identify 
any remaining design issues.
    In late 2004, to enhance the acquisition team's effectiveness, NGST 
placed the Acquisition Manager and 10 of these engineering and 
manufacturing personnel on-site at SBRS. Northrop Grumman also 
established frequent executive level communication with Raytheon 
executives and effectively used award fee to assure proper focus was 
applied to the VIIRS development. As a result, Raytheon conducted 
internal audits of SBRS processes and personnel and made significant 
changes in both. Recently, Raytheon has also improved the reporting 
structure of the VIIRS development to assure Raytheon executive 
management is fully responsive to the project needs.
    NGST will continue to rigorously manage the development and 
production of the VIIRS instrument and is continuing to upgrade our 
subcontract management practices.

Questions submitted by Democratic Members

Q1.  You indicated in your written testimony and during the hearing 
Northrop-Grumman's belief that additional funds in FY 2006 and FY 2007 
would result in a lower total program cost and in less schedule delay 
as compared to other program options being considered. Specifically, 
what activities would be allocated these additional funds? What risks 
would be addressed by spending additional funds during the next two 
years? How much additional funding would you estimate is needed to 
reduce risks of additional schedule slips and hold down total program 
costs?

A1. NGST believes that providing additional NPOESS funding would reduce 
program risk and the risk of further schedule and life cycle cost 
increases. Increased funding would be used primarily to accelerate 
resolution of program risks. More specifically, additional funding 
would help further development on several key sensors. For example, 
additional funding would be applied to risk reduction activities at 
Raytheon on the Visible/Infrared Imaging Radiometer Suite (VIIRS), 
including increased environmental and risk reduction testing of the 
VIIRS engineering development unit. It would also be used to continue 
the development of a second source for the VIIRS instrument and also 
possible procurement of heritage backup sensors for both VIIRS and the 
Conical Microwave Imager and Sounder (CMIS) along with the necessary 
modifications to the system to fly those heritage sensors. Funding 
would be applied to the CMIS development to accelerate risk reduction 
activities currently underway on CMIS receivers and to selected long 
lead part procurement to increase CMIS schedule margin.
    These activities would lead to more repeatable, lower risk, more 
cost-efficient production of the flight units and would reduce risk to 
meeting the launch schedules of NPP and NPOESS. A more assured launch 
of NPP and NPOESS would minimize the potential gap in weather coverage. 
The ability to apply new funds to a program to solve problems 
effectively is both timing and scenario dependent. Since we are well 
into the fiscal year and NGST is performing in FY 2006 to an efficient 
NPOESS development plan that supports launch in May of 2012, further 
funding in FY 2006 would likely not be effective. Depending on the 
option selected and recertified at the end of the Nunn-McCurdy process, 
it is highly possible that additional funds in FY07 could help retire 
more risk earlier and bring the resulting program plan into compliance 
sooner with a funding profile based on a higher probability of success. 
It is not possible, however, to quantify that statement until we know 
which option we are going to pursue.

Q2.  You indicated in your testimony that Northrop Grumman was asked to 
produce options on how to proceed with the NPOESS program ``earlier 
this year'' by your ``customer.'' When was the request to produce these 
options made and specifically, who made the request on behalf of the 
government?

A2. Northrop Grumman presented three NPOESS program options to the IPO 
on 31 March 2005. Between April 2005 and September 2005 the IPO 
requested a broad range of options which traded funding, schedule, and 
program scope. Over 20 options were developed and presented to the IPO 
during this period, some being derivatives of previously developed 
options.
    In September 2005 the Independent Program Assessment (IPA) team 
requested five additional options. These options traded not only 
funding, schedule, and program scope, but also traded execution risk. 
Previously developed options had been based on ``most probable'' 
outcomes; the IPA requested development of options with high execution 
confidence. These higher confidence options required lengthening the 
program schedule and increased funding requirements for the program. 
The options developed for the IPA led to their recommended Option A, a 
program that delays NPOESS critical design review (CDR) by 25 months 
and delays the launch of the first two NPOESS satellites, C1 and C2, by 
30 months each.
    In October 2005, the IPO requested that NGST develop an Interim 
Program Plan (IPP) for 2006. NGST developed the IPP around Option A to 
assure that near-term activities would support the IPA's recommended 
option. The plan defines only the 2006 program activities, schedule, 
and expenditure profile in detail, awaiting conclusion of the Nunn-
McCurdy process. The tasks which will be completed in 2006 under the 
IPP represent a significant body of work that is applicable not only to 
Option A, but also other options under consideration.

Questions submitted by Representative Jim Costa

Q1.  It is our understanding that the VIIRS sensor referred to in your 
testimony is addressing its technical issues and has been meeting the 
re-baselined VIIRS schedule for almost a year. Is this true, and how 
does that impact the cost overruns you mentioned?

A1. Beginning in January 2005, we saw notable improvement in the VIIRS 
sensor subcontractor's performance when working to the Revised Recovery 
Plan (RRP). Engineering Development Unit (EDU) Integration and Testing 
(I&T), in particular, made excellent progress and was able to adhere to 
the RRP schedule for many months. Integration of the Flight Unit 1 
(FU1) modules was also progressing well in parallel with the EDU I&T 
through the end of August 2005 when a structural test failure occurred 
during testing of the FU1 Aft Optics Assembly. Since there had been 
numerous structural test failures prior to that time, the decision was 
made to stop all environmental testing while additional reviews of the 
designs could be completed. All EDU and FU1 testing was put on hold. An 
independent team of highly qualified engineers was brought in from 
other Raytheon divisions and teamed with representatives of Northrop 
Grumman and the Government to support Santa Barbara Remote Sensing 
(SBRS). The most critical of these structural, thermal and test design 
reviews have recently been completed and testing has begun again. In 
these early stages of resumed testing, performance of the VIIRS 
subcontractor again appears to be exhibiting the same, if not better, 
improved performance that we saw during the early portions of 2005.
    The infusion of outside personnel has had the benefit of 
significantly improved rigor in adherence to processes at SBRS In 
addition, technical analyses are being performed to a greater level of 
detail and have multiple peer reviews by very senior, highly qualified 
engineers not associated with the original design. Having completed 
these detailed analyses and reviews, the chance of additional delays 
due to test failures has been significantly reduced. Although many of 
the most critical of these reviews are now complete, additional reviews 
are ongoing in advance of each test.
    To further reduce program risk, testing of the integrated EDU and 
the Flight Unit was made serial. The schedule impact of this and of the 
additional design reviews has delayed delivery of the first VIIRS 
Flight Unit until July 2008. The delay of VIIRS delivery has impacted 
the remainder of the NPP and NPOESS program schedules, triggering a 
complete program re-plan. By stretching out the NPP and NPOESS, program 
launch dates, these ripple effects from the VIIRS program have 
contributed significantly to the overall cost growth of the NPOESS 
program.

Q2.  According to testimony of Admiral Lautenbacher and Dr. Sega, it 
appears the work on the VIIRS sensor will move from a concurrent 
development of the engineering design unit and the flight unit to a 
serial development. How many people are associated with the flight unit 
development team? If the team is laid off until the engineering flight 
unit is developed will there be a problem recruiting the same or new 
individuals for the flight unit team once the engineering design unit 
is complete? When do you anticipate the completion of the engineering 
development unit under this scenario and when do you anticipate 
reconstituting a flight unit development team?

A2. The VIIRS development plan has been made more serial to assure that 
design or manufacturing issues uncovered during test of the Engineering 
Development Unit (EDU) can be incorporated into the Flight Unit. This 
more serial approach reduces overall program risk and allows the same 
team that is currently testing the EDU to test the integrated Flight 
Unit.
    Not all of the Engineering Development Unit and Flight Unit tasks 
will be serial. Currently, the fully integrated EDU is being tested by 
the Integration and Test (I&T) team while the Flight Unit sub-
assemblies are being assembled and tested. Tests of the EDU sub-
assemblies were completed in 2005 and findings from these sub-assembly 
tests have been incorporated in the Flight Unit sub-assemblies. Once 
the Flight Unit sub-assemblies are completed they will be set aside, 
awaiting the outcome of the integrated EDU tests in the fourth quarter 
of 2006. It is anticipated that the Flight Unit team, consisting of 
approximately 150 personnel, will be reassigned to other programs once 
Flight Unit sub-assemblies are completed, and that the current EDU 
Integration and Test (I&T) team will integrate and test the Flight 
Unit. A new Flight Unit I&T team will not need to be formed and 
learning and efficiency will be improved by having the same I&T team 
test the integrated EDU and the Flight Unit.

Q3.  Based on your written testimony, you state: ``We have a lot of 
work to do to improve the technical capability and operability of three 
of our sensor packages, but we know how to do this and work is under 
way. We have provided more than 30 different scenarios to our 
government customers on the critical path forward, optimizing cost and 
schedule considerations.'' However, there is no mention of spacecraft 
issues (e.g., bus design, launch schedules, etc.) and how they will be 
impacted by the re-baselining of the program. What impacts will you 
expect resolution of the issues with the sensors and re-baselining of 
the NPOESS program to have on the portions of the program involving the 
spacecraft?

A3. Northrop Grumman views development of the spacecraft as low risk, 
and in 2004 and 2005 delayed its development, so that funding 
originally intended for spacecraft development could be used to resolve 
sensor issues. Growth in sensor mass and power during this period has 
caused growth in the spacecraft mass and power. With this growth, 
development of the spacecraft remains low risk and well within Northrop 
Grumman's capability. Northrop Grumman is currently on plan to develop 
the spacecraft to support a May 2012 launch of the first NPOESS 
satellite, consistent with IPA Option A.
                   Answers to Post-Hearing Questions
Responses by David A. Powner, Director of Information Technology 
        Management Issues, Government Accountability Office

Questions submitted by Democratic Members

Q1.  In response to a question from Rep. Wu about the management 
structure of the NPOESS program, you indicated the management structure 
was ``typical.'' This program is acknowledged to be unique in its 
partnership between three agencies. Was your characterization in 
reference to the non-governmental management structure--prime 
contractor as overseer of subcontractors responsible for individual 
program elements--or did your response refer to the governmental 
management structure of NPOESS, or both?

A1. My statement that the decision-making structure of the NPOESS 
program was typical pertained to the relationships among the 
governmental and non-governmental organizations--including the 
government's integrated program office, the executive committee, the 
prime contractor, and the subcontractors. I also noted that it is 
important that both the government and the prime contractor have 
oversight into the activities of the subcontractors.

Q2.  Does the governmental management structure, which includes an 
Executive Committee (EXCOM), a Tri-Agency Steering Committee (TSC), and 
an Integrated Program Office (IPO), represent a more complex structure 
than is usual for managing satellite system procurement?

A2. The governmental management structure of the NPOESS program is 
complex in that it involves the partnership of three different agencies 
(NOAA, NASA, and DOD). Many satellite programs are joint initiatives, 
involving more than one branch of the military or involving more than 
one civilian agency. Examples include the Global Positioning System 
program, the Wideband Gapfiller Satellites, and the Geostationary 
Operational Environmental Satellite series. The Global Positioning 
System is an Air Force-led joint program with the Army, Navy, 
Department of Transportation, National Geo-Spatial Intelligence Agency, 
United Kingdom, and Australia. The Wideband Gapfiller Satellites 
program is a joint Air Force and Army program. Prior and current 
Geostationary Operational Environmental Satellite programs involve 
integrated NOAA and NASA management. The management structure 
supporting these projects is often complex--involving interagency 
responsibilities and agreements.
    To handle the competing interests and needs of the three agencies, 
a tri-agency memorandum of understanding established the IPO to provide 
joint program management and the EXCOM to provide joint executive 
leadership--as directed by the Presidential Decision Directive that 
established the program. TSC was established later, without a charter, 
as an intermediary group to work with the IPO and report to the EXCOM. 
A multi-tiered governance structure can be an effective means of 
overseeing such a complex program, and is not atypical.

Q3.  Please briefly compare the performance of this governmental 
management structure to those of other satellite programs you have 
observed. How might the performance of the governmental management 
structure be improved (i.e., are the Independent Program Assessment 
team's recommendations appropriate)? Are changes in the Program Office 
management sufficient to correct the management problems with this 
program or are other changes in program management also needed? If so, 
what changes would increase the performance of NPOESS program 
management?

A3. In recent years, we have reported on several satellite programs 
that have experienced cost, schedule, and performance problems.\1\ We 
found that, while the structure defining how a program is managed is 
important, it is what these managers do that is key to their 
performance. Having an effective process for identifying, escalating, 
and managing risks as well as clear and effective decision-making 
authority are both critical to effective program management. Regarding 
NPOESS: in our testimony, we noted that problems involving multiple 
levels of management--including the subcontractor, contractor, program 
office, and executive leadership--have played a role in the NPOESS 
program's problems. Specifically, technical sensor development issues 
were attributed in part to the subcontractor's inadequate project 
management and neither the contractor nor the program office recognized 
the underlying problems in time to fix them. An independent review of 
the situation reported that the program office did not have the 
technical system engineering support it needed to effectively manage 
the contractor. Additionally, we testified that the involvement of the 
NPOESS executive leadership has wavered from frequent heavy involvement 
to occasional meetings with few resulting decisions. Clearly, the 
performance of the NPOESS governmental management structure would be 
improved by increasing the technical system engineering capabilities on 
the program office team, and increasing the depth and frequency of 
their reviews of contractor and subcontractor performance. 
Additionally, risks should be analyzed, prioritized and, when 
appropriate, escalated to senior managers for discussion and decisions. 
Lastly, the executive board needs to exercise sound decision-making 
authority in a timely fashion. These changes should help improve the 
performance of NPOESS program management.
---------------------------------------------------------------------------
    \1\ For example, GAO, Space Acquisitions: Stronger Development 
Practices and Investment Planning Needed to Address Continuing 
Problems, GAO-05-891T (Washington, D.C.: July 12, 2005), GAO, Defense 
Acquisitions: Incentives and Pressures That Drive Problems Affecting 
Satellite and Related Acquisitions, GAO-05-5708 (Washington, D.C.: June 
23, 2005), and GAO, Defense Acquisitions: Assessments of Selected Major 
Weapons Programs, GAO-05-301 (Washington, D.C.: Mar. 31, 2005).

    In responding to these questions, we relied on previously reported 
information on NPOESS and other satellite programs as well as agency 
documentation describing NPOESS management responsibilities. We 
performed our work in accordance with generally accepted government 
auditing standards during January 2006.

</pre></body></html>
